<html>
<title> - FACEBOOK: TRANSPARENCY AND USE OF CONSUMER DATA</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


            FACEBOOK: TRANSPARENCY AND USE OF CONSUMER DATA

=======================================================================

                                HEARING

                               BEFORE THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 11, 2018

                               __________

                           Serial No. 115-114
                           

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                           
                           


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov


                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
30-956 PDF                  WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="492e3926092a3c3a3d212c2539672a262467">[email&#160;protected]</a> 





                    COMMITTEE ON ENERGY AND COMMERCE

                          GREG WALDEN, Oregon
                                 Chairman

JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Vice Chairman                        Ranking Member
FRED UPTON, Michigan                 BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
MICHAEL C. BURGESS, Texas            ELIOT L. ENGEL, New York
MARSHA BLACKBURN, Tennessee          GENE GREEN, Texas
STEVE SCALISE, Louisiana             DIANA DeGETTE, Colorado
ROBERT E. LATTA, Ohio                MICHAEL F. DOYLE, Pennsylvania
CATHY McMORRIS RODGERS, Washington   JANICE D. SCHAKOWSKY, Illinois
GREGG HARPER, Mississippi            G.K. BUTTERFIELD, North Carolina
LEONARD LANCE, New Jersey            DORIS O. MATSUI, California
BRETT GUTHRIE, Kentucky              KATHY CASTOR, Florida
PETE OLSON, Texas                    JOHN P. SARBANES, Maryland
DAVID B. McKINLEY, West Virginia     JERRY McNERNEY, California
ADAM KINZINGER, Illinois             PETER WELCH, Vermont
H. MORGAN GRIFFITH, Virginia         BEN RAY LUJAN, New Mexico
GUS M. BILIRAKIS, Florida            PAUL TONKO, New York
BILL JOHNSON, Ohio                   YVETTE D. CLARKE, New York
BILLY LONG, Missouri                 DAVID LOEBSACK, Iowa
LARRY BUCSHON, Indiana               KURT SCHRADER, Oregon
BILL FLORES, Texas                   JOSEPH P. KENNEDY, III, 
SUSAN W. BROOKS, Indiana             Massachusetts
MARKWAYNE MULLIN, Oklahoma           TONY CARDENAS, California
RICHARD HUDSON, North Carolina       RAUL RUIZ, California
CHRIS COLLINS, New York              SCOTT H. PETERS, California
KEVIN CRAMER, North Dakota           DEBBIE DINGELL, Michigan
TIM WALBERG, Michigan
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
EARL L. ``BUDDY'' CARTER, Georgia
JEFF DUNCAN, South Carolina

                                  (ii)
                             
                             
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     2
    Prepared statement...........................................     4
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     5
    Prepared statement...........................................     6

                                Witness

Mark Zuckerberg, Cofounder, Chairman, and Chief Executive 
  Officer, Facebook, Inc.........................................     8
    Prepared statement...........................................    10
    Answers to submitted questions \1\...........................   212

                           Submitted Material

Subcommittee memorandum..........................................   106
Article of November 20, 2012, ``Friended: How the Obama Campaign 
  Connected with Young Voters,'' by Michael Scherer, Time, 
  submitted by Mr. Burgess.......................................   112
Article of April 9, 2018, ``We Already Know How to Protect 
  Ourselves From Facebook,'' by Zeynep Tufekci, New York Times, 
  submitted by Mr. Burgess.......................................   114
Article of March 21, 2018, ``It's Time to Break Up Facebook,'' by 
  Eric Wilson, Politico, submitted by Mr. Burgess................   118
Letter of April 9, 2018, from Faiz Shakir, National Political 
  Director, and Neema Singh Guliani, Legislative Counsel, 
  American Civil Liberties Union, to Representatives in Congress, 
  submitted by Mr. Walden........................................   120
Statement of NetChoice by Carl Szabo, Vice President and General 
  Counsel, April 9, 2018, submitted by Mr. Walden................   125
Letter of April 5, 2018, from John Rowan, National President and 
  Chief Executive Officer, Vietnam Veterans of America, to Mr. 
  Walden and Mr. Pallone, submitted by Mr. Walden................   131
Letter of April 11, 2018, from Allison S. Bohm, Policy Counsel, 
  Public Knowledge, to Mr. Walden and Mr. Pallone, submitted by 
  Mr. Walden.....................................................   142
Letter of April 10, 2018, from Marc Rotenberg, President, 
  Electronic Privacy Information Center, et al., to House Energy 
  and Commerce Committee members, submitted by Mr. Walden........   147
Federal Trade Commission Complaint of December 17, 2009, by Marc 
  Rotenberg, President, Electronic Privacy Information Center, et 
  al., submitted by Mr. Walden...................................   163
Letter of April 10, 2018, from Charles H. Rivkin, Chairman and 
  Chief Executive Officer, Motion Picture Association of America, 
  to Mr. Walden and Mr. Pallone, submitted by Mr. Walden.........   192
Letter of April 10, 2018, from Morgan Reed, President, ACT, the 
  App Association, to Mr. Walden and Mr. Pallone, submitted by 
  Mr. Walden.....................................................   193
Letter of April 10, 2018, from Curt Levey, President, and Ashley 
  Baker, Director of Public Policy, the Committee for Justice, to 
  Mr. Walden and Mr. Pallone, submitted by Mr. Walden............   201

----------
\1\ Questions for the record and responses from Facebook, Inc., 
  have been retained in committee files and also are available at 
   https://docs.house.gov/Committee/Calendar/
  ByEvent.aspx?EventID=108090.
Letter of April 9, 2018, from Jeffrey Chester, U.S. Co-Chair, and 
  Finn Lutzow-Holm Myrstad, EU Co-Chair, Digital Policy 
  Committee, Trans Atlantic Consumer Dialogue, to Mark 
  Zuckerberg, Chief Executive Officer, Facebook, submitted by Mr. 
  Walden.........................................................   205
Letter of October 30, 2017, from Arab American Institute, et al., 
  to Mark Zuckerberg, Chief Executive Officer, and Sheryl 
  Sandberg, Chief Operating Officer, Facebook, submitted by Mr. 
  Walden.........................................................   206
Statement of National Council of Negro Women by Janice L. Mathis, 
  Executive Director, April 10, 2018, submitted by Mr. Walden....   211

 
            FACEBOOK: TRANSPARENCY AND USE OF CONSUMER DATA

                              ----------                              


                       WEDNESDAY, APRIL 11, 2018

                  House of Representatives,
                  Committee on Energy and Commerce,
                                            Washington, DC.
    The committee met, pursuant to call, at 9:59 a.m., in room 
2123, Rayburn House Office Building, Hon. Greg Walden (chairman 
of the committee) presiding.
    Members present: Representatives Walden, Barton, Upton, 
Shimkus, Burgess, Blackburn, Scalise, Latta, McMorris Rodgers, 
Harper, Lance, Guthrie, Olson, McKinley, Kinzinger, Griffith, 
Bilirakis, Johnson, Long, Bucshon, Flores, Brooks, Mullin, 
Hudson, Collins, Cramer, Walberg, Walters, Costello, Carter, 
Duncan, Pallone, Rush, Eshoo, Engel, Green, DeGette, Doyle, 
Schakowsky, Butterfield, Matsui, Castor, Sarbanes, McNerney, 
Welch, Lujan, Tonko, Clarke, Loebsack, Schrader, Kennedy, 
Cardenas, Ruiz, Peters, and Dingell.
    Staff present: Jon Adame, Policy Coordinator, 
Communications and Technology; Mike Bloomquist, Staff Director; 
Daniel Butler, Staff Assistant; Karen Christian, General 
Counsel; Kelly Collins, Legislative Clerk, Energy/Environment; 
Zack Dareshori, Legislative Clerk, Health; Jordan Davis, 
Director of Policy and External Affairs; Melissa Froelich, 
Chief Counsel, Digital Commerce and Consumer Protection; Adam 
Fromm, Director of Outreach and Coalitions; Ali Fulling, 
Legislative Clerk, Oversight and Investigations, Digital 
Commerce and Consumer Protection; Theresa Gambo, Human 
Resources and Office Administrator; Brighton Haslett, Counsel, 
Oversight and Investigations; Elena Hernandez, Press Secretary; 
Zach Hunter, Communications Director; Paul Jackson, 
Professional Staff Member, Digital Commerce and Consumer 
Protection; Peter Kielty, Deputy General Counsel; Bijan 
Koohmaraie, Counsel, Digital Commerce and Consumer Protection; 
Ryan Long, Deputy Staff Director; Milly Lothian, Press 
Assistant and Digital Coordinator; Mark Ratner, Policy 
Coordinator; Austin Stonebraker, Press Assistant; Evan Viau, 
Legislative Clerk, Communications and Technology; Hamlin Wade, 
Special Advisor for External Affairs; Everett Winnick, Director 
of Information Technology; Greg Zerzan, Counsel, Digital 
Commerce and Consumer Protection; Michelle Ash, Minority Chief 
Counsel, Digital Commerce and Consumer Protection; Julie 
Babayan, Minority Counsel; Jeff Carroll, Minority Staff 
Director; Jennifer Epperson, Minority FCC Detailee; David 
Goldman, Minority Chief Counsel, Communications and Technology; 
Lisa Goldman, Minority Counsel; Tiffany Guarascio, Minority 
Deputy Staff Director and Chief Health Advisor; Zach Kahan, 
Minority Outreach and Member Services Coordinator; Jerry 
Leverich III, Minority Counsel; Dan Miller, Minority Policy 
Analyst; Caroline Paris-Behr, Minority Policy Analyst; Kaitlyn 
Peel, Minority Digital Director; Tim Robinson, Minority Chief 
Counsel; Michelle Rusk, Minority FTC Detailee; Andrew Souvall, 
Minority Director of Communications; and C.J. Young, Minority 
Press Secretary.
    Mr. Walden. The Committee on Energy and Commerce will now 
come to order.
    Before my opening statement, just as a reminder to our 
committee members on both sides, it is another busy day at 
Energy and Commerce. In addition, as you will recall, to this 
morning's Facebook hearing, later today our Health Subcommittee 
will hold its third in the series of legislative hearings on 
solutions to combat the opioid crisis. And remember, our 
Oversight and Investigations Subcommittee will hold a hearing 
where we will get an update on the restoration of Puerto Rico's 
electric infrastructure following last year's hurricane season.
    So, just a reminder, when this hearing concludes, I think 
we have votes on the House floor. Our intent is to get through 
every Member before that point to be able to ask questions, but 
then after the votes, we will come back into our subcommittees 
to do that work. As Ray Baum used to say, the fun never stops.
    The Chair now recognizes himself for 5 minutes for purposes 
of an opening statement.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Good morning. Welcome, Mr. Zuckerberg, to the Energy and 
Commerce Committee in the House. We have called you here today 
for two reasons: One is to examine the alarming reports 
regarding breaches of trust between your company, one of the 
biggest and most powerful in the world, and its users; and the 
second reason is to widen our lens to larger questions about 
the fundamental relationship tech companies have with their 
users.
    The incident involving Cambridge Analytica and the 
compromised personal information of approximately 87 million 
American users--or mostly American users--is deeply disturbing 
to this committee.
    The American people are concerned about how Facebook 
protects and profits from its users' data. In short, does 
Facebook keep its end of the agreement with its users? How 
should we as policymakers evaluate and respond to these events?
    Does Congress need to clarify whether or not consumers own 
or have any real power over their online data? Have edge 
providers grown to the point that they need Federal 
supervision?
    You and your cofounders started a company in your dorm room 
that has grown to be one of the biggest and most successful 
businesses in the entire world. Through innovation and 
quintessentially American entrepreneurial spirit, Facebook and 
the tech companies that have flourished in Silicon Valley join 
the legacy of great American companies who build our Nation, 
drove our economy forward, and created jobs and opportunity. 
And you did it all without having to ask permission from the 
Federal Government and with very little regulatory involvement.
    The company you created disrupted entire industries and has 
become an integral part of our daily lives. Your success story 
is an American success story, embodying our shared values of 
freedom of speech, freedom of association, and freedom of 
enterprise.
    Facebook also provides jobs for thousands of Americans, 
including my own congressional district, with data centers in 
Prineville. Many of our constituents feel a genuine sense of 
pride and gratitude for what you have created, and you are 
rightly considered one of the era's greatest entrepreneurs.
    This unparalleled achievement is why we look to you with a 
special sense of obligation and hope for deep introspection. 
While Facebook has certainly grown, I worry it may not have 
matured. I think it is time to ask whether Facebook may have 
moved too fast and broken too many things.
    There are critical unanswered questions surrounding 
Facebook's business model and the entire digital ecosystem 
regarding online privacy and consumer protection: What exactly 
is Facebook? Social platform? A data company? An advertising 
company? A media company? A common carrier in the information 
age? All of the above or something else?
    Users trust Facebook with a great deal of information: 
their name, hometown, email, phone number, photos, private 
messages, and much, much more. But in many instances, users are 
not purposely providing Facebook with data. Facebook collects 
this information while users simply browse other websites, shop 
online, or use a third-party app.
    People are willing to share quite a bit about their lives 
online based on the belief they can easily navigate and control 
privacy settings and trust that their personal information is 
in good hands. If a company fails to keep its promises about 
how personal data are being used, that breach of trust must 
have consequences.
    Today we hope to shed light on Facebook's policies and 
practices surrounding third-party access to and use of user 
data. We also hope you can help clear up the considerable 
confusion that exists about how people's Facebook data are used 
outside of the platform.
    We hope you can help Congress, but more importantly the 
American people, better understand how Facebook user 
information has been accessed by third parties from Cambridge 
Analytica and Cubeyou to the Obama for America Presidential 
campaign.
    And we ask that you share any suggestions you have for ways 
policymakers can help reassure our constituents that data they 
believe was only shared with friends or certain groups remains 
private to those circles. As policymakers, we want to be sure 
that consumers are adequately informed about how their online 
activities and information are used.
    These issues apply not just to Facebook but equally to the 
other internet-based companies that collect information about 
users online.
    So, Mr. Zuckerberg, your expertise in this field is without 
rival. So thank you for joining us today to help us learn more 
about these vital matters and to answer our questions.
    [The prepared statement of Mr. Walden follows:]

                 Prepared statement of Hon. Greg Walden

    Good morning and welcome, Mr. Zuckerberg, to the Energy and 
Commerce Committee.
    We've called you here today for two reasons: One is to 
examine alarming reports regarding breaches of trust between 
your company--one of the biggest and most powerful in the 
world--and its users. And the second reason is to widen our 
lens to larger questions about the fundamental relationship 
between tech companies and their users.
    The incident involving Cambridge Analytica and the 
compromised personal information of approximately 87 million 
users, mostly Americans, is deeply disturbing to this 
committee.
    The American people are concerned about how Facebook 
protects and profits from its users' data. In short, does 
Facebook keep its end of the agreement with its users? How 
should we, as policy makers, evaluate and respond to these 
events?
    Does Congress need to clarify whether or not consumers own 
or have any real power over their online data? Have edge 
providers grown to the point that they need Federal 
supervision?
    You and your co-founders started a company in your dorm 
room that has grown to be one of the biggest and most 
successful businesses in the world. Through innovation and a 
quintessentially American entrepreneurial spirit, Facebook and 
the tech companies that have flourished in Silicon Valley join 
a legacy of great American companies who built our Nation, 
drove our economy forward, and created jobs and opportunity. 
And you did it all without having to ask permission from the 
Federal Government, and with very little regulatory 
involvement. The company you created disrupted entire 
industries and has become an integral part of our lives.
    Your success story is an American success story, embodying 
our shared values of freedom of speech, freedom of association, 
and freedom of enterprise. Facebook also provides jobs for 
thousands of Americans, including in my own congressional 
district at the data center in Prineville, Oregon. Many of our 
constituents feel a genuine sense of pride and gratitude for 
what you have created, and you are rightly considered one of 
this era's greatest entrepreneurs.
    This unparalleled achievement is why we look to you with a 
special sense of obligation and hope for deep introspection.
    While Facebook has certainly grown, I worry it has not 
matured. I think it is time to ask whether Facebook may have 
moved too fast and broken too many things.
    There are critical, unanswered questions surrounding 
Facebook's business model and the entire digital ecosystem 
regarding online privacy and consumer protection.
    What exactly is Facebook--a social platform, a data 
company, an advertising company, a media company, a common 
carrier in the information age, all of the above, or something 
else?
    Users trust Facebook with a great deal of information-their 
name, hometown, email, phone number, photos, private messages, 
and much, much more. But in many instances, users aren't 
actively providing Facebook with data. Facebook collects this 
information while users simply browse other websites, shop 
online, or use a third-party app.
    People are willing to share quite a bit about their lives 
online based on the belief that they can easily navigate and 
control privacy settings and trust that their personal 
information is in good hands.
    If a company fails to keep its promises about how personal 
data are being used, that breach of trust must have 
consequences.
    Today, we hope to shed light on Facebook's policies and 
practices surrounding third-party access to and use of user 
data. We also hope you can help clear up the considerable 
confusion that exists about how people's Facebook data are used 
outside the platform.
    We hope you can help Congress, but more importantly the 
American people, better understand how Facebook user 
information has been accessed by third parties, from Cambridge 
Analytica and CubeYou, to the Obama for America presidential 
campaign.
    And we ask that you share any suggestions you have for ways 
policymakers can help reassure our constituents that data they 
believe was only shared with friends or certain groups, remains 
private to those circles.
    As policymakers we want to be sure that consumers are 
adequately informed about how their online activities and 
information are used. These issues apply not just to Facebook, 
but equally to the other internet-based companies that collect 
information about users online.
    Mr. Zuckerberg, your expertise in this field is without 
rival. Thank you for joining us today to help us learn more 
about these vital matters.
    And now, I yield to the gentleman from New Jersey, ranking 
member of the Energy and Commerce Committee Mr. Pallone, for 5 
minutes.

    Mr. Walden. With that, I yield now to the gentleman from 
New Jersey, the ranking member of the Energy and Commerce 
Committee, my friend Mr. Pallone, for 5 minutes for purposes of 
an opening statement.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman.
    And I also want to thank you, Mr. Zuckerberg, for being 
here today.
    Facebook has become integral to our lives. We don't just 
share pictures of our families. We use it to connect for 
school, to organize events, and to watch baseball games. 
Facebook has enabled everyday people to spur national political 
movements. Most of us in Congress use Facebook to reach our 
constituents in ways that were unimaginable 10 years ago, and 
this is certainly a good thing.
    But it also means that many of us can't give it up easily. 
Many businesses have their only web presence on Facebook. And 
for professions like journalism, people's jobs depend on 
posting on the site.
    And this ubiquity comes with a price. For all the good it 
brings, Facebook can be a weapon for those like Russia and 
Cambridge Analytica that seek to harm us and hack our 
democracy.
    Facebook made it too easy for a single person--in this 
instance, Aleksandr Kogan--to get extensive personal 
information about 87 million people. He sold this data to 
Cambridge Analytica who used it to try to sway the 2016 
Presidential election for the Trump campaign. And Facebook made 
itself a powerful tool for things like voter suppression, in 
part by opening its platform to app developers with little or 
no oversight.
    But it gets worse. The fact is no one knows how many people 
have access to the Cambridge Analytica data, and no one knows 
how many other Cambridge Analyticas are still out there. 
Shutting down access to data to third parties isn't enough, in 
my opinion. Facebook and many other companies are doing the 
same thing: they are using people's personal information to do 
highly targeted product and political advertising.
    And Facebook is just the latest in a never-ending string of 
companies that vacuum up our data but fail to keep it safe. And 
this incident demonstrates yet again that our laws are not 
working.
    Making matters worse, Republicans here in Congress continue 
to block or even repeal the few privacy protections we have. In 
this era of nonstop data breaches, last year, Republicans 
eliminated existing privacy and data security protections at 
the FCC, and their justification was that those protections 
were not needed because the Federal Trade Commission has 
everything under control. Well, this latest disaster shows just 
how wrong the Republicans are.
    The FTC used every tool Republicans have been willing to 
give it, and those tools weren't enough. And that is why 
Facebook acted like so many other companies and reacted only 
when it got bad press.
    We all know this cycle by now: Our data is stolen. The 
company looks the other way. Eventually, reporters find out, 
publish a negative story, and the company apologizes. And 
Congress then holds a hearing, and then nothing happens.
    By not doing its job, this Republican-controlled Congress 
has become complicit in this nonstop cycle of privacy by press 
release. And this cycle must stop because the current system is 
broken.
    So I was happy to hear that Mr. Zuckerberg conceded that 
his industry needs to be regulated, and I agree. We need 
comprehensive privacy and data security legislation. We need 
baseline protections that stretch from internet service 
providers to data brokers to app developers and to anyone else 
who makes a living off our data. We need to figure out how to 
make sure these companies act responsibly even before the press 
finds out.
    But while securing our privacy is necessary, it is not 
sufficient. We need to take steps immediately to secure our 
democracy. We can't let what happened in 2016 happen again, and 
to do that, we need to learn how Facebook was caught so flat-
footed in 2016. How was it so blind to what the Russians and 
others were doing on its systems? Red flags were everywhere. 
Why didn't anyone see them, or were they ignored?
    So today's hearing is a good start. But we also need to 
hold additional hearings where we hold accountable executives 
from other tech companies, internet service providers, data 
brokers, and anyone else that collects our information.
    Now, Congresswoman Schakowsky from Illinois and I 
introduced a bill last year that would require companies to 
implement baseline data security standards, and I plan to work 
with my colleagues to draft additional legislation.
    But I have to say, Mr. Chairman, it is time for this 
committee and this Congress to pass comprehensive legislation 
to prevent incidents like this in the future. My great fear is 
that we have this hearing today; there is a lot of press 
attention--and, Mr. Zuckerberg, you know, appreciate you being 
here once again, but if all we do is have a hearing and then 
nothing happens, then that is not accomplishing anything.
    And, you know, I know I sound very critical of the 
Republicans and their leadership on this--on these privacy 
issues, but I have just seen it over and over again that we 
have the hearings and nothing happens. So excuse me for being 
so pessimistic, Mr. Chairman, but that is where I am.
    I yield back.
    [The prepared statement of Mr. Pallone follows:]

             Prepared statement of Hon. Frank Pallone, Jr.

    Thank you for being here today, Mr. Zuckerberg.
    Facebook has become integral to our lives. We don't just 
share pictures of our families. We use it to connect for 
school, to organize events, and to watch baseball games.
    Facebook has enabled everyday people to spur national 
political movements. Most of us in Congress use Facebook to 
reach our constituents in ways that were unimaginable 10 years 
ago. This is a good thing.
    But it also means that many of us can't give it up easily. 
Many businesses have their only web presence on Facebook. For 
professions like journalism, people's jobs depend on posting on 
the site.
    This ubiquity comes with a price. For all the good it 
brings, Facebook can be a weapon for those like Russia and 
Cambridge Analytica that seek to harm us and hack our 
democracy.
    Facebook made it too easy for a single person, in this 
instance Aleksandr Kogan, to get extensive personal information 
about 87 million people. Kogan then sold this data to Cambridge 
Analytica who used it to try to sway the 2016 Presidential 
election for the Trump Campaign. Facebook made itself a 
powerful tool for things like voter suppression in part by 
opening its platform to app developers with little or no 
oversight.
    But it gets worse. The fact is no one knows how many people 
have access to the Cambridge Analytica data. And no one knows 
how many other Cambridge Analyticas are still out there.
    Shutting down access to data to third parties isn't enough. 
Facebook and many other companies are doing the same thing. 
They are using people's personal information to do highly 
targeted product and political advertising.
    And Facebook is just the latest in a never-ending string of 
companies that vacuum up our data but fail to keep it safe. 
This incident demonstrates yet again that our laws are not 
working.
    Making matters worse, Republicans here in Congress continue 
to block or even repeal the few privacy protections we have. In 
this era of nonstop data breaches, last year Republicans 
eliminated existing privacy and data security protections at 
the Federal Communications Commission.
    Their justification: those protections were not needed 
because the Federal Trade Commission has everything under 
control. Well this latest disaster shows just how wrong they 
are. The FTC used every tool Republicans have been willing to 
give it and those tools weren't enough.
    That's why Facebook acted like so many other companies and 
reacted only when it got bad press. We all know the cycle by 
now: our data is stolen and the company looks the other way; 
eventually reporters find out, publish a negative story, and 
the company apologizes. Congress then holds a hearing; and 
then.nothing.
    By not doing its job, this Republican-controlled Congress 
has become complicit in this nonstop cycle of privacy by press 
release.
    This cycle must stop because the current system is broken.
    I was happy to hear Mr. Zuckerberg concede that his 
industry needs to be regulated. I agree.
    We need comprehensive privacy and data security 
legislation.
    We need baseline protections that stretch from internet 
service providers to data brokers to app developers and to 
anyone else who makes a living off our data.
    We need to figure out how to make sure these companies act 
responsibly even before the press finds out.
    But while securing our privacy is necessary, it's not 
sufficient. We need to take steps immediately to secure our 
democracy. We can't let what happened in 2016 happen again. To 
do that, we need to learn how Facebook was caught so flatfooted 
in 2016. How was it so blind to what the Russians and others 
were doing on its systems? Red flags were everywhere-why didn't 
anyone see them? Or were they ignored?
    So today's hearing is a good start. But we also need to 
hold additional hearings where we hold accountable executives 
from other tech companies, internet service providers, data 
brokers, and anyone else that collects our information.
    Congresswoman Schakowsky and I introduced a bill last year 
that would require companies to implement baseline data 
security standards, and I plan to work with my colleagues to 
draft additional legislation. It's time for this committee and 
this Congress to pass comprehensive legislation to prevent 
incidents like this in the future.

    Mr. Walden. I think I thank the gentleman for his opening 
comments.
    With that, we now conclude with Member opening statements. 
The Chair would like to remind Members that, pursuant to the 
committee rules, all Members' opening statements will be made 
part of the record.
    Today we have Mr. Mark Zuckerberg, chairman and CEO of 
Facebook, Incorporated, here to testify before the full Energy 
and Commerce Committee. Mr. Zuckerberg will have the 
opportunity to give a 5-minute opening statement followed by a 
round of questioning from our Members.
    So thank you for taking the time to be here, and you are 
now recognized for 5 minutes.

  STATEMENT OF MARK ZUCKERBERG, COFOUNDER, CHAIRMAN AND CEO, 
                         FACEBOOK, INC.

    Mr. Zuckerberg. Thank you.
    Chairman Walden, Ranking Member Pallone, and members of the 
committee, we face a number of important issues around privacy, 
security, and democracy, and you will rightfully have some hard 
questions for me to answer. Before I talk about the steps we 
are taking to address them, I want to talk for a minute about 
how we got there.
    Facebook is an idealistic and optimistic company. For most 
of our existence, we focused on all the good that connecting 
people can bring. And as Facebook has grown, people everywhere 
have gotten a powerful new tool for staying connected to the 
people they care about most, for making their voices heard, and 
for building community and businesses.
    Just recently, we have seen the Me Too movement and the 
March for Our Lives organized at least part on Facebook. After 
Hurricane Harvey, people came together and raised more than $20 
million for relief, and there are more than 70 million small 
businesses around the world that use our tools to grow and 
create jobs.
    But it is clear now that we didn't do enough to prevent 
these tools from being used for harm as well. And that goes for 
fake news, foreign interference in elections, and hate speech, 
as well as developers and data privacy. We didn't take a broad 
enough view of our responsibility, and that was a big mistake. 
It was my mistake, and I am sorry.
    I started Facebook. I run it. And at the end of the day, I 
am responsible for what happens here. So now we have to go 
through every part of our relationship with people to make sure 
that we are taking a broad enough view of our responsibility.
    It is not enough to just connect people; we have to make 
sure that those connections are positive. It is not enough to 
just give people a voice; we need to make sure that that voice 
isn't used to harm other people or spread misinformation.
    And it is not enough to just give people control of their 
information; we need to make sure that the developers that they 
share it with protect their information too. Across the board, 
we have a responsibility to not just give people tools but to 
make sure that those tools are used for good.
    It is going to take some time to work through all the 
changes we need to make, but I am committed to getting this 
right. And that includes the basic responsibility of protecting 
people's information, which we failed to do with Cambridge 
Analytica.
    So here are a few key things that we are doing to address 
this situation and make sure that this doesn't happen again. 
First, we are getting to the bottom of exactly what Cambridge 
Analytica did and telling everyone who may have been affected.
    What we know now is that Cambridge Analytica improperly 
obtained some information about millions of Facebook members by 
buying it from an app developer that people had shared it with. 
This information was generally information that people share 
publicly on their profile pages, like their name and profile 
picture and the list of pages that they follow.
    When we first contacted Cambridge Analytica, they told us 
that they had deleted the data. And then, about a month ago, we 
heard a new report that suggested that this was not true. So 
now we are working with governments in the U.S., the U.K., and 
around the world to do a full audit of what they have done and 
to make sure that they get rid of any data that they still 
have.
    Second, to make sure that no other app developers are out 
there misusing data, we are now investigating every single app 
that had access to a large amount of people's information on 
Facebook in the past. And if we find someone that improperly 
used data, we are going to ban them from our platform and tell 
everyone affected.
    Third, to prevent this from ever happening again, we are 
making sure developers can't access as much information going 
forward. The good news here is that we made some big changes to 
our platform in 2014 that would prevent this specific instance 
with Cambridge Analytica from happening again today.
    There is more to do, and you can find more of the details 
of the other steps we are taking in the written statement I 
provided.
    My top priority has always been our social mission of 
connecting people, building community, and bringing the world 
closer together. Advertisers and developers will never take 
priority over that for as long as I am running Facebook.
    I started Facebook when I was in college. We have come a 
long way since then. We now serve more than 2 billion people 
around the world, and every day people use our services to stay 
connected with the people that matter to them most.
    I believe deeply in what we are doing, and I know that, 
when we address these challenges, we will look back and view 
helping people connect and giving more people a voice as a 
positive force in the world.
    I realize the issues we are talking about today aren't just 
issues for Facebook and our community; they are challenges for 
all of us as Americans. Thank you for having me here today, and 
I am ready to take your questions.
    [The prepared statement of Mr. Zuckerberg follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Walden. Thank you, Mr. Zuckerberg.
    I will start out. When we go into the questioning phase, we 
go back and forth, as we always do. Remember, it is 4 minutes 
today so we can get to everyone.
    Mr. Zuckerberg, you described Facebook as a company that 
connects people and as a company that is idealistic and 
optimistic. I have a few questions about what other types of 
companies Facebook may be.
    Facebook has created its own video series starring Tom 
Brady that ran for six episodes and has over 50 million views. 
That is twice the number of the viewers that watched the Oscars 
last month. Also, Facebook has obtained exclusive broadcasting 
rights for 25 major league baseball games this season. Is 
Facebook a media company?
    Mr. Zuckerberg. Thank you, Mr. Chairman.
    I consider us to be a technology company because the 
primary thing that we do is have engineers who write code and 
build products and services for other people. There are 
certainly other things that we do too.
    We do pay to help produce content. We build enterprise 
software although I don't consider us an enterprise software 
company. We build planes to help connect people, and I don't 
consider ourselves to be an aerospace company.
    But, overall, when people ask us if we are a media company, 
what I hear is, do we have a responsibility for the content 
that people share on Facebook? And I believe the answer to that 
question is yes.
    Mr. Walden. All right. Let me ask the next one. You can 
send money to friends on Facebook Messenger using a debit card 
or a PayPal account to, quote, ``split meals, pay rent, and 
more,'' closed quote. People can also send money via Venmo or 
their bank app. Is Facebook a financial institution?
    Mr. Zuckerberg. Mr. Chairman, I do not consider ourselves 
to be a financial institution although you are right that we do 
provide tools for people to send money.
    Mr. Walden. So you have mentioned several times that you 
started Facebook in your dorm room, 2004. 15 years, 2 billion 
users and several, unfortunately, breaches of trust later, is 
Facebook today the same kind of company you started with a 
Harvard.edu email address?
    Mr. Zuckerberg. Well, Mr. Chairman, I think we have evolved 
quite a bit as a company. When I started it, I certainly didn't 
think that we would be the ones building this broad of a 
community around the world. I thought someone would do it. I 
didn't think it was going to be us. So we have definitely 
grown.
    Mr. Walden. And you have recently said that you and 
Facebook have not done a good job of explaining what Facebook 
does. And so, back in 2012 and 2013, when a lot of this 
scraping of user and friend data was happening, did it ever 
cross your mind that you should be communicating more clearly 
with users about how Facebook is monetizing their data?
    I understand that Facebook does not sell user data, per se, 
in the traditional sense. But it is also just as true that 
Facebook's user data is probably the most valuable thing about 
Facebook. In fact, it may be the only truly valuable thing 
about Facebook.
    Why wasn't explaining what Facebook does with users' data 
higher priority for you as a cofounder and now as CEO?
    Mr. Zuckerberg. Mr. Chairman, you are right that we don't 
sell any data, and I would say that we do try to explain what 
we do as time goes on. It is a broad system. You know, every 
day, about 100 billion times a day, people come to one of our 
products, whether it is Facebook or Messenger or Instagram or 
WhatsApp, to put in a piece of content, whether it is a photo 
that they want to share or a message they want to send someone, 
and every time there is a control right there about who you 
want to share it with.
    Do you want to share it publicly to broadcast it out to 
everyone? Do you want to share it with your friends, a specific 
group of people? Do you want to message it to just one person 
or a couple of people? That is the most important thing that we 
do, and I think that in the product that is quite clear.
    I do think that we can do a better job of explaining how 
advertising works. There is a common misperception, as you say, 
that is just reported--often keeps on being reported--that for 
some reason we sell data.
    I can't be clearer on this topic: We don't sell data. That 
is now how advertising works. And I do think we could probably 
be doing a clearer job explaining that, given the 
misperceptions that are out there.
    Mr. Walden. Given the situation, can you manage the issues 
that are before you, or does the Congress need to intercede? I 
am going to leave that because I am over my time. That and I 
want to flag an issue that Vietnam Veterans of America have 
raised too, and we will get back with your staff on that, about 
some fake pages that are up.
    But I want to stay on schedule. So, with that, I will yield 
to Mr. Pallone for 4 minutes.
    Mr. Pallone. Thank you.
    Mr. Zuckerberg, you talked about how positive and 
optimistic you are, and I am--I guess, I am sorry, because I am 
not. I don't have much faith in corporate America, and I 
certainly don't have much faith in their GOP allies here in 
Congress.
    I really look at everything that this committee does, or 
most of what this committee does, in terms of the right to 
know. In other words, I always fear that people, you know, that 
go onto Facebook, they don't necessarily know what is happening 
or what is going on with their data.
    And so, to the extent that we could pass legislation--which 
I think we need, and you said that we probably should have some 
legislation--I want that legislation to give people the right 
to know, to empower them, to, you know, provide more 
transparency, I guess, is the best way to put it.
    So I am looking at everything through that sort of lens. So 
just let me ask you three quick questions, and I am going to 
ask you to answer yes or no because of the time. Yes or no, is 
Facebook limiting the amount or type of data Facebook itself 
collects or uses?
    Mr. Zuckerberg. Congressman, yes. We limit a lot of the 
data that we collect and use.
    Mr. Pallone. But, see, I don't see that in the 
announcements you have made. Like, you have made all these 
announcements the last few days about the changes you are going 
to make, and I don't really see how those announcements or 
changes limit the amount or type of data that Facebook collects 
or uses in an effective way.
    But let me go to the second one. Again, this is my concern 
that users currently may not know or take affirmative action to 
protect their own privacy. Yes or no, is Facebook changing any 
user default settings to be more privacy protective?
    Mr. Zuckerberg. Congressman, yes. In response to these 
issues, we have changed a lot of the way that our platform 
works so they way developers can't get access to as much 
information.
    Mr. Pallone. But, see, again, I don't see that in the 
changes that you have proposed. I don't really see any way that 
these users' default settings--or you are changing these user 
default settings in a way that is going to be more privacy 
protection--protected.
    But let me go to the third one. Yes or no, will you commit 
to changing all the user default settings to minimize to the 
greatest extent possible the collection in user--in use of 
users' data? Can you make that commitment?
    Mr. Zuckerberg. Congressman, we try to collect and give 
people the ability to share----
    Mr. Pallone. But I would like you to answer yes or no, if 
you could. Will you make the commitment to change all the 
user--to changing all the user default settings to minimize to 
the greatest extent possible the collection and use of users' 
data? I don't think that is hard for you to say yes to, unless 
I am missing something.
    Mr. Zuckerberg. Congressman, this is a complex issue that I 
think deserves more than a one-word answer.
    Mr. Pallone. Well, again, that is disappointing to me, 
because I think you should make that commitment. And maybe what 
we could do is follow up with you on this, if possible, if that 
is OK. We can do that follow up?
    Mr. Zuckerberg. Yes.
    Mr. Pallone. All right. Now, you said yesterday that each 
of us owns the content that we put on Facebook and that 
Facebook gives some control to consumers over their content, 
but we know about the problems with Cambridge Analytica.
    I know you changed your rules in 2014 and again this week, 
but you still allow third parties to have access to personal 
data. How can consumers have control over their data when 
Facebook doesn't have control over the data itself? That is my 
concern. Last question.
    Mr. Zuckerberg. Congressman, what we allow with our 
developer platform is for people to choose to sign into other 
apps and bring their data with them. That is something that a 
lot of people want to be able to do.
    The reason why we built the developer platform in the first 
place was because we thought it would be great if more 
experiences that people had could be more social. So, if you 
could have a calendar that showed your friends' birthdays, if 
you could have an address book that had pictures of your 
friends in it, if you could have a map that showed your 
friends' addresses on it.
    In order to do that, you need to be able to sign into an 
app, bring some of your data and some of your friends' data, 
and that is what we built. Now, since then, we have recognized 
that that can be used for abuse too, so we have limited it so 
now people can only bring their data when they go to an app.
    But that is something that a lot of people do on a day-to-
day basis is sign into apps and websites with Facebook, and 
that is something that we are going----
    Mr. Walden. We have to move onto our next question.
    Mr. Pallone. Yes, I know. I still think that there is not 
enough--people aren't empowered enough to really make those 
decisions in a positive way.
    Mr. Walden. The Chair now recognizes former chairman of the 
committee Mr. Barton of Texas for 4 minutes.
    Mr. Barton. Well, thank you.
    And thank you, Mr. Zuckerberg, for being here. People need 
to know that you are here voluntarily. You are not here because 
you have been subpoenaed, so we appreciate that.
    Sitting behind you, I have a gentleman that used to be 
counsel for the committee, Mr. Jim Barnett. And if he is 
affiliated with Facebook, you have got a good one. If he is 
not, he has just got a great seat. I don't know what it is.
    I am going to read you a question that I was asked--I got 
this through Facebook. And I have got dozens like this. So my 
first question: ``Please ask Mr. Zuckerberg, why is Facebook 
censoring conservative bloggers, such as Diamond and Silk? 
Facebook called them unsafe to the community. That is 
ludicrous. They hold conservative views. That isn't unsafe.'' 
What is your response to that?
    Mr. Zuckerberg. Congressman, in that specific case, our 
team made an enforcement error, and we have already gotten in 
touch with them to reverse it.
    Mr. Barton. Well, Facebook does tremendous good. When I met 
you in my office 8 years ago--you don't remember that--but I 
have got a picture of you when you had curly hair, and Facebook 
had 500 million users. Now it has got over 2 billion. That is a 
success story in anybody's book.
    It is such an integral part of certainly young Americans' 
lives that you need to work with Congress and the community to 
ensure that it is a neutral, safe, and, to the largest extent 
possible, private platform. Do you agree with that?
    Mr. Zuckerberg. Congressman, I do agree that we should work 
to give people the fullest free expression that is possible. 
That is--when I talk about giving people a voice, that is what 
I care about.
    Mr. Barton. OK. Let's talk about children. Children can get 
a Facebook account of their own, I believe, starting at age 13. 
Is that not correct?
    Mr. Zuckerberg. Congressman, that is correct.
    Mr. Barton. OK. Is there any reason that we couldn't have 
just a no-data-sharing policy period until you are 18? Just, if 
you are a child with your own Facebook account, until you reach 
the age of 18, you know, it is, you know, you can't share 
anything? It is their data, their--it doesn't go anywhere. 
Nobody gets to scrape it. Nobody gets to access it. It is 
absolutely totally private for children. What is wrong with 
that?
    Mr. Zuckerberg. Congressman, we have a number of measures 
in place to protect minors specifically. We make it so that 
adults can't contact minors who they aren't already friends 
with. We make it so that certain content that may be 
inappropriate for minors we don't show.
    The reality that we see is that teens often do want to 
share their opinions publicly, and that is a service that----
    Mr. Barton. Then we let them opt in to do that?
    Mr. Zuckerberg. Yes, we do.
    Mr. Barton. But don't--you know, unless they specifically 
allow it, then don't allow it. That is my point.
    Mr. Zuckerberg. Congressman, every time that someone 
chooses to share something on Facebook, you go to the app, 
right there, it says, ``Who do you want to share with?'' When 
you sign up for a Facebook account, it starts off sharing with 
just your friends. If you want to share it publicly, you have 
to specifically go and change that setting to be sharing 
publicly. And every time----
    Mr. Barton. I am about out of time. I actually use 
Facebook. And, you know, I know if you take the time, you can 
go to your privacy and click on that and you can go to your 
settings and click on that. You can pretty well set up your 
Facebook account to be almost totally private, but you have to 
really work at it.
    And my time has expired. Hopefully we can do some questions 
in writing as a followup.
    Mr. Walden. Absolutely.
    Mr. Barton. Thank you, Mr. Chairman.
    Mr. Walden. The Chair now recognizes the gentleman from 
Illinois, Mr. Rush, for 4 minutes for questions.
    Mr. Rush. Thank you, Mr. Chairman.
    Mr. Zuckerberg, welcome.
    In the 1960s, our Government, acting through the FBI and 
local police, maliciously tricked individuals and organizations 
into participating in something called COINTELPRO, which was a 
counterintelligence program where they tracked and shared 
information about civil rights activists, their political, 
social, civic, even religious affiliations, and I personally 
was a victim of COINTELPRO.
    Your organization, your methodology, in my opinion, is 
similar. You are truncating the basic rights of the American 
promise of life, liberty, and the pursuit of happiness by the 
wholesale invasion and manipulation of their right to privacy.
    Mr. Zuckerberg, what is the difference between Facebook's 
methodology and the methodology of the American political 
pariah J. Edgar Hoover?
    Mr. Zuckerberg. Congressman, this is an important question 
because I think people often ask what the difference is between 
surveillance and what we do. And I think that the difference is 
extremely clear, which is that, on Facebook, you have control 
over your information. The content that you share, you put 
there. You can take it down at any time.
    The information that we collect you can choose to have us 
not collect. You can delete any of it. And, of course, you can 
leave Facebook if you want. I know of no surveillance 
organization that gives people the option to delete the data 
that they have or even know what they are collecting.
    Mr. Rush. Mr. Zuckerberg, you should be commended that 
Facebook has grown so big, so fast. It is no longer the company 
that you started in your dorm room. Instead, it is one of the 
great American success stories.
    That much influence comes with enormous social 
responsibility on which you have failed to act and to protect 
and to consider. Shouldn't Facebook, by default, protect users' 
information? Why is the onus on the user to opt in to privacy 
and security settings?
    Mr. Zuckerberg. Congressman, as I said, every time that a 
person chooses to share something on Facebook, they are 
proactively going to the service and choosing that they want to 
share a photo, write a message to someone. And every time, 
there is a control right there, not buried in settings 
somewhere, but right there when they are posting about who they 
want to share it with.
    Mr. Rush. Mr. Zuckerberg, I only have a few more seconds. 
In November 2017, ProPublica reported that Facebook was still 
allowing housing advertisements to systemically exclude 
advertisements to specific racial groups, an explicitly 
prohibited practice. This is just one example where Facebook 
has allowed race to improperly play a role.
    What has Facebook done, and what are you going to do to 
ensure that your targeted advertisements and other components 
of your platform are in compliance with Federal laws, such as 
the Civil Rights Act of 1968?
    Mr. Zuckerberg. Congressman, since we learned about that, 
we removed the option for advertisers to exclude ethnic groups 
from targeting.
    Mr. Rush. When did you do that?
    Mr. Walden. The gentleman's time has expired. We need to go 
now to the gentleman from Michigan, Mr. Upton, for 4 minutes.
    Mr. Upton. Thank you, Mr. Chairman.
    And welcome to the committee.
    A number of times in the last day or two you have indicated 
that, in fact, you are now open to some type of regulation. And 
we know, of course, that you are the dominant social media 
platform without any true competitor, in all frankness, and you 
have hundreds, if not thousands, of folks that are--would be 
required to help navigate any type of regulatory environment.
    Some would argue that a more regulatory environment might 
ultimately stifle new platforms and innovators some might 
describe as desperately needed competition, i.e., regulatory 
complexity helps protect those folks like you. It could create 
a harmful barrier to entry for some startups, particularly ones 
that might want to compete with you.
    So should we policymakers up here be more focused on the 
needs of startups over large incumbents, and what kind of 
policy regulation--regulatory environment would you want 
instead of managing maybe a Fortune 500 company if you were 
launching a startup to take on the big guy?
    Mr. Zuckerberg. Congressman, thank you. And let me say a 
couple of things on this. First, to your point about 
competition, the average American uses about eight different 
apps to communicate and stay connected to people. So there is a 
lot of competition that we feel every day, and that is an 
important force that we definitely feel in running the company.
    Second, on your point about regulation, the internet is 
growing in importance around the world in peoples' lives, and I 
think that it is inevitable that there will need to be some 
regulation. So my position is not that there should be no 
regulation, but I also think that you have to be careful about 
what regulation you put in place for a lot of the reasons that 
you are saying.
    I think a lot of times regulation, by definition, puts in 
place rules that a company that is larger, that has resources 
like ours, can easily comply with but that might be more 
difficult for a smaller startup to comply with.
    So I think that these are all things that need to be 
thought through very carefully when thinking through what rules 
we want to put in place.
    Mr. Upton. To follow up on a question that Mr. Barton asked 
about Silk and Diamond, I don't know whether you know about 
this particular case. I have a former State rep who is running 
for State senate. He is the former Michigan lottery 
commissioner, so he is a guy of fairly good political 
prominence.
    He announced for State senate just in the last week, and he 
had what I thought was a rather positive announcement, and I 
will read to you precisely what it was: ``I am proud to 
announce my candidacy for State Senate. Lansing needs 
conservative west Michigan values. And as our next State 
senator, I will work to strengthen our economy, limit 
Government, lower our auto insurance rates, balance the budget, 
stop sanctuary cities, pay down Government debt, be a pro-life, 
pro-Second Amendment lawmaker,'' end.
    It was rejected, and the response from you all was: It 
wasn't approved because it doesn't follow our advertising 
policies; we don't allow ads that contain shocking, 
disrespectful, or sensational content, including ads that 
depict violence or threats of violence.
    I am not sure where the threat was based on what he tried 
to post.
    Mr. Zuckerberg. Congressman, I am not sure either. I am not 
familiar with that specific case. It is quite possible that we 
made a mistake, and we will follow up afterwards on that.
    Mr. Upton. OK.
    Mr. Zuckerberg. Overall, we have--by the end of this year, 
we will have about 20,000 people at the company who work on 
security and content review-related issues, but there is a lot 
of content flowing through the systems and a lot of reports, 
and unfortunately, we don't always get these things right when 
people report it to us.
    Mr. Upton. Thank you.
    Mr. Walden. The gentleman's time has expired.
    The Chair recognizes the gentlelady from California, Ms. 
Eshoo, for 4 minutes.
    Ms. Eshoo. Thank you, Mr. Chairman.
    Good morning, Mr. Zuckerberg.
    First, I believe that our democratic institutions are 
undergoing a stress test in our country. And I believe that 
American companies owe something to America. I think the damage 
done to our democracy relative to Facebook and its platform 
being weaponized are incalculable.
    Enabling the cynical manipulation of American citizens for 
the purpose of influencing an election is deeply offensive, and 
it is very dangerous. Putting our private information on offer 
without concern for possible misuses, I think, is simply 
irresponsible.
    I invited my constituents, going into the weekend, to 
participate in this hearing today by submitting what they want 
to ask you, and so my questions are theirs.
    And, Mr. Chairman, I would like unanimous consent to place 
all of their questions in the record.
    Mr. Walden. Without objection.
    [The information appears at the conclusion of the hearing.]
    Ms. Eshoo. So these are a series of just yes-or-no 
questions. Do you think you have a moral responsibility to run 
a platform that protects our democracy, yes or no?
    Mr. Zuckerberg. Congresswoman, yes.
    Ms. Eshoo. Have users of Facebook who were caught up in the 
Cambridge Analytica debacle been notified?
    Mr. Zuckerberg. Yes, we were starting to notify people this 
week. We started Monday, I believe.
    Ms. Eshoo. Will Facebook offer to all of its users a 
blanket opt-in to share their privacy data with any third-party 
users?
    Mr. Zuckerberg. Congresswoman, yes, that is how our 
platform works. You have to opt in to sign into any app before 
you use it.
    Ms. Eshoo. Well, let me just add that it is a minefield in 
order to do that. And you have to make it transparent, clear, 
in pedestrian language just once: ``This is what we will do 
with your data. Do you want this to happen or not?'' So I think 
that this is being blurred. I think you know what I mean by it.
    Are you aware of other third-party information mishandlings 
that have not been disclosed?
    Mr. Zuckerberg. Congresswoman, no, although we are 
currently going through the process of investigating every 
single app----
    Ms. Eshoo. So you are not sure?
    Mr. Zuckerberg [continuing]. That had access to a large 
amount of data.
    Ms. Eshoo. What does that mean?
    Mr. Zuckerberg. It means that we are going to look into 
every app that had a large amount of access to data in the past 
before we lock down the platform.
    Ms. Eshoo. You are not aware?
    Mr. Zuckerberg. I imagine that, because there are tens of 
thousands of apps, we will find some that have suspicious 
activity, and when we find them----
    Ms. Eshoo. All right. I only have 4 minutes.
    Was your data included in the data sold to the malicious 
third parties, your personal data?
    Mr. Zuckerberg. Yes.
    Ms. Eshoo. It was? Are you willing to change your business 
model in the interest of protecting individual privacy?
    Mr. Zuckerberg. Congresswoman, we have made and are 
continuing to make changes to reduce the amount of data that--
--
    Ms. Eshoo. No. Are you willing to change your business 
model in the interest of protecting individual privacy?
    Mr. Zuckerberg. Congresswoman, I am not sure what that 
means.
    Ms. Eshoo. Well, I will follow up with you on it.
    When did Facebook learn that Cambridge Analytica's research 
project was actually for targeted psychographic political 
campaign work?
    Mr. Zuckerberg. Congresswoman, it might be useful to 
clarify what actually happened here. A developer who is a 
researcher----
    Ms. Eshoo. Well, no. I don't have time for a long answer, 
though. When did Facebook learn that? And when you learned it, 
did you contact their CEO immediately, and if not, why not?
    Mr. Zuckerberg. Congresswoman, yes. When we learned in 2015 
that a Cambridge University researcher associated with the 
academic institution that built an app that people chose to 
share their data with----
    Ms. Eshoo. We know what happened with them, but I am asking 
you.
    Mr. Zuckerberg. Yes, I am answering your question.
    Ms. Eshoo. Right.
    Mr. Zuckerberg. When we learned about that, we 
immediately----
    Ms. Eshoo. So, in 2015, you learned about it?
    Mr. Zuckerberg. Yes.
    Ms. Eshoo. And you spoke to their CEO immediately?
    Mr. Zuckerberg. We shut down the app. We demanded----
    Ms. Eshoo. Did you speak to their CEO immediately?
    Mr. Zuckerberg. We got in touch with them, and we asked 
them to--we demanded that they delete any of the data that they 
had, and their chief data officer told us that they had.
    Mr. Walden. The gentlelady's time has expired.
    Ms. Eshoo. Thank you.
    Mr. Walden. The Chair now recognizes the gentleman from 
Illinois, Mr. Shimkus, for 4 minutes.
    Mr. Shimkus. Thank you, Mr. Chairman.
    Thank you for being here, Mr. Zuckerberg.
    Two things: First of all, I want to thank Facebook. You 
streamlined our congressional baseball game last year. We have 
got the managers here. And I was told that, because of that, we 
raised an additional $100,000 for DC literacy and feeding kids 
and stuff, so that is----
    The other thing is, I usually put my stuff up on the TV. I 
don't want to do it very much because it is my dad, and he 
would be mad if he went international like you are. And he has 
been on Facebook for a long time. He is 88. It has been good 
for connecting with kids and grandkids.
    I just got my mother involved on an iPad and--because she 
can't handle a keyboard. And so--and I did this last week. So, 
in the swirl of activity, I still think there is a positive 
benefit for my parents to be engaged on this platform. So--but 
there are issues that are being raised today, and so I am going 
to go into a couple of those.
    Facebook made, developed access to user and friend data 
back--and your main update was in 2014. So the question is, 
what triggered that update?
    Mr. Zuckerberg. Congressman, this is an important question 
to clarify. So, in 2007, we launched the platform in order to 
make it so that people could sign into other apps, bring some 
of their information and some of their friends' information to 
have social experiences.
    This created a lot of innovative experiences, new games, 
companies like Zynga. There were companies that you are 
familiar with like Netflix and Spotify had integrations with 
this that allowed social experiences in their apps. But, 
unfortunately, there were also a number of apps that used this 
for abuse, to collect people's data.
    Mr. Shimkus. So, if I could interrupt, you identified that 
there was possibly social scraping going on?
    Mr. Zuckerberg. Yes, there was abuse. And that is why, in 
2014, we took the step of fundamentally changing how the 
platform works. So now, when you sign into an app, you can 
bring your information, and if a friend has also signed into 
the app, then the app can know that you are friends so you can 
have a social experience in that app. But when you sign into an 
app, it now no longer brings information from other people.
    Mr. Shimkus. Yes. Let me go to your announcement of audits. 
Who is going to conduct an audit when we are talking about are 
there other Cambridge Analyticas out there?
    Mr. Zuckerberg. Yes, Congressman. Good question.
    So we are going to start by doing an investigation 
internally of every single app that had access to a large 
amount of information before we lock down the platform. If we 
detect any suspicious activity at all, we are working with 
third-party auditors. I imagine there will have to be a number 
of them because there are a lot of apps, and they will conduct 
the audit for us.
    Mr. Shimkus. Yes. I think we would hope that you would 
bring in a third party to help us----
    Mr. Zuckerberg. Yes.
    Mr. Shimkus [continuing]. Clarify and have more confidence.
    The last question I have is, in yesterday's hearing, you 
talked a little about Facebook tracking and different 
scenarios, including logged-off users. Can you please clarify 
as to how that works and how does tracking work across 
different devices?
    Mr. Zuckerberg. Yes, Congressman. Thank you for giving me 
the opportunity to clarify that.
    So one of the questions is, what information do we track 
and why about people who are not signed into Facebook? We track 
certain information for security reasons and for ads reasons. 
For security, it is to make sure that people who are not signed 
into Facebook can't scrape people's public information.
    You can--even when you are not signed in, you can look up 
the information that people have chosen to make public on their 
page because they wanted to share it with everyone, so there is 
no reason why you should have to be logged in.
    But, nonetheless, we don't want someone to be able to go 
through and download every single public piece of information. 
Even if someone chose to make it public, that doesn't mean that 
it is good to allow someone to aggregate it. So, even if 
someone isn't logged in, we track certain information, like how 
many pages they are accessing, as a security measure.
    The second thing that we do is we provide an ad network 
that third-party websites and apps can run in order to help 
them make money. And those ads, similar to what Google does and 
what the rest of the industry does, it is not limited to people 
who are just on Facebook. So, for the purposes of that, we may 
also collect information to make it so that those ads are more 
relevant and work better on those websites.
    There is a control that for that second class of 
information or an ad targeting anyone can turn off, has 
complete control over it. For obvious reasons, we do not allow 
people to turn off the measurement that we do around security.
    Mr. Walden. The gentleman's time has expired.
    We now turn to the gentleman from New York, Mr. Engel, for 
4 minutes.
    Mr. Engel. Thank you, Mr. Chairman.
    Mr. Zuckerberg, you have roots in my district, the 16th 
Congressional District of New York. I know that you attended 
Ardsley High School and grew up in Westchester County. As you 
know, Westchester has a lot to offer, and I hope that you might 
commit to returning to Westchester County perhaps to do a forum 
on this and some other things. I hope you would consider that. 
We will be in touch with you. But I know that Ardsley High 
School is very proud of you.
    You mentioned yesterday that Facebook was deceived by 
Aleksandr Kogan when he sold the user information to Cambridge 
Analytica. Does Facebook therefore plan to sue Aleksandr Kogan, 
Cambridge University, or Cambridge Analytica perhaps for 
unauthorized access to computer networks, exceeding access to 
computer networks, or breach of contract, and why or why not?
    Mr. Zuckerberg. Congressman, it is something that we are 
looking into. We already took action by banning him from the 
platform, and we are going to be doing a full audit to make 
sure that he gets rid of all the data that he has as well.
    To your point about Cambridge University, what we found now 
is that there was a whole program associated with Cambridge 
University where a number of researchers, not just Aleksandr 
Kogan--although to our current knowledge, he is the only one 
who sold the data to Cambridge Analytica.
    There were a number of other researchers who were building 
similar apps. So we do need to understand whether there is 
something bad going on at Cambridge University overall that 
will require a stronger action from us.
    Mr. Engel. You mentioned before in your remarks hate 
speech. We have seen the scale and reach of extremism balloon 
in the last decade, partially because of the expansion of 
social platforms, whether it is a white supremacist rally in 
Charlottesville that turned violent or to ethnic cleansing in 
Burma that resulted in the second largest refugee crisis in the 
world.
    Are you aware of any foreign or domestic terrorist 
organizations, hate groups, criminal networks, or other 
extremist networks that have scraped Facebook user data? And if 
they have and if they do it in the future, how would you go 
about getting it back or deleting it?
    Mr. Zuckerberg. Congressman, we are not aware of any 
specific groups like that that have engaged in this. We are, as 
I have said, conducting a full investigation of any apps that 
had access to a large amount of data, and if we find anything 
suspicious, we will tell everyone affected.
    We do not allow hate groups on Facebook overall. So, if 
there is a group that their primary purpose or a large part of 
what they do is spreading hate, we will ban them from the 
platform overall.
    Mr. Engel. So do you adjust your algorithms to prevent 
individuals interested in violence or nefarious activities from 
being connected with other like-minded individuals?
    Mr. Zuckerberg. Sorry. Could you repeat that?
    Mr. Engel. Do you adjust your algorithms to prevent 
individuals interested in violence or bad activities from being 
connected with other like-minded individuals?
    Mr. Zuckerberg. Congressman, yes. That is certainly an 
important thing that we need to do.
    Mr. Engel. OK. And, finally, let me say this: Many of us 
are very angry about Russian influence in the 2016 Presidential 
elections and Russian influence over our Presidential 
elections.
    Does Facebook have the ability to detect when a foreign 
entity is attempting to buy a political ad, and is that process 
automated? Do you have procedures in place to inform key 
Government players when a foreign entity is attempting to buy a 
political ad or when it might be taking other steps to 
interfere in an election?
    Mr. Zuckerberg. Congressman, yes. This is an extremely 
important area. After we were slow to identify the Russian 
information operations in 2016, this has become a top priority 
for our company to prevent that from ever happening again, 
especially this year in 2018, which is such an important 
election year with the U.S. midterms, but also major elections 
in India, Brazil, Mexico, Hungary, Pakistan, a number of other 
places.
    So we are doing a number of things that I am happy to talk 
about or follow up with afterwards around deploying new AI 
tools that can proactively catch fake accounts that Russia or 
others might create to spread misinformation.
    And one thing that I will end on here, just because I know 
we are running low on time, is, since the 2016 election, there 
have been a number of significant elections, including the 
French Presidential election, the German election, and last 
year the U.S. Senate Alabama special election.
    And the AI tools that we deployed in those elections were 
able to proactively take down tens of thousands of fake 
accounts that may have been trying to do the activity that you 
are talking about. So our tools are getting better.
    For as long as Russia has people who are employed who are 
trying to perpetrate this kind of interference, it will be hard 
for us to guarantee that we are going to fully stop everything. 
But it is an arms race, and I think that we are making ground 
and are doing better and better and are confident about how we 
are going to be able to do that.
    Mr. Walden. The gentleman's time has expired.
    Mr. Engel. Thank you.
    Mr. Walden. The Chair recognizes the chairman of the Health 
Subcommittee, Dr. Burgess of Texas, for 4 minutes.
    Mr. Burgess. Thank you, Mr. Chairman.
    And thanks to our witness for being here today.
    Mr. Chairman, I have a number of articles that I am going 
to ask unanimous consent to insert into the record. I know I 
won't have time to get to all of my questions.
    Mr. Walden. Without objection.
    [The information appears at the conclusion of the hearing.]
    Mr. Walden. And we put the slide up that you requested.
    Mr. Burgess. And so I am going to be submitting some 
questions for the record that are referencing these articles: 
One is, ``Friended: How the Obama Campaign Connected With Young 
Voters,'' by Michael Scherer; ``We Already Know How to Protect 
Ourselves from Facebook''--and I hope I get this name right--
Zeynep Tufekci; and ``It's Time to Break Up Facebook'' by Eric 
Wilson, who, in the interest of full disclosure, is a former 
staffer.
    Mr. Walden. Without objection.
    Mr. Burgess. And I will be referencing those articles in 
some written questions.
    I consulted my technology guru, Scott Adams, in the form of 
Dilbert. Going back 21 years ago, when you took the shrink wrap 
off of a piece of software that you bought, you were 
automatically agreeing to be bound by the terms and conditions. 
So we have gone a long way from taking the shrink wrap off of 
an app.
    But I don't know that things have changed all that much. I 
guess, does Facebook have a position that you recommend for 
elements of a company's terms and conditions that you encourage 
consumers to look at before they click on the acceptance?
    Mr. Zuckerberg. Congressman, yes. I think that it is really 
important for this service that people understand what they are 
doing and signing up for and how this service works. We have 
laid out all of what we do in the terms of service because that 
is what is legally required of us. But----
    Mr. Burgess. Let me just ask you, because we are going to 
run short on time, have you laid out for people what it would 
be indicative of a good actor versus a less-than-good actor in 
someone who has developed one of these applications?
    Mr. Zuckerberg. Congressman, yes. We have a developer terms 
of service, which is separate from the normal terms of service 
for individuals using the service.
    Mr. Burgess. Is the average consumer able to determine what 
elements would indicate poor or weak consumer protections just 
by their evaluation of the terms and conditions? Do you think 
that is possible?
    Mr. Zuckerberg. Congressman, I am not sure what you mean by 
that.
    Mr. Burgess. Well, can the average person, the average 
layperson look at the terms and conditions and make the 
evaluation, is this a strong enough protection for me to enter 
into this arrangement?
    Look, I am as bad as anyone else. I see an app. I want it. 
I download it. I breeze through the stuff. Just take me to the 
good stuff in the app. But if a consumer wanted to know, could 
they know?
    Mr. Zuckerberg. Congressman, I think you are raising an 
important point, which is that I think if someone wanted to 
know, they could. But I think that a lot of people probably 
just accept terms of service without taking the time to read 
through it.
    I view our responsibility not as just legally complying 
with laying it out and getting that consent but actually trying 
to make sure that people understand what is happening 
throughout the product.
    That is why every single time that you share something on 
Facebook or one of our services, right there is a control in 
line where you control who you want to share with. Because I 
don't just think that this is about a terms of service. It is 
contextual. You want to present people with the information 
about what they might be doing and give them the relevant 
controls in line at the time that they are making those 
decisions, not just have it be in the background sometime or 
upfront make a one-time decision.
    Mr. Burgess. Yes. Let me move onto something else. Mr. 
Pallone brought up the issue of he wanted to see more 
regulation. We actually passed a bill through this committee 
last Congress dealing with data breach notification, not so 
much for Facebook but for the credit card breaches, a good 
bill.
    Many of the friends on the other side of the dais voted 
against it, but it was Mrs. Blackburn's bill, and I think it is 
one we should consider again in light of what is going on here.
    But you also signed a consent decree back in 2011. And, you 
know, when I read through that consent decree, it is pretty 
explicit. And there is a significant fine of $40,000 per 
violation per day, and if you have got 2 billion users, you can 
see how those fines would mount up pretty quickly.
    So, in the course of your audit, are you extrapolating data 
for the people at the Federal Trade Commission for the terms 
and conditions of the consent decree?
    Mr. Walden. That is time.
    Mr. Zuckerberg. That is--I am not sure what you mean by 
extrapolating data.
    Mr. Burgess. Well, you have referenced there are audits 
that are ongoing. Are you making that information from those 
audits available to our friends at the agency, at the Federal 
Trade Commission?
    Mr. Zuckerberg. Congressman, as you know, the FTC is 
investigating this, and we are certainly going to be complying 
with them and working with them on that investigation.
    Mr. Walden. The gentleman's time has expired.
    The Chair recognizes the gentleman from Texas, Mr. Green, 
for 4 minutes.
    Mr. Green. Thank you, Mr. Chairman.
    And welcome to our committee.
    I want to follow up on what my friend from north Texas 
talked about on his cartoon. Next month, the general data 
protection regulation, the GDPR, goes into effect in the 
European Union. The GDPR is pretty prescriptive on how 
companies treat consumer data, and it makes it clear that 
consumers need to be in control of their own data.
    Mr. Zuckerberg, Facebook has committed to abiding to these 
consumer protections in Europe, and you face large penalties if 
they don't. In recent days, you have said that Facebook intends 
to make the same settings available to users everywhere, not 
only in Europe.
    Did I understand correctly that Facebook would not only 
make the same settings available but that it will make the same 
protections available to Americans that they will to Europeans?
    Mr. Zuckerberg. Yes, Congressman. All the same controls 
will be available around the world.
    Mr. Green. And you commit today that Facebook will extend 
the same protections to Americans that European users will 
receive under the GDPR?
    Mr. Zuckerberg. Yes, Congressman. We believe that everyone 
around the world deserves good privacy controls. We have had a 
lot of these controls in place for years. The GDPR requires us 
to do a few more things, and we are going to extend that to the 
world.
    Mr. Green. There are many requirements in the GDPR, so I am 
just going to focus on a few of them. The GDPR requires that 
the company's request for user consent to be requested in a 
clear and concise way, using language that is understandable, 
and be clearly distinguishable from other pieces of information 
including terms and conditions. How will that requirement be 
implemented in the United States?
    Mr. Zuckerberg. Congressman, we are going to put at the top 
of everyone's app when they sign in a tool that walks people 
through the settings and gives people the choices and asks them 
to make decisions on how they want their settings set.
    Mr. Green. One of the GDPR's requirements is data 
portability. Users must be able to permit it to request a full 
copy of their information and be able to share that information 
with any companies that they want to.
    I know Facebook allows users in the U.S. to download their 
Facebook data. Does Facebook plan to use the currently existing 
ability of users to download their Facebook data as the means 
to comply with the GDPR's data portability requirement?
    Mr. Zuckerberg. Congressman, I think we may be updating it 
a little bit. But as you say, we have had the ability to 
download your information for years now, and people have the 
ability to see everything that they have in Facebook, to take 
that out, delete their account, and move their data anywhere 
that they want.
    Mr. Green. Does that download file include all the 
information Facebook has collected about any given individual? 
In other words, if I download my Facebook information, is there 
other information accessible to you within Facebook that I 
wouldn't see on that document, such as browsing history or 
other inferences that Facebook has drawn from users for 
advertising purposes?
    Mr. Zuckerberg. Congressman, I believe all of your 
information is in that file.
    Mr. Green. OK. GDPR also gives users the right to object to 
the processing of their personal data for marketing purposes, 
which, according to Facebook's website, includes custom 
microtargeting audiences for advertising. Will the same right 
to object be available to Facebook users in the United States, 
and how will that be implemented?
    Mr. Zuckerberg. Congressman, I am not sure how we are going 
to implement that yet. Let me follow up with you on that.
    Mr. Green. OK. Thank you, Mr. Chairman.
    And, again, as a small--Facebook conducted a couple of 
years ago an effort in our district in Houston for our small 
businesses, and it was one of the most successful outreach I 
have seen. So I appreciate that outreach to helping small 
businesses use Facebook to market their products.
    Thank you, Mr. Chairman.
    Mr. Walden. I thank the gentleman. The Chair now recognizes 
the gentlelady from Tennessee, Mrs. Blackburn for 4 minutes.
    Mrs. Blackburn. Thank you, Mr. Chairman. Mr. Zuckerberg, I 
tell you, I think your cozy community, as Dr. Mark Jameson 
recently said is beginning to look a whole lot like the Truman 
Show where people's identities and relationships are made 
available to people that they don't know and then that data is 
crunched and it is used, and they are fully unaware of this.
    So I have got to ask you I think what we are getting to 
here is who owns the virtual you? Who owns your presence 
online? And I would like for you to comment. Who do you think 
owns an individual's presence online? Who owns their virtual 
you? Is it you or is it them?
    Mr. Zuckerberg. Congresswoman, I believe that everyone owns 
their own content online, and that is the first line of our 
terms of service, if you read, it says that.
    Mrs. Blackburn. And where does privacy rank as a corporate 
value for Facebook?
    Mr. Zuckerberg. Congresswoman, giving people control of 
their information and how they want to set their privacy is 
foundational to the whole service. It is not just kind of an 
add-on feature, it is something we have to comply with. The 
reality is if you have a photo--if you just think about this in 
your day-to-day life----
    Mrs. Blackburn. I can't let you filibuster right now. A 
constituent of mine who is a benefits manager brought up a 
great question in a meeting at her company last week, and she 
said, you know, healthcare you have got HIPPA, you have got 
Gramm-Leach-Bliley, you have got the Fair Credit Reporting Act, 
these are all compliance documents for privacy for other 
sectors of the industry. She was stunned, stunned that there 
are no privacy documents that apply to you all.
    And we have heard people say that, you know, and you have 
said you are considering maybe you need more regulation. What 
we think is we need for you to look at new legislation, and you 
are hearing there will be more bills brought out in the next 
few weeks, but we have had a bill, the BROWSER Act, and I am 
certain that you are familiar with this. It is bipartisan, and 
I thank Mr. Lipinski, and Mr. Lance, and Mr. Flores for their 
good work on this legislation. We have had it for over a year, 
and certainly we have been working on this issue for about 4 
years.
    And what this would do is have one regulator, one set of 
rules for the entire ecosystem. And will you commit to working 
with us to pass privacy legislation, to pass the BROWSER Act, 
will you commit to doing that?
    Mr. Zuckerberg. Congresswoman, I am not directly familiar 
with the details of what you just said, but I certainly think 
that regulation in this area----
    Mrs. Blackburn. OK. Let's get familiar with the details. As 
you have heard, we need some rules and regulations. This is 
only 13 pages. The BROWSER Act is 13 pages, so you can easily 
become familiar with it, and we would appreciate your help.
    And I have got to tell you, as Mr. Green just said, as you 
look at the EU privacy policies, you are already doing much of 
that. If you are doing everything you claim because you will 
have to allow consumers to control their data to change, to 
erase it, you have to give consumers opt-in. So that mothers 
know--my constituents in Tennessee want to know that they have 
a right to privacy, and we would hope that that is important to 
you all.
    I want to move on and ask you something else, and please 
get back to me once you have reviewed the BROWSER Act, I would 
appreciate hearing from you.
    We have done one hearing on algorithms. I chair the 
Communications and Technology Subcommittee here. We are getting 
ready to do a second one on algorithms. We are going to do one 
next week on prioritization, so I would like to ask you: Do you 
subjectively manipulate your algorithms to prioritize or censor 
speech?
    Mr. Zuckerberg. Congresswoman, we don't think about what we 
are doing as censoring speech. I think that there are types of 
content like terrorism that I think that we all agree we do not 
want to have on our service, so we build systems that can 
identify those and can remove that content, and we are very 
proud of that. We are----
    Mrs. Blackburn. Let me tell you something right now. 
Diamond and Silk is not terrorism.
    Mr. Walden. The gentlelady's time has expired. The Chair 
recognizes the gentlelady from Colorado, Ms. DeGette, for 4 
minutes.
    Ms. DeGette. Thank you very much, Mr. Chairman.
    Mr. Zuckerberg, we appreciate your contrition and we 
appreciate your commitment to resolving these past problems. 
From my perspective, though, and my colleagues' on both sides 
of the aisle in this committee, we are interested in looking 
forward to preventing this kind of activity not just with 
Facebook but with others in your industry, and as has been 
noted by many people already, we have been relying on self-
regulation in your industry, for the most part. We are trying 
to explore what we can do to prevent further breaches.
    So I want to ask you a whole series of fairly quick 
questions. They should only require yes or no answers. Mr. 
Zuckerberg, at the end of 2017 Facebook had a total shareholder 
equity of just over $74 billion. Is that correct?
    Mr. Zuckerberg. Sorry, Congresswoman, I am not familiar----
    Ms. DeGette. At the end of 2017 Facebook had a total 
shareholder equity of over $74 billion. Correct?
    Mr. Zuckerberg. Of over that?
    Ms. DeGette. That is correct. You are the CEO.
    Mr. Zuckerberg. The market cap of the company was greater 
than that, yes.
    Ms. DeGette. Greater than 74. Last year, Facebook earned a 
profit of $15.9 billion on $40.7 billion in revenue, correct? 
Yes or no.
    Mr. Zuckerberg. Yes.
    Ms. DeGette. Now, since the revelations surrounding 
Cambridge Analytica, Facebook has not noticed a significant 
increase in users deactivating their accounts. Is that correct?
    Mr. Zuckerberg. Yes.
    Ms. DeGette. Now, since the revelations surrounding 
Cambridge Analytica, Facebook has also not noticed a decrease 
in user interaction on Facebook, correct?
    Mr. Zuckerberg. Yes, that is correct.
    Ms. DeGette. OK. Now, I want to take a minute to talk about 
some of the civil and regulatory penalties that we have been 
seeing. I am aware of two class-action lawsuits that Facebook 
has settled relating to privacy concerns. Lane versus Facebook 
was settled in 2010. That case resulted in no money being 
awarded to Facebook users. Is that correct?
    Mr. Zuckerberg. Congresswoman, I am not familiar with the 
details of that.
    Ms. DeGette. You are the CEO of the company, correct?
    Mr. Zuckerberg. Yes.
    Ms. DeGette. Now, this major lawsuit was settled. Do you 
know about the lawsuit?
    Mr. Zuckerberg. Congresswoman, I get briefed on these.
    Ms. DeGette. Do you know about this lawsuit, Lane versus 
Facebook, yes or no?
    Mr. Zuckerberg. I am not familiar with the details.
    Ms. DeGette. OK. If you can supplement. I will just tell 
you there was this lawsuit, and the users got nothing.
    In another case, Fraley versus Facebook, it resulted in a 
2013 settlement fund of $20 million being established with $15 
individual payment payouts to Facebook users beginning in 2016. 
Is that correct?
    Mr. Zuckerberg. Congresswoman, I am not familiar----
    Ms. DeGette. You don't know about that one, either. OK. 
Well, I will tell you what happened.
    Mr. Zuckerberg. I discussed that with our team, but I don't 
remember the exact details.
    Ms. DeGette. OK. Now as the result of a 2011 FTC 
investigation into Facebook's privacy policy, do you know about 
that one?
    Mr. Zuckerberg. The FTC investigation?
    Ms. DeGette. Uh-huh.
    Mr. Zuckerberg. Yes.
    Ms. DeGette. OK. You entered into a consent decree with the 
FTC, which carried no financial penalty for Facebook. Is that 
correct?
    Mr. Zuckerberg. Congresswoman, I don't remember if we had a 
financial penalty.
    Ms. DeGette. You are the CEO of the company. You entered 
into a consent decree, and you don't remember if you had a 
financial----
    Mr. Zuckerberg. I remember the consent decree. The consent 
decree is extremely important to how we operate the company.
    Mr. Zuckerberg. Yes. I would think a financial penalty 
would be, too.
    OK. Well, the reason you probably don't remember it is 
because the FTC doesn't have the authority to issue financial 
penalties for first-time violations. The reason I am asking 
these questions, sir, is because we continue to have these 
abuses and these data breaches, but at the same time it doesn't 
seem like future activities are prevented. And so, I think one 
of the things that we need to look at in the future, as we work 
with you and others in the industry, is putting really robust 
penalties in place in case of improper actions. And that is why 
I asked these questions.
    Mr. Walden. The gentlelady's time has expired. The Chair 
recognizes the gentleman from Louisiana, the whip of the House, 
Mr. Scalise, for 4 minutes.
    Mr. Scalise. Thank you, Mr. Chairman, and, Mr. Zuckerberg, 
I appreciate you coming here. I know, as some of my other 
colleagues mentioned, you came here voluntarily, and we 
appreciate the opportunity to have this discussion, because 
clearly what your company has been able to do has 
revolutionized the way that people can connect, and there is a 
tremendous benefit to our country.
    Now it is a worldwide platform, and it has helped create a 
shortage of computer programmers, so as a former computer 
programmer, I think we would both agree we need to encourage 
more people to go into the computer sciences because our 
country is a world leader thanks to your company and so many 
others, but it obviously raises questions about privacy, and 
data, and how the data is shared and what is a user's 
expectation of where that data goes. So I want to ask a few 
questions.
    First, would you agree we need more computer programmers 
and people to go into that field.
    Mr. Zuckerberg. Congressman, yes.
    Mr. Scalise. That is a public service announcement we just 
made, so I appreciate you joining me in that.
    Mr. Shimkus' question, it was really a follow-up to a 
question yesterday that you weren't able to answer, but it was 
dealing with how Facebook tracks users especially after they 
log off. And you had said in relation to Congressman Shimkus' 
question that there is data mining, but it goes on for security 
purposes.
    So my question would be, Is that data that is mined for 
security purposes also used to sell as part of the business 
model?
    Mr. Zuckerberg. Congressman, I believe that we collect 
different data for those, but I can follow up on the details of 
that.
    Mr. Scalise. All right. If you can follow up, I would 
appreciate that.
    Getting into this new realm of content review, I know some 
of the people that work for Facebook--Campbell Brown said, for 
example, this is changing our relationship with publishers and 
emphasizing something that Facebook has never done before. It 
is having a point of view. And you mentioned the Diamond and 
Silk example where you, I think, described it as a mistake. 
Were the people who made that mistake held accountable in any 
way?
    Mr. Zuckerberg. Congressman, let me follow up with you on 
that. That situation developed while I was here preparing to 
testify, so I do not know the details on that.
    Mr. Scalise. OK. I do want to ask you about a study that 
was done dealing with the algorithm that Facebook uses to 
describe what is fed to people, through the news feed, and what 
they found was after this new algorithm was implemented that 
there was a tremendous bias against conservative news and 
content and a favorable bias towards liberal content, and if 
you can look at that, that shows a 16-point disparity, which is 
concerning.
    I would imagine you are not going to want to share the 
algorithm itself with us. I would encourage you if you wanted 
to do that, but who develops the algorithm? I wrote algorithms 
before, and you can determine whether or not you want to write 
an algorithm to sort data, to compartmentalize data, but you 
can also put a bias in if that is the directive.
    Was there a directive to put a bias in, and first, are you 
aware of this bias that many people have looked at, and 
analyzed, and seen?
    Mr. Zuckerberg. Congressman, that is a really important 
question. There is absolutely no directive in any of the 
changes that we make to have a bias on anything that we do. To 
the contrary, our goal is to be a platform for all ideas. And--
--
    Mr. Scalise. And I know we are almost out of time, so if 
you can go back and look and determine if there was a bias 
whoever developed that software. You have 20,000 people that 
work on some of this data analysis, if you can look and see if 
there is a bias and let us know if there is and what you are 
doing about it, because that is disturbing when you see that 
kind of disparity.
    Finally, there has been a lot of talk about Cambridge and 
what they have done in the last campaign. In 2008 and 2012, 
there was also a lot of this done. One of the lead digital 
heads of the Obama campaign said recently, ``Facebook was 
surprised we were able to suck out the whole social graph, but 
they didn't stop us once they realized that was what we were 
doing. They came to the office in the days following the 
election recruiting and were very candid that they allowed us 
to do things they wouldn't have allowed someone else to do 
because they were on our side.''
    That is a direct quote from one of the heads of the Obama 
digital team. What would she mean by ``they''--Facebook--``were 
on our side''?
    Mr. Zuckerberg. Congressman, we didn't allow the Obama 
campaign to do anything that any developer on the platform 
wouldn't have otherwise been able to do.
    Mr. Scalise. So she was making an inaccurate statement in 
your point of view?
    Mr. Zuckerberg. Yes.
    Mr. Scalise. I appreciate the comments, and I look forward 
to those answers. I yield back the balance of my time.
    Mr. Walden. The Chair now recognizes the gentleman from 
Pennsylvania, Mr. Doyle, for 4 minutes.
    Mr. Doyle. Thank you, Mr. Chairman. Mr. Zuckerberg, 
welcome. Facebook uses some of the most advanced data 
processing techniques and technologies on the planet, correct?
    Mr. Zuckerberg. Congressman, we pride ourselves on doing 
good technical work.
    Mr. Doyle. Thank you. And you use these technologies to 
flag spam, identify offensive content, and track user activity, 
right?
    Mr. Zuckerberg. Among other things.
    Mr. Doyle. But 2015, when the Guardian first reported on 
Cambridge Analytica using Facebook user data, was that the 
first time Facebook learned about these allegations?
    Mr. Zuckerberg. Congressman, in 2015 when we heard that the 
developer on our platform Aleksandr Kogan----
    Mr. Doyle. Was that the first time you heard about it, when 
it was reported by the Guardian?
    Mr. Zuckerberg. That the Guardian reported to Cambridge 
Analytica?
    Mr. Doyle. When the Guardian made the report, was that the 
first time you heard about it?
    Mr. Zuckerberg. Yes.
    Mr. Doyle. Thank you. So do you routinely learn about these 
violations through the press?
    Mr. Zuckerberg. Congressman, sometimes we do. I generally 
think that----
    Mr. Doyle. Let me ask you this. You had the capability to 
audit developers' use of Facebook user data and do more to 
prevent these abuses. But the problem at Facebook not only 
persisted, it proliferated. In fact, relative to other types of 
problems you had on your platform, it seems as though you 
turned a blind eye to this, correct?
    Mr. Zuckerberg. Congressman, I disagree with that 
assessment. I do think that going forward we need to take a 
more proactive view of policing what the developers do. Looking 
back, we have had an app review process. We investigate----
    Mr. Doyle. But, Mr. Zuckerberg, it seems like you were more 
concerned with attracting and retaining developers on your 
platform than you were with ensuring the security of Facebook's 
user data.
    Let me switch gears. Your company is subject to a 20-year 
consent decree with the FTC since 2011, correct?
    Mr. Zuckerberg. Congressman, we have a consent decree, yes.
    Mr. Doyle. And that decree emerged out of a number of 
practices that Facebook engaged in that the FTC deemed to be 
unfair and deceptive. One such practice was making Facebook 
users' private information public without sufficient notice or 
consent, claiming that Facebook certified the security and 
integrity of certain apps when, in fact, it did not, and 
enabling developers to access about a user and their friends. 
Is that correct?
    Mr. Zuckerberg. Congressman, I am not familiar with all of 
the things that the FTC said, although I am very familiar with 
the consent order itself.
    Mr. Doyle. But these were part of the FTC consent decree. 
So I think--I am just concerned that, despite this consent 
decree, Facebook allowed developers access to an unknown number 
of user profiles on Facebook for years--potentially hundreds of 
million, potentially more, and not only allowed but partnered 
with individuals and app developers such as Aleksandr Kogan, 
who turned around and sold that data on the open market and to 
companies like Cambridge Analytica.
    Mr. Zuckerberg, you have said that you planned to audit 
tens of thousands of developers that may have improperly 
harvested Facebook user data. You also said that you planned to 
give all Facebook users access to some user controls that will 
be made available in the EU under the GDPR.
    But it strikes me that there is a real trust gap here. This 
developer data issue is just one example, but why should we 
trust you to follow through on these promises when you have 
demonstrated repeatedly that you are willing to flout both your 
own internal policies and Government oversight when the need 
suits you?
    Mr. Zuckerberg. Congressman, respectfully, I disagree with 
that characterization. We have had a review process for apps 
for years. We have had reviewed tens of thousands of apps a 
year and taken action against a number of them. Our process was 
not enough to catch a developer----
    Mr. Doyle. I see my time is almost over. I just want to 
say, Mr. Chairman, to my mind the only way we are going to 
close this trust gap is through legislation that creates and 
empowers a sufficiently resourced expert oversight agency with 
rulemaking authority to protect the digital privacy and ensure 
that companies protect our users' data.
    With that, I yield back.
    Mr. Walden. The gentleman's time has expired. The Chair 
recognizes the chairman of the Subcommittee on Digital Commerce 
and Consumer Protection, Mr. Latta of Ohio, for 4 minutes.
    Mr. Latta. Well, thank you Mr. Chairman and, Mr. 
Zuckerberg, thanks very much for being with us today.
    First question I have is can you tell the Facebook users 
that the Russians and the Chinese have not used the same 
methods as other third parties to scrape the entire social 
network for their gain?
    Mr. Zuckerberg. Congressman, we have not seen that 
activity.
    Mr. Latta. None at all?
    Mr. Zuckerberg. Not that I am aware of.
    Mr. Latta. OK. Let me ask this question, you know, it has 
been going on when you made your opening statement in regards 
to what you would like to see done with the company and steps 
moving forward. There has been a couple questions, you know, 
about you are going to be investigating the apps. How many apps 
are there out there that you would have to investigate?
    Mr. Zuckerberg. There are tens of thousands of apps that 
had access to a large amount of people's information before we 
locked down the platform in 2014. So we are going to do an 
investigation that first involves looking at their patterns of 
API access and what those companies were doing and then if we 
find anything suspicious then we are going to bring in third-
party auditors to go through their technical and physical 
systems to understand what they did, and if we find that they 
misused any data then we will ban them from our platform, make 
sure they delete the data and tell everyone affected.
    Mr. Latta. Just to follow up on that then, how long would 
it take then to investigate each of those apps once you are 
doing that because, again, when you are talking about tens of 
thousands and you are going through that entire process then 
how long would it take to go through each one of those apps?
    Mr. Zuckerberg. Yes, Congressman. It is going to take many 
months to do this full process.
    Mr. Latta. OK.
    Mr. Zuckerberg. And it is going to be an expensive process 
with a lot of auditors, but we think that this is the right 
thing to do at this point. You know, before we had thought that 
when developers told us that they weren't going to sell data 
that that was--that that was a good representation, but one of 
the big lessons that we have learned here is that clearly we 
cannot just take the developers' word for it, we need to go in 
and enforce that.
    Mr. Latta. OK. We are talking about audits. There has been 
some questions about this on the audits. In 2011 Facebook 
signed did sign that consent order with the Federal Trade 
Commission for the privacy violations. Part of that consent 
order requires Facebook to submit third-party privacy audits to 
the FTC every 2 years.
    First, are you aware of the audits? And, second, why didn't 
the audits disclose or find these issues with the developers' 
access to users' data?
    Mr. Zuckerberg. Yes, Congressman. I am aware of the audits 
that we do. We do audits every other year. They are ongoing. 
The audits have not found material issues with our privacy 
programs in place at the company. I think the broader question 
here is we have had this FTC consent decree, but we take a 
broader view of what our responsibility for people's privacy 
is, and our view is that this--what a developer did that they 
represented to us that they were going to use the data in a 
certain way and then in their own systems went out and sold it 
we do not believe is a violation of the consent decree, but it 
is clearly a breach of people's trust, and the standard that we 
hold ourselves to is not just following the laws that are in 
place, but we also--we just want to take a broader view of this 
in protecting people's information.
    Mr. Latta. Let me we are just about out of time here. Are 
you aware that Facebook did provide the auditors all the 
information it requested when doing the FTC audits?
    Mr. Zuckerberg. Sorry, can you repeat that?
    Mr. Latta. Yes. Did Facebook provide the auditors all the 
information requested when preparing the audit for the FTC?
    Mr. Zuckerberg. Congressman, I believe we do provide the 
audits to the FTC.
    Mr. Latta. OK. So all the information is provided. And were 
you ever personally asked to provide information or feedback in 
these audits to the FTC?
    Mr. Zuckerberg. Congressman, not personally, although I am 
briefed on all of the audits by our team.
    Mr. Latta. OK. Mr. Chairman, my time has expired, and I 
yield back.
    Mr. Walden. The gentleman yields back. The Chair recognizes 
the gentlelady from Illinois, Ms. Schakowsky, for 4 minutes.
    Ms. Schakowsky. Thank you, Mr. Chairman. You know, you have 
a long history of growth and success, but you also have a long 
list of apologies in 2003. It started at Harvard. ``I apologize 
for any harm done as a result of my neglect.'' 2006, ``We 
really messed this one up.'' 2007, ``We simply did a bad job. I 
apologize for it.'' 2010, ``Sometimes we move too fast.'' 2011, 
``I am the first to admit that we have made a bunch of 
mistakes.'' 2017, this is in connection with the Russian 
manipulation of the election and the data that came from 
Facebook initially. ``I ask for forgiveness. I will work to do 
better.'' So it seems to me from this history that self-
regulation, this has proved to me that self-regulation simply 
does not work.
    I have a bill, The Secure and Protect Americans Data Act 
that I hope you will take a look at, very simple bill about 
setting standards for how you have to make sure that the data 
is protected, deadlines on when you have to release that 
information to the public. Certainly it ought to go to the FTC, 
as well.
    But in response to the questions about the apps and the 
investigation that you are going to do you said you don't 
necessarily know how long. Have you set any deadline for that 
because we know, as my colleagues said, that there are tens of 
thousands, there is actually been nine million apps. How long 
do we have to wait for that kind of investigation?
    Mr. Zuckerberg. Congresswoman, we expect it to take many 
months.
    Ms. Schakowsky. Years?
    Mr. Zuckerberg. I hope not.
    Ms. Schakowsky. OK. I want to ask you, yesterday following 
up on your response to Senator Baldwin's question you said 
yesterday that Kogan also sold data to other firms. You named 
Eunoia Technologies. How many are there total, and what are 
their names? Can we get that, and how many are there total?
    Mr. Zuckerberg. Congresswoman, we can follow up with you to 
make sure you get all that information.
    Ms. Schakowsky. Yes, but order of magnitude.
    Mr. Zuckerberg. I don't believe it was a large number, but 
as we complete the audits we will know more.
    Ms. Schakowsky. What is a large number?
    Mr. Zuckerberg. A handful.
    Ms. Schakowsky. Has Facebook tried to get those firms to 
delete user data and its derivatives?
    Mr. Zuckerberg. Yes, Congresswoman. In 2015 when we first 
learned about it we immediately demanded that the app developer 
and the firms that he sold it to delete the data, and they all 
represented to us that they had. It wasn't until about a month 
ago that new reports surfaced that suggested that they hadn't, 
which is what has kicked us off needing to now go do this full 
audit and investigation and investigate all these other apps 
that have come up.
    Ms. Schakowsky. Were derivatives deleted?
    Mr. Zuckerberg. Congresswoman, we need to complete the 
investigation and audit before I can confirm that.
    Ms. Schakowsky. You are looking into it?
    Mr. Zuckerberg. What they represented to us is that they 
have, but we now need to get into their systems and confirm 
that before I want to stand up here confidently and say what 
they have done.
    Ms. Schakowsky. So Mr. Green asked about the general data 
protection regulation on May 25th that is going to go into 
effect by the EU, and your response was--let me ask, is your 
response that exactly the protections that are guaranteed not 
the--what did you say? Yes, not to conduce the controls but all 
the rights that are guaranteed under the general data 
protection regulations will be applied to Americans, as well?
    Mr. Zuckerberg. Congresswoman, the GDPR has a bunch of 
different important pieces. One is around offering controls 
over every use of people's----
    Ms. Schakowsky. Right, that is one. Uh-huh.
    Mr. Zuckerberg. That we are doing. The second is around 
pushing for affirmative consent and putting a control in front 
of people that walks people through their choices.
    Ms. Schakowsky. Exactly.
    Mr. Zuckerberg. We are going to do that too.
    The second, although that might be different depending on 
the laws in specific countries and different places, but we are 
going to put a tool at the top of everyone's app that walks 
them through their settings and helps them understand what is--
--
    Ms. Schakowsky. It sounds like it will not be exact. And 
let me say, as we look at----
    Mr. Walden. The gentlelady's time----
    Ms. Schakowsky [continuing]. The distribution of 
information that who is going to protect us from Facebook is 
also a question.
    Thank you, and I yield back.
    Mr. Walden. The gentlelady's time has expired.
    The Chair recognizes the gentlelady from Washington State, 
the Conference chairman.
    Mrs. McMorris Rodgers. Thank you.
    And thank you, Mr. Zuckerberg, for joining us.
    Todayis clearly timely. There is a number of extremely 
important questions Americans have about Facebook, including 
questions about safety and security of their data, about the 
process by which their data is made available to third parties, 
about what Facebook is doing to protect consumer privacy as we 
move forward.
    But one of the issues that is concerning me and I would 
like to dig a little deeper into is how Facebook treats content 
on its platform.
    So, Mr. Zuckerberg, given the extensive reach of Facebook 
and its widespread use as a tool of public expression, do you 
think Facebook has a unique responsibility to ensure that it 
has clear standards regarding the censorship of content on its 
platform? And do you think Facebook adequately and clearly 
defines what these standards are for its users?
    Mr. Zuckerberg. Congresswoman, yes, I feel like we have a 
very important responsibility to outline what the content 
policies are and the community standards are.
    This is one of the areas that, frankly, I am worried we are 
not doing a good enough job at right now, especially because, 
as an American-based company where about 90 percent of the 
people in our community are outside of the U.S., where there 
are different social norms and different cultures, it is not 
clear to me that our current situation of how we define 
community standards is going to be effective for articulating 
that around the world.
    So we are looking at different ways to evolve that, and I 
think that this is one of the more important things that we 
will do.
    Mrs. McMorris Rodgers. OK.
    And even focusing on content for here in America, I would 
like to shift gears just a little bit to talk about Facebook's 
recent changes to its news feed algorithm.
    Your head of news partnerships recently said that Facebook 
is, quote, ``taking a step to define what quality news looks 
like and give that a boost so that overall there is less 
competition from news.''
    Can you tell me what she means by ``less competition from 
news''? And, also, how does Facebook objectively determine what 
is acceptable news and what safeguards exist to ensure that, 
say, religious or conservative content is treated fairly?
    Mr. Zuckerberg. Yes, Congresswoman. I am not sure 
specifically what that person was referring to, but I can walk 
you through what the algorithm change was, if that is useful.
    Mrs. McMorris Rodgers. Well, maybe I will just go on to my 
other questions then.
    There is an issue of content discrimination, and it is not 
a problem unique to Facebook. There is a number of high-profile 
examples of edge providers engaging in blocking and censoring 
religious and conservative political content. In November, FCC 
Chairman Pai even said that edge providers routinely block or 
discriminate against content they don't like.
    This is obviously a serious allegation. How would you 
respond to such an allegation? And what is Facebook doing to 
ensure that its users are being treated fairly and objectively 
by content reviewers?
    Mr. Zuckerberg. Congresswoman, the principle that we are a 
platform for all ideas is something that I care very deeply 
about. I am worried about bias, and we take a number of steps 
to make sure that none of the changes that we make are targeted 
in any kind of biased way. And I would be happy to follow up 
with you and go into more detail on that, because I agree that 
this is a serious issue.
    Mrs. McMorris Rodgers. Over Easter, a Catholic university's 
ad with a picture of the historic San Damiano Cross was 
rejected by Facebook. Though Facebook addressed the error 
within days, that it happened at all is deeply disturbing.
    Could you tell me what was so shocking, sensational, or 
excessively violent about the ad to cause it to be initially 
censored? Given that your company has since said it did not 
violate terms of service, how can users know that their content 
is being viewed and judged accordingly to objective standards?
    Mr. Zuckerberg. Congresswoman, it sounds like we made a 
mistake there, and I apologize for that. And, unfortunately, 
with the amount of content in our systems and the current 
systems that we have in place to review, we make a relatively 
small percent of mistakes in content review but that is too 
many, and this is an area where we need to improve.
    What I will say is that I wouldn't extrapolate from a few 
examples to assuming that the overall system is biased. I get 
how people can look at that and draw that conclusion, but I 
don't think that that reflects the way that we are trying to 
build the system or what we have seen.
    Mr. Walden. The gentlelady's----
    Mrs. McMorris Rodgers. Thank you. And I just--this is an 
important issue in building trust.
    Mr. Zuckerberg. I agree.
    Mrs. McMorris Rodgers. And that is going to be important.
    Thank you, and I yield back.
    Mr. Walden. The gentlelady's time has expired.
    The Chair recognizes the gentleman from North Carolina, Mr. 
Butterfield, for 4 minutes.
    Mr. Butterfield. Thank you, Mr. Chairman.
    And thank you, Mr. Zuckerberg, for your testimony here 
today.
    Mr. Zuckerberg, you have stated that your goal with 
Facebook is to build strong communities, and certainly that 
sounds good. You have stated here today on the record that you 
did not live up to the privacy expectations, and I appreciate 
that.
    But this committee--and you must know this--this committee 
is counting on you to right a wrong, and I hope you get it. In 
my opinion, Facebook is here to stay, and so you have an 
obligation to protect the data that you collect and the data 
that you use. And Congress has the power to regulate your 
industry, and we have the power to penalize misconduct.
    But I want to go in a different direction today, sir. You 
and your team certainly know how I feel about racial diversity 
in corporate America. And Sheryl Sandberg and I talk about that 
all of the time.
    Let me ask you this--and the Congressional Black Caucus has 
been very focused on holding your industry accountable--not 
just Facebook, your industry--accountable for increasing 
African-American inclusion at all levels of the industry.
    And I know you have a number of diversity initiatives. In 
2017, you have increased your black representation from 2 to 3 
percent. While this is a small increase, it is better than 
none.
    But this does not nearly meet the definition of building a 
racially diverse community. CEO leadership--and I have found 
this to be absolutely true--CEO leadership on issues of 
diversity is the only way that the technology industry will 
change.
    So will you commit, sir, to convene, personally convene, a 
meeting of CEOs in your sector--many of them, all of them 
perhaps, are your friends--and to do this very quickly to 
develop a strategy to increase racial diversity in the 
technology industry?
    Mr. Zuckerberg. Congressman, I think that that is a good 
idea, and we should follow up on it.
    From the conversations that I have with my fellow leaders 
in the tech industry, I know that this is something that we all 
understand that the whole industry is behind on, and Facebook 
is certainly a big part of that issue.
    And we care about this not just from the justice angle but 
because we know that having diverse viewpoints is what will 
help us serve our community better, which is ultimately what we 
are here to do. And I think we know that the industry is behind 
on this and want to----
    Mr. Butterfield. Well, we have talked with you over the 
years about this, and while there has been some marginal 
improvement, we must do better than we have done.
    Recently, you appointed an African American, our friend Ken 
Chenault, to our board. And, of course, Erskine Bowles is 
already on your board, who is also a friend. But we have to 
concentrate more on board membership for African Americans and 
also minorities at the entry level within your company.
    I was looking at your website a few minutes ago, and it 
looks like you list five individuals as leadership in your 
company, but none of them is African American. I was just 
looking at it. Not only you and Sheryl, but David, Mike, and 
Chris, that is your leadership team, and this does not reflect 
America.
    Can you improve the numbers on your leadership team to be 
more diverse?
    Mr. Zuckerberg. Congressman, this is an issue that we are 
focused on. We have a broader leadership than just five people. 
I mean----
    Mr. Butterfield. It is not on your website.
    Mr. Zuckerberg. I understand that.
    Mr. Butterfield. We can do better than that, Mr. 
Zuckerberg. We certainly can.
    Do you plan to add an African American to your leadership 
in the foreseeable future? And will you commit that you will 
continue to work with us, the Congressional Black Caucus, to 
increase diversity within your company that you are so proud 
of?
    Mr. Zuckerberg. Congressman, we will certainly work with 
you. This is an important issue.
    Mr. Butterfield. We also find that companies' failure to 
retain black employees contributes to their low presence at 
technology companies. And there is little transparency in 
retention numbers.
    So will you commit to providing numbers on your retention--
that is the big word, ``retention''--of your employees 
disaggregated by race in your diversity update starting this 
year? Can we get that data? That is the starting point.
    Mr. Zuckerberg. Congressman, we try to include a lot of 
important information in the diversity updates. I will go 
discuss that with my team after I get back from this hearing.
    Mr. Butterfield. I am out of time, sir. I will take this up 
with your team in another setting. We will be out there in a 
few weeks.
    Thank you. I yield back.
    Mr. Walden. The gentleman's time has expired.
    The Chair now recognizes now the chairman of the Oversight 
and Investigations Subcommittee, the gentleman from 
Mississippi, Mr. Harper, for 4 minutes.
    Mr. Harper. Thank you, Mr. Chairman.
    Thank you, Mr. Zuckerberg, for being here. And we don't 
lose sight of the fact that you are a great American success 
story. It is a part of everyone's life and business, sometimes 
maybe too often. But I thank you for taking the time to be 
here.
    And our concern is to make sure that it is fair. We worry, 
because we are looking at possible Government regulation here, 
certainly this self-governing, which has had some issues, and 
how you factor that. And, you know, we are trying to keep up 
with the algorithm changes on how you determine the 
prioritization of the news feeds, and you look at, well, it 
needs to be trustworthy and reliable and relevant. Well, who is 
going to determine that? That also has an impact. And even 
though you say you don't want the bias, it is dependent upon 
who is setting what those standards are in that.
    And so I want to ask you a couple of questions, if I may. 
And this is a quote from Paul Grewal, Facebook's VP and general 
counsel. He said, ``Like all app developers, Mr. Aleksandr 
Kogan requested and gained access to information from people 
after they chose to download his app.''
    Now, under Facebook policy in 2013, if Cambridge Analytica 
had developed the This is Your Digital Life app, they would 
have had access to the same data they purchased from Mr. Kogan. 
Would that be correct?
    Mr. Zuckerberg. Congressman, that is correct. A different 
developer could have built that out.
    Mr. Harper. OK.
    Now, according to PolitiFact.com--and this is a quote--
``The Obama campaign and Cambridge Analytica both gained access 
to huge amounts of information about Facebook users and their 
friends, and in neither case did the friends of app users 
consent,'' close quote.
    This data that Cambridge Analytica acquired was used to 
target voters with political messages, much as the same type of 
data was used by the Obama campaign to target voters in 2012. 
Would that be correct?
    Mr. Zuckerberg. Congressman, the big difference between 
these cases is that, in the Kogan case, people signed into that 
app expecting to share the data with Kogan, and then he turned 
around and, in violation of our policies and in violation of 
people's expectations, sold it to a third-party firm, to 
Cambridge Analytica in this case.
    Mr. Harper. Sure.
    Mr. Zuckerberg. I think that we were very clear about how 
the platform worked at the time, that anyone could sign into an 
app, and they would be able to bring their information, if they 
wanted, and some information from their friends. People had 
control over that. So, if you wanted, you could turn off the 
ability to sign into apps or turn off the ability for your 
friends to be able to bring your information. The platform 
worked the way that we had designed it at the time at the time.
    I think we now know that we should have a more restrictive 
platform, where people cannot also bring information from their 
friends and can only bring their own information. But that is 
the way that the system worked at the time.
    Mr. Harper. And whether in violation of the agreement or 
not, you agree that users have an expectation that their 
information would be protected and remain private and not be 
sold. And so that is something--the reason that we are here 
today.
    And I can certainly understand the general public's outrage 
if they are concerned regarding the way Cambridge Analytica 
required their information. But if people are outraged because 
they used that for political reasons, would that be 
hypocritical? Shouldn't they be equally outraged that the Obama 
campaign used the data of Facebook users without their consent 
in 2012?
    Mr. Zuckerberg. Congressman, what I think people are 
rightfully very upset about is that an app developer that 
people had shared data with sold it to someone else, and, 
frankly, we didn't do enough to prevent that or understand it 
soon enough.
    Mr. Harper. Thank you.
    Mr. Zuckerberg. And now we have to go through and put in 
place systems that prevent that from happening again and make 
sure that we have sufficient controls in place in our 
ecosystem, so, that way, developers can't abuse people's data.
    Mr. Harper. Thank you, Mr. Zuckerberg.
    My time has expired. I yield back.
    Mr. Walden. The gentleman yields back the balance of his 
time.
    The gentlelady from California, Ms. Matsui, is recognized 
for 4 minutes.
    Ms. Matsui. Thank you, Mr. Chairman.
    And welcome, Mr. Zuckerberg. Thank you very much here.
    You know, I was just thinking about Facebook and how you 
developed your platform, first from a social platform amongst 
friends and colleagues and joining a community. And a lot of 
that was based upon trust, because you knew your friends, 
right? But that evolved into this business platform, and one of 
the pillars still was trust. And I think everyone here would 
agree that trust is in short supply here, and that is why we 
are here today.
    Now, you have constantly maintained that consumers own the 
data they provided to Facebook and should have control over it. 
And I appreciate that, and I just want to understand more about 
what that means.
    To me, if you own something, you ought to have some say 
about how and when it is used, but, to be clear, I don't just 
mean pictures, email addresses, Facebook groups, or pages. I 
understand the data and the information consumers provided to 
Facebook can be and perhaps is used by algorithms to form 
assumptions and inferences about users to better target ads to 
the individuals.
    Now, do you believe that consumers actually own their data 
even when that data has been supplemented by a data broker, 
assumptions algorithms have made about that user, or otherwise?
    And this is kind of the question that Mrs. Blackburn has 
come up with, our own comprehensive profile, which is kind of 
our virtual self.
    Mr. Zuckerberg. Congresswoman, I believe that people own 
all of their own content.
    Where this gets complicated is, let's say I take a photo 
and I share it with you. Now, is that my photo, or is it your 
photo? I would take the position that it is our photo, which is 
why we make it so that I can bring that photo to another app if 
I want but you can't. But----
    Ms. Matsui. Well, once it gets to the data broker, though--
so there are certain algorithms and certain assumptions made. 
What happens after that?
    Mr. Zuckerberg. Sorry, can you clarify that?
    Ms. Matsui. Well, what I mean is that, if you supplement 
this data, you know, you say you are owning it, but you 
supplement this when other data brokers, you know, use their 
other algorithms to supplement this and make their own 
assumptions, then what happens there? Because that is, to me, 
somebody else is taking that over. How can you say that we own 
that data?
    Mr. Zuckerberg. Congresswoman, all the data that you put 
in, all the content that you share on Facebook is yours. You 
control how it is used. You can remove it at any time. You can 
get rid of your account and get rid of all of it at once. You 
can get rid of specific things.
    Ms. Matsui. But you can't claw it back once it gets out 
there, right? I mean, that is really--we might own our own 
data, but once it is used in advertising, we lose control over 
it. Is that not right?
    Mr. Zuckerberg. Congresswoman, I disagree with that, 
because one core tenet of our advertising system is that we 
don't sell data to advertisers. Advertisers don't get access to 
your data.
    There is a core misunderstanding about how that system 
works, which is that--let's say, if you are a shop and you are 
selling muffins, right, you might want to target people in a 
specific town who might be interested in baking or some 
demographic. But we don't send that information to you; we just 
show the message to the right people.
    And that is a really important, I think, common 
misunderstanding of how this system works.
    Ms. Matsui. Yes, I understand that, but Facebook sells ads 
based, at least in part, on data users provide to Facebook. 
That is right. And the more data that Facebook collects, it 
allows you to better target ads to users or classes of users.
    So, even if Facebook doesn't earn money from selling data, 
doesn't Facebook earn money from advertising based on that 
data?
    Mr. Zuckerberg. Yes, Congresswoman, we run ads. The 
business model is running ads. And we use the data that people 
put into the system in order to make the ads more relevant, 
which also makes them more valuable. But what we hear from 
people is that, if they are going to see ads, they want them to 
be good and relevant.
    Ms. Matsui. But we are not controlling that data?
    Mr. Zuckerberg. No, you have complete control over that.
    Mr. Walden. The gentlelady's time has expired.
    As previously agreed, we will now take a 5-minute recess. 
And committee members and our witness need to plan to be back 
in about 5 minutes.
    We stand in recess.
    [Recess.]
    Mr. Walden. We will call the Energy and Commerce Committee 
back to order and recognize the gentleman from New Jersey, Mr. 
Lance, for 4 minutes for purposes of questions.
    Mr. Lance. Thank you very much, Mr. Chairman.
    Mr. Zuckerberg, you are here today because you are the face 
of Facebook. And you have come here voluntarily. And our 
questions are based upon our concern about what has occurred 
and how to move forward.
    I am sure you have concluded, based upon what we have 
asked, that we are deeply offended by censoring of content 
inappropriately by Facebook. Examples have been raised--a Roman 
Catholic university, a State Senate candidate in Michigan. I 
would be offended if this censoring were occurring on the left 
as well as the right, and I want you to know that.
    And do you take from what we have indicated so far that, in 
a bipartisan fashion, Congress is offended by inappropriate 
censoring of content?
    Mr. Zuckerberg. Congressman, yes. This is extremely 
important. And I think the point that you have raised is 
particularly important, that we have heard today a number of 
examples of where we may have made content review mistakes on 
conservative content, but I can assure you that there are a lot 
of folks who think that we make content moderation or content 
review mistakes of liberal content as well.
    Mr. Lance. Fair enough. My point is that we don't favor 
censoring in any way, so long as it doesn't involve hate speech 
or violence or terrorism. And, of course, the examples today 
indicate quite the contrary, number one.
    Number two, Congresswoman Blackburn has mentioned her 
legislation. I am a cosponsor of the BROWSER legislation. I 
commend it to your attention, to the attention of your company. 
It is for the entire ecosystem. It is for ISPs and edge 
providers; it is not just for one or the other. It is an opt-in 
system, similar to the system that exists in Europe.
    Might I respectfully request of you, Mr. Zuckerberg, that 
you and your company review the BROWSER legislation? And I 
would like your support for that legislation after your review 
of it.
    Mr. Zuckerberg. We will review it and get back to you.
    Mr. Lance. Thank you very much.
    Your COO, Sheryl Sandberg, last week appeared on the 
``Today'' program, and she admitted the possibility that 
additional breaches in personal information could be discovered 
by the current audits. Quote, ``We are doing an investigation. 
We are going to do the audits. And, yes, we think it is 
possible. That is why we are doing the audits.''
    And then the COO went on to say, ``Facebook cared about 
privacy all along, but I think we got the balance wrong.''
    Do you agree with the statement of your COO?
    Mr. Zuckerberg. Yes, Congressman, I do.
    We were trying to balance two equities: on the one hand, 
making it so that people had data portability, the ability to 
bring their data to another app, in order to have new 
experiences in other places, which I think is a value that we 
all care about. On the other hand, we also need to balance 
making sure that everyone's information is protected. And I 
think that we didn't get that balance right up front.
    Mr. Lance. Thank you. I certainly concur with the statement 
of the COO, as affirmed by you today, that you got the balance 
wrong.
    And then, regarding Cambridge Analytica, the fact that 
300,000 individuals or so gave consent but that certainly 
didn't mean they gave consent to 87 million friends, do you 
believe that that action violated your consent agreement with 
the Federal Trade Commission?
    Mr. Zuckerberg. We do not believe it did. But, regardless, 
we take a broader view of what our responsibility is to protect 
people's privacy. And if a developer who people gave their 
information to, in this case Aleksandr Kogan, then goes and, in 
violation of his agreement with us, sells the data to Cambridge 
Analytica, that is a big issue. And I think people have a right 
to be very upset--I am upset that that happened. And we need to 
make sure that we put in place the systems to prevent that from 
happening again.
    Mr. Lance. Thank you. I think it may have violated the 
agreement with the Federal Trade Commission, and I am sure that 
will be determined in the future.
    Thank you, Mr. Chairman.
    Mr. Walden. I thank the gentleman from New Jersey.
    I recognize the gentlelady from Florida, Ms. Castor, for 4 
minutes.
    Ms. Castor. Thank you, Mr. Chairman.
    Welcome, Mr. Zuckerberg.
    For all of the benefits that Facebook has provided in 
building communities and connecting families, I think a devil's 
bargain has been struck. And, in the end, Americans do not like 
to be manipulated. They do not like to be spied on. We don't 
like it when someone is outside of our home watching. We don't 
like it when someone is following us around the neighborhood 
or, even worse, following our kids or stalking our children.
    Facebook now has evolved to a place where you are tracking 
everyone. You are collecting data on just about everybody.
    Yes, we understand the Facebook users that proactively sign 
in are part of that platform, but you are following Facebook 
users even after they log off of that platform and application, 
and you are collecting personal information on people who do 
not even have Facebook accounts. Isn't that right?
    Mr. Zuckerberg. Congresswoman, I believe----
    Ms. Castor. Yes or no?
    Mr. Zuckerberg. Congresswoman, I am not sure that--I don't 
think that that is what we are tracking.
    Ms. Castor. No, you are collecting--you have already 
acknowledged that you are doing that for security purposes and 
commercial purposes. So you are collecting data outside of 
Facebook. When someone goes to a website and it has the 
Facebook ``like'' or ``share,'' that data is being collected by 
Facebook, correct?
    Mr. Zuckerberg. Congresswoman----
    Ms. Castor. Yes or no?
    Mr. Zuckerberg [continuing]. That is right, that we 
understand, in order to show which of your friends liked a----
    Ms. Castor. Yes. So for people that don't even have 
Facebook--I don't think that the average American really 
understands that today, something that fundamental, and that 
you are tracking everyone's online activities, their searches. 
You can track what people buy, correct?
    Mr. Zuckerberg. Congresswoman----
    Ms. Castor. You are collecting that data, what people 
purchase online, yes or no?
    Mr. Zuckerberg. I actually--if they share it with us. But, 
Congresswoman, overall----
    Ms. Castor. Because it has a ``share'' button, so it is 
gathering--Facebook has the application--in fact, you patented 
applications to do just that. Isn't that correct? To collect 
that data?
    Mr. Zuckerberg. Congresswoman, I don't think any of those 
buttons share transaction data.
    But, broadly, I disagree with the characterization----
    Ms. Castor. But they track you. You are collecting medical 
data, correct, on people that are on the internet, whether they 
are Facebook users or not? Right?
    Mr. Zuckerberg. Congresswoman, yes, we collect some data 
for security purposes and----
    Ms. Castor. And you watch where we go. Senator Durbin had a 
funny question yesterday about where you are staying, and you 
didn't want to share that. But Facebook also gathers that data 
about where we travel. Isn't that correct?
    Mr. Zuckerberg. Congresswoman, everyone has control over 
how that works.
    Ms. Castor. I am going to get to that, but, yes, you are--
would you just acknowledge that, yes, Facebook is--that is the 
business you are in, gathering data and aggregating that data? 
Correct?
    Mr. Zuckerberg. Congresswoman, I disagree with that 
characterization.
    Ms. Castor. Are you saying you do not gather data on where 
people travel based upon their internet and the ways they sign 
in and things like that?
    Mr. Zuckerberg. Congresswoman, the primary way that 
Facebook works is that people choose to share data, and they 
share content----
    Ms. Castor. The primary way, but the other way that 
Facebook gathers data is you buy data from data brokers outside 
of the platform, correct?
    Mr. Zuckerberg. Congresswoman, we just announced 2 weeks 
ago that we were going to stop interacting with data brokers, 
even though that is an industry norm to make it so that the 
advertising can be more relevant----
    Ms. Castor. But I think, in the end, I think what--see, it 
is practically impossible these days to remain untracked in 
America, for all the benefits Facebook has brought and the 
internet. And that is not part of the bargain.
    And current laws have not evolved, and the Congress has not 
adopted laws to address digital surveillance. And Congress 
should act. And I do not believe that the controls, the opaque 
agreement, consent agreements--the settings are an adequate 
substitute for fundamental privacy protections for consumers.
    Now----
    Mr. Walden. The gentlelady's time----
    Ms. Castor. Thank you. I will yield back my time----
    Mr. Walden. The gentlelady----
    Ms. Castor [continuing]. And let that stand. And I would 
like to ask unanimous consent that I put my constituents' 
questions in the record for----
    Mr. Walden. Without objection.
    [The information appears at the conclusion of the hearing.]
    Ms. Castor. Thank you.
    Mr. Walden. The Chair now recognizes the gentleman from 
Kentucky, Mr. Guthrie, for 4 minutes.
    Mr. Guthrie. Thank you, Mr. Chairman.
    Thanks for being here.
    When I first got into public office, the internet was 
really kicking off, and I had a lot of people complain about 
ads, just the inconvenience of ads, trying to get through in 
the cumbersome in the internet.
    I remember telling someone one time--being from Kentucky, a 
basketball fan, I said, there is nothing I hate worse than the 
4-minute timeout, the TV timeout. It ruins the flow of the game 
and everything. But because of the 4-minute timeout, I get to 
watch the game for free. So that is something I am willing to 
accept to watch for free.
    What you are not really willing to accept is that your data 
is just out there and that it is being used but it is being 
used in the right way.
    And it is funny, because I was going to ask this question 
anyway. I was planning a family trip to Florida, and I searched 
a town in Florida, and all of a sudden I started getting ads 
for a brand of hotel that I typically stay in, at a great 
hotel, at the price available to the public, because it was on 
the internet, that I was willing to pay and stay there. And so 
I thought it was actually convenient. Instead of getting just 
an ad to someplace I will never go, I got an ad specifically to 
a place I was looking to go, so I thought that was convenient.
    And it wasn't Facebook, although my wife used Facebook to 
message my mother-in-law this weekend for where we are meeting 
up. So it is very valuable that we get to do that for free 
because your business model relies on consumer-driven data. 
This wasn't Facebook; it was a search engine, but they used 
consumer-driven data to target an ad to me.
    So you are not unique in Silicon Valley or in this internet 
world in doing this type of targeted ads, are you?
    Mr. Zuckerberg. No, Congressman. You are right. Ad-based 
business models have been a common way that people have been 
able to offer free services for a long time. And our social 
mission of trying to help connect everyone in the world relies 
on having a service that can be affordable for everyone, that 
everyone can use. And that is why the ads business model is in 
service of the social mission we have. And, you know, I think 
sometimes that gets lost, but I think that that is a really 
important point.
    Mr. Guthrie. But you are different, in that, instead of 
getting just--when I am watching the Hilltoppers on basketball, 
the person advertising to me doesn't know anything about me. I 
am just watching the ad. So there is no data, no agreement, and 
no risk, I guess, there. But with you, there is consumer-driven 
data.
    But if we were to greatly reduce or stop--or just greatly 
reduce through legislation the use of consumer-driven data for 
targeting ads, what do you think that would do to the internet? 
And when I say ``internet,'' I mean everything, not just 
Facebook.
    Mr. Zuckerberg. Well, Congressman, it would make the ads 
less relevant. So----
    Mr. Guthrie. If you had less revenue, what would that do 
to----
    Mr. Zuckerberg. And, yes, it would reduce--it would have a 
number of effects.
    For people using the services, it would make the ads less 
relevant to them. For businesses, like the small businesses 
that use advertising, it would make advertising more expensive, 
because now they would have to pay more to reach more people 
inefficiently, because targeting helps small businesses be able 
to afford and reach people as effectively as big companies have 
typically had the ability to do for a long time.
    It would affect our revenue some amount too, but I think 
there are a couple of points here that are lost. One is that we 
already give people the control to not use that data and ads if 
they want. Most people don't do that. I think part of the 
reason for that is that people get that if they are going to 
see ads that they want them to be relevant.
    But the other thing is that a lot of what makes the ads 
work or what makes the business good is just that people are 
very engaged with Facebook. We have more than a billion people 
who spend almost an hour a day across all our services.
    Mr. Guthrie. OK. I have 30 seconds. So I appreciate the 
answer to that. But if--so I didn't opt out and so forth, and 
all of a sudden I say, this just doesn't work for me, so I want 
to delete--you told Congressman Rush that you could delete. 
What happens to the data? I have already--it is there, it has 
been used, Cambridge Analytica may have it. So what happens 
when I say, Facebook, take my data off your platform?
    Mr. Zuckerberg. If you delete your account, we immediately 
make it so that your account is no longer available once you 
are done deleting it, so no one can find you on the service. We 
wouldn't be able to recreate your account from that.
    We do have data centers and systems that are redundant, and 
we have backups in case something bad happens. And over a 
number of days, we will go through and make sure that we flush 
all the content out of the system.
    But as soon as you delete your account, effectively, that 
content is dismantled, and we wouldn't be able to put your 
account back together if we wanted to.
    Mr. Walden. The gentleman's time has expired.
    Mr. Guthrie. Well, thank you. My time has expired. I 
appreciate it.
    Mr. Walden. I recognize the gentleman from Maryland, Mr. 
Sarbanes, for 4 minutes.
    Mr. Sarbanes. Thank you, Mr. Chairman.
    Good morning, Mr. Zuckerberg.
    I wanted to get something on the record quickly before I 
move to some questions. You had suggested in your testimony 
over the last couple days that Facebook notified the Trump and 
Clinton campaigns of Russian attempts to hack into those 
campaigns. But representatives of both campaigns in the last 24 
hours have said that didn't happen. So we are going to need to 
follow up on that and find out what the real story is, but----
    Mr. Zuckerberg. Do you want me to----
    Mr. Sarbanes. No. I would like to move on. You can provide 
a response to that in writing, if you would.
    Let me ask you: Is it true that Facebook offered to provide 
what I guess you referred to as dedicated campaign embeds to 
both of the Presidential campaigns?
    Mr. Zuckerberg. Congressman, I can quickly respond to the 
first point too.
    Mr. Sarbanes. Just say yes or no. Were there embeds in the 
two campaigns? Were offers of embeds----
    Mr. Zuckerberg. Congressman, we----
    Mr. Sarbanes. Yes or no. Were there embeds offered to the 
Trump campaign and the Clinton campaign?
    Mr. Zuckerberg. We offer sales support to every campaign.
    Mr. Sarbanes. OK. So sales support. I am going to refer to 
that as embeds. And I gather that Mr. Trump's campaign 
ultimately accepted that offer. Is that correct? Yes or no.
    Mr. Zuckerberg. Congressman, the Trump campaign had sales 
support, and the Clinton campaign had sales support too.
    Mr. Sarbanes. OK. So they had embeds. I am going to refer 
to those as embeds. What I would like for you to do, if you 
could--we are not going to have time for you to do this now--
but if you could provide to the committee both the initial 
offer terms and then any subsequent offer terms that were 
presented to each candidate in terms of what the embed services 
would be, that would be very helpful.
    Do you know how many ads were approved for display on 
Facebook for each of the Presidential candidates by Facebook?
    Mr. Zuckerberg. Congressman, I do not, sitting here, off 
the top of my head, but----
    Mr. Sarbanes. OK. Let me tell you what they were, because I 
do. President Trump's campaign had an estimated 5.9 million ads 
approved; and Secretary Clinton, 66,000 ads. So that is a delta 
of about 90 times as much on the Trump campaign, which raises 
some questions about whether the ad approval processes were 
maybe not processed correctly or inappropriately bypassed in 
the final months and weeks of the election by the Trump 
campaign.
    And what I am worried about is that the embeds may have 
helped to facilitate that. Can you say with absolute certainty 
that Facebook or any of the Facebook employees working as 
campaign embeds did not grant any special approval rights to 
the Trump campaign to allow them to upload a very large number 
of Facebook ads in that final stretch?
    Mr. Zuckerberg. Congressman, we apply the same standard to 
all campaigns.
    Mr. Sarbanes. Can you say that there were not special 
approval rights granted? Is that what you are saying? There 
were not special approval rights granted by any of the embeds 
or support folks, as you call them, in that Trump campaign?
    Mr. Zuckerberg. Congressman----
    Mr. Sarbanes. Yes or no.
    Mr. Zuckerberg. Yes. What I am saying is that----
    Mr. Sarbanes. If you are saying yes, then I will take you 
at your word.
    The reason this is important and the reason we need to get 
to the bottom of it is because it could be a serious problem if 
these kinds of services were provided beyond what is offered in 
the normal course, because that could result in violation of 
campaign finance law because it would be construed as an in-
kind contribution, corporate contribution from Facebook beyond 
what the sort of ad buy opportunity would typically provide.
    The reason I am asking you these questions is because I am 
worried that that embed program has the potential to become a 
tool for Facebook to solicit favor from policymakers, and that 
then creates the potential for real conflict of interest.
    And I think a lot of Americans are waking up to the fact 
that Facebook is becoming sort of a self-regulated super 
structure for political discourse. And the question is, are we 
the people going to regulate our political dialogue, or are 
you, Mark Zuckerberg, going to end up regulating the political 
discourse? So we need to be free of that undue influence.
    I thank you for being here, and I yield back.
    Mr. Walden. The gentleman's time has expired.
    The Chair recognizes the gentleman from Texas, Mr. Olson, 
for 4 minutes.
    Mr. Zuckerberg. Mr. Chairman, do you mind for the record if 
I just answer the first point for--take 10 seconds.
    Mr. Walden. That is fine. Go ahead.
    Mr. Zuckerberg. When I was referring to the campaigns 
yesterday I meant the DNC and RNC. So I may have misspoken and 
maybe technically that is called the committees, but those were 
the folks who I was referring to.
    Mr. Walden. Thank you for that clarification.
    We will now go to Mr. Olson from Texas for 4 minutes.
    Mr. Olson. I thank the Chair.
    Mr. Zuckerberg, I know we both wish we had met under a 
different set of circumstances. When the story broke, you were 
quoted as saying, ``I started Facebook. I run it. I am 
responsible for what happens here,'' end quote. You said those 
same words in your opening statement about an hour and a half 
ago.
    I know you believe that in your heart. It is not just some 
talking points or canned speech. Because of my 4 years--I am 
sorry--9 years in the Navy, I know the best commanding 
officers, the best skippers, the best CEOs have that exact same 
attitude.
    If Facebook was a Navy ship, your privacy has taken a 
direct hit. Your trust is severely damaged. You are taking on 
water, and your future may be a fine with a number, per The 
Washington Post, with four commas in it. Today, over a billion 
dollars in fines come your way. As you know, you have to 
reinforce your words with actions.
    I have a few questions about some anomalies that have 
happened in the past. First of all, back in 2012, apparently 
Facebook did the experiment on 689,003 Facebook users: You 
reduced positive posts from users' friends and limited so-
called downer posts from other friends so they see the positive 
information from one group; and the other group, negative 
information. The goal was to see how the tone of these posts 
would affect behavior. I look at this Forbes article, The LA 
Times about illegal human experimentation without permission. I 
want to talk about that.
    But it seems that this is disconnecting people in stark 
contrast to your mission to connect people. Explain to us how 
you guys thought this idea was a good idea, experimenting with 
people, giving them more negative information, positive 
information.
    Mr. Zuckerberg. Well, Congressman, I view our 
responsibility as not just building services that people like 
to use but making sure that those services are also good for 
people and good for society overall.
    At the time, there were a number of questions about whether 
people seeing content that was either positive or negative on 
social networks was affecting their mood. And we felt like we 
had a responsibility to understand whether that was the case 
because we don't want to have that effect, right.
    We don't want it to have it so that--we want use in social 
media and our products to be good for people's well-being. We 
continually make changes to that effect. Including just 
recently, this year, we did a number of research projects that 
showed that when social media is used for building 
relationships. So when you are interacting with people, it is 
associated with a lot of positive effects of well-being that 
you would expect: It makes you feel more connected, less 
lonely. It correlates with long-term measures of happiness and 
health.
    Whereas, if you are using social media or the internet just 
to passively consume content, then that doesn't have those same 
positive effects or can even be negative. So we have tried to 
shift the product more towards helping people interact with 
friends and family as a result of that. So that is the kind 
of--an example of the kind of work that we do.
    Mr. Olson. One last question. I believe I have heard you 
employ 27,000 people thereabouts. Is that correct?
    Mr. Zuckerberg. Yes.
    Mr. Olson. I have also been told that about 20,000 of those 
people, including contractors, do work on data security. Is 
that correct?
    Mr. Zuckerberg. Yes. The 27,000 number is full-time 
employees, and the security and content review includes 
contractors, of which there are tens of thousands or will be by 
the time that----
    Mr. Olson. OK. So roughly at least half your employees are 
dedicated to security practices. How can Cambridge Analytica 
happen with so much of your workforce dedicated to these 
causes? How did that happen?
    Mr. Zuckerberg. Well, Congressman, the issue with Cambridge 
Analytica and Aleksandr Kogan happened before we ramped those 
programs up dramatically. But one thing that I think is 
important to understand overall is just the sheer volume of 
content on Facebook makes it that we can't--no amount of people 
that we can hire will be enough to review all of the content.
    We need to rely on and build sophisticated AI tools that 
can help us flag certain content, and we are getting good in 
certain areas. One of the areas that I mentioned earlier was 
terrorist content, for example, where we now have AI systems 
that can identify and take down 99 percent of the al-Qaida and 
ISIS-related content in our system before someone, a human, 
even flags it to us. I think we need to do more of that.
    Mr. Walden. The gentleman's time has expired.
    The Chair recognizes the gentleman from California, Mr. 
McNerney, for 4 minutes.
    Mr. McNerney. I thank the chairman.
    Mr. Zuckerberg, I thank you for agreeing to testify before 
the House and Senate committees. I know it is a long and 
grueling process, and I appreciate your cooperation.
    I am a mathematician that spent 20 years in industry and 
Government developing technology including algorithms. 
Moreover, my constituents are impacted by these issues, so I am 
deeply committed and invested here. I am going to follow up on 
an earlier question.
    Is there currently a place that I can download all of the 
Facebook information about me, including the websites that I 
have visited?
    Mr. Zuckerberg. Yes, Congressman. We have a Download Your 
Information tool. We have had it for years. You can go to it in 
your settings and download all of the content that you have on 
Facebook.
    Mr. McNerney. Well, my staff, just this morning, downloaded 
their information, and their browsing history is not in there. 
So are you saying that Facebook does not have browsing history?
    Mr. Zuckerberg. Congressman, that would be correct. If we 
don't have content in there, then that means that you don't 
have it on Facebook or you haven't put it there.
    Mr. McNerney. So I am not quite on board with this. Is 
there any other information that Facebook has obtained about 
me, whether Facebook collected it or obtained it from a third 
party, that would not be included in the download?
    Mr. Zuckerberg. Congressman, my understanding is that all 
of your information is included in Download Your Information.
    Mr. McNerney. OK. I am going to follow up with this 
afterwards.
    Mr. Zuckerberg, you indicated that the European users have 
these GDR protections on May 25 and American users will have 
those similar protections. When will the American users have 
those protections?
    Mr. Zuckerberg. Congressman, we are working on doing that 
as quickly as possible. I don't have the exact date yet.
    Mr. McNerney. So it will not be on May 25?
    Mr. Zuckerberg. We are working on it.
    Mr. McNerney. Thank you.
    Your company and many companies with an online presence 
have a staggering amount of personal information. The customer 
is not really in the driver's seat about how their information 
is used or monetized. The data collectors are in the driver's 
seat.
    Today, Facebook is governed by weak Federal privacy 
protections. I have introduced legislation that would help 
address these issues. They MY DATA Act would give the FTC 
rulemaking authority to provide consumers with strong data, 
privacy, and security protections. Without this kind of 
legislation, how can we be sure that Facebook won't continue to 
be careless with users' information?
    Mr. Zuckerberg. Well, Congressman, let me first just set 
aside that my position isn't that there should be no 
regulation.
    Mr. McNerney. Correct.
    Mr. Zuckerberg. But regardless of what the laws are that 
are in place, we have a very strong incentive to protect 
people's information. This is the core thing that Facebook is, 
is, about 100 billion times a day, people come to our service 
to share a photo or share a message or----
    Mr. McNerney. I hear you saying this, but the history isn't 
there. So I think we need to make sure that there are 
regulations in place to give you the proper motivation to stay 
in line with data protection.
    One of the problems here, in my mind, is that Facebook's 
history, the privacy--user privacy and security have not been 
given as high priority as corporate growth, and you have 
admitted as much. Is Facebook considering changing its 
management structure to ensure that privacy and security have 
sufficient priority to prevent these problems in the future?
    Mr. Zuckerberg. Congressman, this is an incredibly high 
priority for us. When I was saying before that the core use of 
the product every day, about 100 billion times, is that people 
come and try to share something with a specific set of people, 
that works because people have confidence that, if they send a 
message, it is going to go to the person that they want. If 
they want to share a photo with their friends, it is going to 
go to the people who they want. That is incredibly important. 
We have built a robust privacy program. We have a chief privacy 
officer----
    Mr. McNerney. That is a little bit off track from what I am 
trying to get at. The privacy protections clearly failed in a 
couple of cases that are high profile right now. And part of 
the blame that seems to be out there is that the management 
structure for privacy and security don't have the right level 
of a profile in Facebook to get your attention to make sure 
that they get the proper resources.
    Mr. Walden. The gentleman's time has expired.
    The Chair recognizes the gentleman from West Virginia, Mr. 
McKinley, for 4 minutes.
    Mr. McKinley. Thank you for coming, Mr. Zuckerberg.
    I have got a yes-or-no question, if you could give that. 
Should Facebook enable illegal online pharmacies to sell drugs 
such as oxycodone, Percocet, Vicodin without a prescription?
    Mr. Zuckerberg. Congressman, I believe that is against our 
policies.
    Mr. McKinley. Yes or no, do you think you should be able to 
do that?
    Mr. Zuckerberg. No, of course not.
    Mr. McKinley. And there are 35,000 online pharmacies 
operating, and according to the FDA, they think there may be 96 
percent of them are operating illegally. And on November of 
last year, CNBC had an article say that you were surprised by 
the breadth of this opioid crisis.
    And, as you can see from these photographs, opioids are 
still available on your site, that they are without a 
prescription on your site. So it contradicts just what you just 
said just a minute ago.
    And it went on last week. FDA Commissioner Scott Gottlieb, 
has testified before our office, said that the internet firms 
simply aren't taking practical steps to fine and remove these 
illegal opioid listings, and he specifically mentioned 
Facebook. Are you aware of that, his quote?
    Mr. Zuckerberg. Congressman----
    Mr. McKinley. Yes or no.
    Mr. Zuckerberg [continuing]. I am not specifically aware of 
his quote, but I heard that he said something. And let me just 
speak to this for a second, because----
    Mr. McKinley. If I could--no. We don't--so, in your opening 
statement--and I appreciated your remark--you said it is not 
enough to give people a voice; we have to make sure that people 
aren't using it, Facebook, to hurt people.
    Now, America is in the midst of one of the worst epidemics 
that it has ever experienced with its drug epidemic. And it is 
all across this country, not just in West Virginia. But your 
platform is still being used to circumvent the law and allow 
people to buy highly addictive drugs without a prescription.
    With all due respect, Facebook is actually enabling an 
illegal activity, and in so doing, you are hurting people. 
Would you agree with that statement?
    Mr. Zuckerberg. Congressman, I think that there are a 
number of areas of content that we need to do a better job 
policing on our service. Today, the primary way that content 
regulation works here--and review--is that people can share 
what they want openly on the service, and then, if someone sees 
an issue, they can flag it to us, and then we will review it.
    Over time, we are shifting to a mode----
    Mr. McKinley. You can find out, Mr. Zuckerberg. You know 
which pharmacies are operating legally and illegally, but you 
are still continuing to take that--allow that to be posted on 
Facebook and allow people to get--this scourge, this ravage in 
this country is being enabled because of Facebook.
    So my question to you as we close on this: You have said 
before you were going to take down those ads, but you didn't do 
it. We have got statement after statement about things, you are 
going to take those down within days, and they haven't gone 
down. That, what I just put up, was just from yesterday. It is 
still up.
    So my question to you is, when are you going to stop--take 
down these posts that are done with illegal digital pharmacies? 
When are you going to take them down?
    Mr. Zuckerberg. Congressman, right now, when people report 
the posts to us, we will take them down and have people review 
them.
    Mr. McKinley. Why do they have to--if you have got all 
these 20,000 people, you know that they are up there. Where is 
your requirement--where is your accountability to allow this to 
be occurring, this ravage in this country?
    Mr. Zuckerberg. Congressman, I agree that this is a 
terrible issue. And, respectfully, when there are tens of 
billions or 100 billion pieces of content that are shared every 
day, even 20,000 people reviewing it can't look at everything. 
What we need to do is build more AI tools that can proactively 
find that content.
    Mr. McKinley. You have said before you were going to take 
them down, and you haven't.
    Mr. Walden. The gentleman's time has expired.
    The Chair recognizes the gentleman from Vermont, Mr. Welch, 
for 4 minutes.
    Mr. Welch. Thank you, Mr. Chairman.
    Mr. Zuckerberg, you acknowledged candidly that Facebook 
made a mistake. You did an analysis of how it happened. You 
promised action. We are at the point where the action will 
speak much louder than the words.
    But, Mr. Chairman, this Congress has made a mistake. This 
event that happened, whether it was Facebook or some other 
platform, was foreseeable and inevitable, and we did nothing 
about it.
    Congresswoman Blackburn and I had a group, a privacy 
working group, six meetings with many of the industry players. 
There was an acknowledgment on both sides that privacy was not 
being protected, that there was no reasonable safeguard for 
Americans' privacy. But there was an inability to come to a 
conclusion.
    So we also have an obligation. And in an effort to move 
forward, Mr. Zuckerberg, I have framed some questions that 
hopefully will allow a reasonable yes or no answer to see if 
there is some common ground to achieve the goal you assert you 
have, and we certainly have, the obligation to protect the 
privacy of American consumers.
    First, do you believe that consumers have a right to know 
and control what personal data companies collect from them?
    Mr. Zuckerberg. Yes.
    Mr. Welch. Do you believe that consumers have a right to 
control how and with whom their personal information is shared 
with third parties?
    Mr. Zuckerberg. Congressman, yes, of course.
    Mr. Welch. And do you believe that consumers have a right 
to secure and responsible handling of their personal data?
    Mr. Zuckerberg. Yes, Congressman.
    Mr. Welch. And do you believe that consumers should be able 
to easily place limits on the personal data that companies 
collect and retain?
    Mr. Zuckerberg. Congressman, that seems like a reasonable 
principle to me.
    Mr. Welch. OK. And do you believe that consumers should be 
able to correct or delete inaccurate personal data that 
companies have obtained?
    Mr. Zuckerberg. Congressman, that one might be more 
interesting to debate because it depends----
    Mr. Welch. Well, then you get back to us with specifics on 
that. I think they do have that right.
    Do you believe that consumers should be able to have their 
data deleted immediately from Facebook when they stop using the 
service?
    Mr. Zuckerberg. Yes, Congressman, and they have that 
ability.
    Mr. Welch. Good.
    And do you believe that the Federal Trade Commission or 
another properly resourced governmental agency with rulemaking 
authority should be able to determine on a regular basis what 
is considered personal information to provide certainty for 
consumers and companies what information needs to be protected 
most tightly?
    Mr. Zuckerberg. Congressman, I certainly think that that is 
an area where we should discuss some sort of oversight.
    Mr. Welch. There is not a big discussion here. Who gets the 
final say? Is it the private market, companies like yours, or 
is there a governmental function here that defines what privacy 
is?
    Mr. Zuckerberg. Congressman, I think that is--this is an 
area where some regulation makes sense. You proposed a very 
specific thing, and I think the details matter.
    Mr. Welch. All right. Let me ask you this--I have 
appreciated your testimony--will you work this committee to 
help put us--to help the U.S. put in place our own privacy 
regulation that prioritizes consumers' right to privacy just as 
the EU has done?
    Mr. Zuckerberg. Congressman, yes, I will make sure that we 
work with you to flesh this out.
    Mr. Welch. All right. And you have indicated that Facebook 
has not always protected the privacy of their users throughout 
the company's history. And it seems, though, from your answers, 
that consumers--you agree that consumers do have a fundamental 
right to privacy that empowers them to control the collection, 
the use, the sharing of their personal information online. And 
thank you.
    Mr. Chairman, privacy cannot be based just on company 
policies. Whether it is Facebook or any other company, there 
has to be a willingness on the part of this Congress to step up 
and provide policy protection to the privacy rights of every 
American consumer.
    I yield back.
    Mr. Walden. The gentleman yields back.
    The Chair recognizes the gentleman from Illinois, Mr. 
Kinzinger, for 4 minutes.
    Mr. Kinzinger. Thank you, Mr. Chairman.
    Mr. Zuckerberg, thank you for being here.
    Given the global reach of Facebook, I would like to know 
about the company's policies and practices with respect to 
information sharing with foreign governments, if you don't 
mind. What personal data does Facebook make available from 
Facebook, Instagram, WhatsApp, to Russian state agencies, 
including intel and security agencies?
    Mr. Zuckerberg. Congressman, in general, the way we 
approach data and law enforcement is if we have knowledge of 
imminent harm, physical harm that might happen to someone, we 
try to reach out to local law enforcement in order to help 
prevent that.
    I think that that is less built out around the world. It is 
more built out in the U.S. So, for example, on that example, we 
build out specific programs in the U.S. We have 3,000 people 
that are focused on making sure that if we detect that someone 
is at risk of harming themselves, we can get them the 
appropriate help.
    Mr. Kinzinger. What about Russian intel agencies?
    Mr. Zuckerberg. The second category of information is when 
there is a valid legal process served to us. In general, if a 
government puts something out that is overly broad, we are 
going to fight back on it. We view our duty as protecting 
people's information, but if there is valid service, especially 
in the U.S., we will, of course, work with law enforcement. In 
general, we are not in the business of providing a lot of 
information to the Russian Government.
    Mr. Kinzinger. Do you know, is this data only from accounts 
located in or operated from these individual countries, or does 
it include Facebook's global data?
    Mr. Zuckerberg. Sorry. Can you repeat that?
    Mr. Kinzinger. Yes. Is the data only from the accounts 
located in or operated from those countries in terms of Russia 
or anything, or does it include Facebook's global data?
    Mr. Zuckerberg. Well, Congressman, in general, countries do 
not have jurisdiction to have any valid legal reason to request 
data of someone outside of their country. But----
    Mr. Kinzinger. Where is it stored? I mean, do they have 
access to data----
    Mr. Zuckerberg. Oh, we don't store any data on Russia.
    Mr. Kinzinger. OK. So it is the global data?
    Mr. Zuckerberg. Yes.
    Mr. Kinzinger. So let me just ask, you mentioned a few 
times that we are in an arms race with Russia, but is it one-
sided if Facebook as an American-based company is giving the 
opposition everything it needs in terms of where it is storing 
its data?
    Mr. Zuckerberg. Sorry, Congressman, could you repeat that?
    Mr. Kinzinger. So you mentioned a few times that we are in 
an arms race with Russia.
    Mr. Zuckerberg. Yes.
    Mr. Kinzinger. If you are giving Russian intelligence 
service agencies potentially, even on a valid request, access 
to global data that is not in Russia, is that kind of a 
disadvantage to us and an advantage to them?
    Mr. Zuckerberg. Congressman, let me be more precise in my 
testimony.
    Mr. Kinzinger. Sure. Yes, please.
    Mr. Zuckerberg. I have no specific knowledge of any data 
that we have ever given to Russia. In general, we will work 
with valid law enforcement requests in different countries, and 
we can get back to you on what that might mean with Russia 
specifically. But I have no knowledge sitting here of any time 
that we would have given them information.
    Mr. Kinzinger. OK. That would with great.
    Now, I have got another unique one I want to bring up. So I 
was just today--and I am not saying this as a woe-is-me, but I 
think this happens to a lot of people. There have been--my 
pictures have been stolen and used in fake accounts all around, 
and in many cases people have been extorted for money. We 
report it when we can, but we are in a tail chase.
    In fact, today I just Googled--or I just put on your 
website ``Andrew Kinzinger,'' and he looks a lot like me. But 
it says he is from London and lives in L.A. And went to Locke 
High School, which isn't anything like me at all. These 
accounts pop up a lot, and, again, it is using my pictures but 
extorting people for money. And we hear about it from people 
that call and say, ``Hey, I was duped,'' or whatever.
    I know you can't control everything. I mean, you have a 
huge platform and--but can you talk about maybe some movements 
into the future to try to prevent that in terms of maybe 
recognizing somebody's picture and if it is fake?
    Mr. Zuckerberg. Yes, Congressman. This is an important 
issue. Fake accounts overall are a big issue because that is 
how a lot of the other issues that we see around fake news and 
foreign election interference are happening as well.
    So, long term, the solution here is to build more AI tools 
that find patterns of people using the services that no real 
person would do. And we have been able to do that in order to 
take down tens of thousands of accounts, especially related to 
election interference leading up to the French election, the 
German election, and last year the U.S. Alabama Senate State 
election, Senate election--special election. And that is an 
area where we should be able to extend that work and develop 
more AI tools that can do this more broadly.
    Mr. Kinzinger. OK. Thank you.
    Mr. Walden. The gentleman's time has expired.
    The Chair recognizes the gentleman from New Mexico, Mr. 
Lujan, for 4 minutes.
    Mr. Lujan. Thank you, Mr. Chairman.
    And I want to pick up where Mr. Kinzinger dropped off here.
    Mr. Zuckerberg, Facebook recently announced that a search 
feature allowed malicious actors to scrape data on virtually 
all of Facebook's 2 billion users. Yes or no, in 2013, Brandon 
Copley, the CEO of Giftnix, demonstrated that this feature 
could easily be used to gather information at scale?
    Well, the answer to that question is yes.
    Yes or no, this issue of scraping data was again raised in 
2015 by a cybersecurity researcher, correct?
    Mr. Zuckerberg. Congressman, I am not specifically familiar 
with that. The feature that we identified--I think it was a few 
weeks ago or a couple weeks ago at this point--was a search 
feature that allowed people to look up some information that 
people had publicly shared on their profile, so names, profile 
pictures, public information.
    Mr. Lujan. If a may, Mr. Zuckerberg, I will recognize that 
Facebook did turn this feature off.
    My question, and the reason I am asking about 2013 and 2015 
is Facebook knew about this in 2013 and 2015, which it didn't 
turn the feature off until Wednesday of last week, the same 
feature that Mr. Kinzinger just talked about where this is 
essentially a tool for these malicious actors to go and steal 
someone's identity and put the finishing touches on it.
    So, again, you know, one of your mentors, Roger McNamee 
recently said your business is based on trust, and you are 
losing trust. This is a trust question. Why did it take so 
long, especially when we are talking about some of the other 
pieces that we need to get to the bottom of? Your failure to 
act on this issue has made billions of people potentially 
vulnerable to identity theft and other types of harmful 
malicious actors.
    So, onto another subject, Facebook has detailed profiles on 
people who have never signed up for Facebook, yes or no?
    Mr. Zuckerberg. Congressman, in general, we collect data 
from people who have not signed up for Facebook for security 
purposes to prevent the kind of scraping that you were just 
referring to.
    Mr. Lujan. So these are called shadow profiles? Is that 
what they have been referred to by some?
    Mr. Zuckerberg. Congressman, I am not familiar with that.
    Mr. Lujan. I will refer to them as shadow profiles for 
today's hearing.
    On average, how many data points does Facebook have on each 
Facebook user?
    Mr. Zuckerberg. I do not know off the top of my head.
    Mr. Lujan. So the average for non-Facebook platforms is 
1,500. It has been reported that Facebook has as many as 29,000 
data points for an average Facebook user. Do you know how many 
points of data that Facebook has on the average non-Facebook 
user?
    Mr. Zuckerberg. Congressman, I do not off the top of my 
head, but I can have our team get back to you afterwards.
    Mr. Lujan. I appreciate that.
    It has been admitted by Facebook that you do collect data 
points on non-average users. So my question is, can someone who 
does not have a Facebook account opt out of Facebook's 
involuntary data collection?
    Mr. Zuckerberg. Congressman, anyone can turn off and opt 
out of any data collection for ads, whether they use our 
services or not. But in order to prevent people from scraping 
public information, which, again, the search feature that you 
brought up only showed public information, people's names and 
profiles and things that they had made public, but nonetheless, 
we don't want people aggregating even public information----
    Mr. Lujan [continuing]. But so we----
    Mr. Zuckerberg. So we need to know when someone is trying 
to repeatedly access our services.
    Mr. Lujan. If I may, Mr. Zuckerberg, because I am about out 
of time. It may surprise you that we have not talked about this 
a lot today. You have said everyone controls their data, but 
you are collecting data on people that are not even Facebook 
users, that have never signed a consent, a privacy agreement, 
and you are collecting their data.
    And it may surprise you that, on Facebook's page, when you 
go to ``I don't have a Facebook account and would like to 
request all my personal data stored by Facebook,'' it takes you 
to a form that says, ``Go to your Facebook page, and then, on 
your account settings, you can download your data.'' So you are 
directing people that don't even have a Facebook page to have 
to sign up for a page to erase their data. We have got to fix 
that.
    The last question that I have is, Have you disclosed to 
this committee or to anyone all information Facebook has 
uncovered about Russian interference on your platform?
    Mr. Zuckerberg. Congressman, we are working with the right 
authorities on that, and I am happy to answer specific 
questions here as well.
    Mr. Walden. The gentleman's time has expired.
    Mr. Lujan. Thank you, Mr. Chairman.
    Mr. Walden. The Chair now recognizes the gentleman from 
Virginia, Mr. Griffith, for 4 minutes.
    Mr. Griffith. Thank you, Mr. Chairman.
    I appreciate you being here.
    Let me state upfront that I share the privacy concerns that 
you have heard from a lot of us, and I appreciate your 
statements and willingness to, you know, help us figure out a 
solution that is good for the American people. So I appreciate 
that.
    Secondly, I have to say that it is my understanding that 
yesterday Senator Shelley Moore Capito, my friend in my 
neighboring State of West Virginia, asked you about Facebook's 
plans with rural broadband, and you agreed to share that 
information with her at some point in time, get her up to date 
and up to speed. I was excited to hear that you were excited 
about that and passionate about it.
    My district is very similar to West Virginia as it borders 
it and we have a lot of rural areas. Can you also agree, yes or 
no, to update me on that when the information is available?
    Mr. Zuckerberg. Yes, Congressman. We will certainly follow 
up with you on this. Part of the mission of connecting everyone 
around the world means that everyone needs to be able to be on 
the internet.
    And, unfortunately, too much of the internet infrastructure 
today is too expensive for the current business models of 
carriers to support a lot of rural communities with the quality 
of service that they deserve.
    So we are building a number of specific technologies from, 
you know, planes that can beam down internet access to 
repeaters and mesh networks to make it so that all these 
communities can be served, and we would be happy to follow up 
with you on this to----
    Mr. Griffith. I appreciate that. And we have got a lot of 
drone activity going on in our district, whether it is 
University of Virginia at Wise or Virginia Tech. So we would be 
happy to help out there too.
    Let me switch gears. You talked about trying to ferret out 
misinformation, and the question becomes who decides what is 
misinformation. So, when some of my political opponents put on 
the Facebook that, you know, they think Morgan Griffith is a 
bum, I think that is misinformation. What say you?
    Mr. Zuckerberg. Congressman, without weighing in on that 
specific piece of content, let me outline the way that we 
approach fighting fake news in general. There are three 
categories of fake news that we fight: One are basically 
spammers. They are economic actors like the Macedonian trolls 
that I think we have all heard about, basically folks who don't 
have an ideological goal. They are just trying to write the 
most sensational thing they can in order to get people to click 
on it so they can make money on ads. It is all economics.
    So the way to fight that is we make it so they can't run 
our ads; they can't make money. We make it so that we can 
detect what they are doing and show it less in news feeds so 
they can make less money. When they stop making money, they 
just go and do something else, because they are economically 
inclined.
    The second category are basically state actors, right, so 
what we found with Russian interference, and those people are 
setting up fake accounts. So, for that, we need to build AI 
systems that can go and identify a number of their fake account 
networks.
    And just last week, we traced back the Russian activity to 
a specific fake account network that Russia had in Russia to 
influence Russian culture and other Russian-speaking countries 
around them. And we took down a number of their fake accounts 
and pages, including a news organization that was sanctioned by 
Russian--by the Russian Government as a Russian state news 
organization.
    So that is a pretty big action, but removing fake accounts 
is the other way that we can stop the spread of false 
information.
    Mr. Griffith. And I appreciate that. My time is running 
out. I do want to point this out though as part of that, you 
know, who is going to decide what is misinformation. We have 
heard about the Catholic University and the cross. We have 
heard about a candidate. We have heard about the conservative 
ladies. A firearms shop, lawful, in my district, had a similar 
problem. It has also been corrected.
    And so I wonder if the industry has thought about--not only 
are we looking at it, but has the industry thought about doing 
something like underwriters laboratories, which was set up when 
electricity was new to determine whether or not the devices 
were safe?
    Have you all thought about doing something like that so it 
is not Facebook alone but the industry saying, ``Wait a minute, 
this is probably misinformation,'' and setting up guidelines 
that everybody can agree are fair?
    Mr. Zuckerberg. Yes, Congressman. That is actually the 
third category that I was going to get to next after economic 
spammers and state actors with fake accounts. One of the things 
that we are doing is working with a number of third parties 
who--so, if people flag things as false news or incorrect, we 
run them by third-party fact checkers who are all accredited by 
this Pointer Institute of Journalism. There are firms of all 
leanings around this who do this work, and that is an important 
part of the effort.
    Mr. Walden. The gentleman's time has expired.
    Mr. Griffith. I yield back.
    Mr. Walden. The Chair now recognizes the gentleman from New 
York, Mr. Tonko, for 4 minutes.
    Mr. Tonko. Thank you.
    Mr. Zuckerberg, I want to follow up on a question asked by 
Mr. McNerney when he talked about visiting websites and the 
fact that Facebook can track you. And as you visit those 
websites, you can have that deleted. I am informed that there 
is not a way to do that, or are you telling us that you are 
announcing a new policy?
    Mr. Zuckerberg. Congressman, my understanding is that if we 
have information from you visiting other places, then you have 
a way of getting access to that and deleting it and making sure 
that we don't store it anymore.
    In the specific question that the other Congressman asked, 
I think it is possible that we just didn't have the information 
that he was asking about in the first place, and that is why it 
wasn't there.
    Mr. Tonko. Well, 3 billion user accounts were breached at 
Yahoo in 2013; 145 million at eBay in 2014; 143 million at 
Equifax in 2017; 78 million at Anthem in 2015; 76 million at 
JPMorgan Chase in 2014. The list goes on and on.
    The security of all that private data is gone, likely sold 
many times over to the highest bidder on the dark web. We live 
in an information age. Data breaches and privacy hacks are not 
a question of if; they are a question of when.
    The case with Facebook is slightly different. The 87 
million accounts extracted by Cambridge Analytica are just the 
beginning, with likely dozens of other third parties that have 
accessed this information. As far as we know, the dam is still 
broken.
    As you have noted, Mr. Zuckerberg, Facebook's business 
model is based on capitalizing on the private personal 
information of your users. Data security should be a central 
pillar of this model.
    And with your latest vast breach of privacy and the 
widespread political manipulation that followed it, the 
question this committee must ask itself is what role the 
Federal Government should play in protecting the American 
people and the democratic institutions that your platform and 
others like it have put at risk.
    In this case, you gave permission to mine the data of some 
87 million users based on the deceptive consent of just a 
fraction of that number. When they found out I was going to be 
speaking with you today, my constituents asked me to share some 
of their concerns in person.
    How can they protect themselves on your platform? Why 
should they trust you again with their likes, their loves, 
their lives? Users trusted Facebook to prioritize user privacy 
and data security, and that trust has been shattered. I am 
encouraged that Facebook is committed to making changes, but I 
am indeed wary that you are only acting now out of concern for 
your brand and only making changes that should have been made a 
long time ago.
    You have described this as an arms race, but every time we 
saw what precautions you have or, in most cases, have not taken 
your company is caught unprepared and ready to issue another 
apology. I am left wondering again why Congress should trust 
you again. We will be watching you closely to ensure that 
Facebook follows through on these commitments.
    Many of my constituents have asked about your business 
model where users are the product. Mary of Halfmoon, in my 
district, called it infuriating. Andy of Schenectady, New York, 
asked, why doesn't Facebook pay its users for their incredibly 
valuable data. Facebook claims that users rightly own and 
control their data, yet their data keeps being exposed on your 
platform, and these breaches cause more and more harm each 
time.
    You have said that Facebook was built to empower its users; 
instead, users are having their information abused with 
absolutely no recourse. In light of this harm, what liability 
should Facebook have? When users' data is mishandled, who is 
responsible, and what recourse do users have? Do you bear that 
liability?
    Mr. Zuckerberg. Congressman, I think we are responsible for 
protecting people's information for sure. But one thing that 
you said that I want to provide some clarity on----
    Mr. Tonko. Do you bear the liability?
    Mr. Zuckerberg. Well, you said earlier, you referenced that 
you thought that we were only taking action after this came to 
light. Actually, we made significant changes to the platform in 
2014 that would have made this incident with Cambridge 
Analytica impossible to happen again today.
    I wish we had made those changes a couple of years earlier 
because this poll app got people to use it back in 2013 and 
2014, and if we had made the changes a couple of years earlier, 
then we would have----
    Mr. Walden. The gentleman's time has expired.
    The Chair recognizes----
    Mr. Tonko. Mr. Chairman, if I might ask that other 
questions that my constituents have be entered by unanimous 
consent.
    Mr. Walden. Sure. Without objection, of course.
    [The information appears at the conclusion of the hearing.]
    Mr. Walden. That goes for all Members.
    The Chair recognizes the gentleman from Florida, Mr. 
Bilirakis, for 4 minutes.
    Mr. Bilirakis. Thank you. Thank you, Mr. Chairman. I 
appreciate it.
    And thanks for your testimony, Mr. Zuckerberg.
    Well, first of all, I wanted to follow up with Mr. 
McKinley's testimony. This is bad stuff, Mr. Zuckerberg, with 
regard to the illegal online pharmacies. When are those ads--I 
mean, when are you going to take those off? I think we need an 
answer to that. I think we need to get these off as soon as 
possible.
    Can you give us an answer, a clear answer as to when these 
pharmacies--we have an epidemic here with regard to the 
opioids. I think we are owed a clear answer, a definitive 
answer as to when these ads will be offline.
    Mr. Zuckerberg. Congressman, if people flag those ads for 
us, we will take them down now.
    Mr. Bilirakis. Now?
    Mr. Zuckerberg. Yes.
    Mr. Bilirakis. By the end of the day?
    Mr. Zuckerberg. If people flag them for us, we will look at 
them as quickly as we can.
    Mr. Bilirakis. Well, you have knowledge now, obviously.
    Mr. Zuckerberg. Sorry?
    Mr. Bilirakis. You have knowledge of those ads. Will you 
begin to take them down today?
    Mr. Zuckerberg. The ads that are flagged for us we will 
review and take down if they violate our policies, which I 
believe the ones that you are talking about----
    Mr. Bilirakis. They clearly do. If they are illegal, they 
clearly violate your policy.
    Mr. Zuckerberg. Which they do. But what I think really 
needs to happen here is not just us reviewing content that gets 
flagged for us. We need to be able to build tools that can 
proactively go out and identify what might be these ads for 
opioids before people even have to flag them for us to review.
    Mr. Bilirakis. I agree.
    Mr. Zuckerberg. And that is going to be a longer-term thing 
in order to build that solution. So but, today, if someone 
flags the ads for us, we will take them down.
    Mr. Bilirakis. Work on those tools as soon as possible, 
please.
    OK. Next question. A constituent of mine in District 12 of 
Florida, Tampa Bay area, came to me recently with what was a 
clear violation of your privacy policy. In this case, a third-
party organization publicly posted personal information about 
my constituent on his Facebook page.
    This included his home address, voting record, degrading 
photos, and other information. In my opinion, this is 
cyberbullying. For weeks, my constituent tried reaching out to 
Facebook on multiple occasions through its report feature, but 
the offending content remained. It was only when my office got 
involved that the posts were removed almost immediately for 
violating Facebook policy.
    How does Facebook's self-reporting policy work to prevent 
misuse, and why did it take an act of Congress, a Member of 
Congress, to get, again, a clear privacy violation removed from 
Facebook? If you can answer that question, I would appreciate 
it, please.
    Mr. Zuckerberg. Congressman, that clearly sounds like a big 
issue and something that would violate our policies. I don't 
know have specific knowledge of that case, but what I imagine 
happened, given what you just said, is they reported it to us 
and one of the people who reviews content probably made an 
enforcement error. And then when you reached out, we probably 
looked at it again and realized that it violated the policies 
and took it down.
    We have a number of steps that we need to take to improve 
the accuracy of our enforcement.
    Mr. Bilirakis. Absolutely.
    Mr. Zuckerberg. That is a big issue, and we need to get to 
content faster, and we need to be able to do better at this. I 
think the same solution to the opioid question that you raised 
earlier of doing more with automated tools will lead to both 
faster response times and more accurate enforcement of the 
policies.
    Mr. Bilirakis. Can you give us a timeline, as to when will 
this be done? I mean, this is very critical for--I mean, 
listen, my family uses Facebook, my friends, my constituents. 
We all use Facebook. I use Facebook. It is wonderful for our 
seniors to connect with their relatives.
    Mr. Walden. The gentleman's time has expired.
    Mr. Bilirakis. Yes. I am sorry. Can I submit for the record 
my additional questions?
    Mr. Walden. Yes, sir.
    Mr. Bilirakis. Thank you. Thank you so much.
    Mr. Walden. The Chair recognizes the gentlelady from New 
York, Ms. Clarke, for 4 minutes.
    Ms. Clarke. I thank you, Mr. Chairman.
    And thank you for coming before us, Mr. Zuckerberg, today.
    I want to take the opportunity to represent the concerns of 
the newly formed Tech Accountability Caucus, in which I serve 
as a co-chair with my colleagues, Representative Robin Kelly, 
Congressman Emanuel Cleaver, and Congresswoman Bonnie Watson 
Coleman, but, most importantly, people in our country and 
around the globe or in vulnerable populations, including those 
who look just like me.
    My first question to you is, as you may be aware, there 
have been numerous media reports about how more than 3,000 
Russian ads were bought on Facebook to incite racial and 
religious division and chaos in the U.S. during the 2016 
election.
    Those ads specifically characterized and weaponized African 
American groups like Black Lives Matter, in which ads suggested 
through propaganda or fake news, as people call it these days, 
that they were a rising threat.
    Do you think that the lack of diversity, culturally 
competent personnel in your C-Suite and throughout your 
organization, in which your company did not detect or disrupt 
and investigate these claims, are a problem in this regard?
    Mr. Zuckerberg. Congresswoman, I agree that we need to work 
on diversity. In this specific case, I don't think that that 
was the issue because we were, frankly, slow to identifying the 
whole Russian misinformation operation and not just that 
specific example.
    Going forward, we are going to address this by verifying 
the identity of every single advertiser who is running 
political or issue-oriented ads to make it so that foreign 
actors or people trying to spoof their identity or say that 
they are someone that they are not cannot run political ads or 
run large pages of the type that you are talking about.
    Ms. Clarke. So, whether they were Russian or not, when you 
have propaganda, how are you addressing that? Because this was 
extremely harmful during the last election cycle, and it can 
continue to be so in the upcoming elections and throughout the 
year, right?
    I am concerned that there are not eyes that are culturally 
competent looking at these things and being able to see how 
this would impact on civil society. If everyone within the 
organization is monolithic, then you can miss these things very 
easily. And we have talked about diversity forever with your 
organization.
    What can you say today when you look at how all of this 
operates that you can do immediately to make sure that we have 
the types of viewing or reviewing that can enable us to catch 
this in its tracks?
    Mr. Zuckerberg. Congresswoman, we announced a change in how 
we are going to review ads and big pages so that now, going 
forward, we are going to verify the identity and location of 
every advertiser who is running political or issue ads or--and 
the identities of anyone running----
    Ms. Clarke. We would like you to get back to us with a 
timeline on that.
    Mr. Zuckerberg. Oh, that will be in place for these 
elections.
    Ms. Clarke. OK. Fabulous.
    When Mr. Kogan sold the Facebook-based data that he 
acquired through the quiz app to Cambridge Analytica, did he 
violate Facebook's policies at the time?
    Mr. Zuckerberg. Yes, Congresswoman.
    Ms. Clarke. When the Obama campaign collected millions of 
Facebook users' data through their own app during the 2012 
election, did it violate Facebook's policies at the time?
    Mr. Zuckerberg. No, Congresswoman, it did not.
    Ms. Clarke. I hope you understand that this distinction 
provides little comfort to those of us concerned about our 
privacy online.
    Regardless of political party, Americans desperately need 
to be protected. Democrats on this committee have been calling 
for strong privacy and data security legislation for years. We 
really can't wait, Mr. Chairman. I yield back.
    Thank you, Mr. Zuckerberg.
    Mr. Walden. The gentlelady's time has expired.
    The Chair recognizes the gentleman from Ohio, Mr. Johnson, 
for 4 minutes.
    Mr. Johnson. Thank you, Mr. Chairman.
    Mr. Zuckerberg, thanks for joining us today.
    Let me add my name to the list of folks that you are going 
to get back to on the rural broadband internet access question. 
Please add my name to that list.
    Mr. Zuckerberg. Of course.
    Mr. Johnson. I have got a lot of those folks in my 
district.
    You know, you are a real American success story. There is 
no question that you and Facebook have revolutionized the way 
Americans--in fact, the world--communicate and interconnect 
with one another.
    I think one of the reasons that you were able to do that is 
because nowhere other than here in America, where a young man 
in college can pursue his dreams and ambitions on his own terms 
without a big Federal Government overregulating them and 
telling them what they can and cannot do, could you have 
achieved something like this.
    But in the absence of Federal regulations that would reel 
that in, the only way it works for the betterment of society 
and people is with a high degree of responsibility and trust. 
And you have acknowledged that there have been some breakdowns 
in responsibility.
    And I think sometimes--and I am a technology guy. I have 
two degrees in computer science. I am a software engineer. I am 
a patent holder. So I know the challenges that you face in 
terms of managing the technology.
    But oftentimes technology folks spend so much time thinking 
about what they can do and little time thinking about what they 
should do. And so I want to talk about some of those should-do 
kinds of things.
    You heard earlier about faith-based material that had been 
taken down, ads that had been taken down. You admitted that it 
was a mistake. That was in my district, by the way. Franciscan 
University, a faith-based university, was the one that did 
that.
    How is your content filtered and determined to be 
appropriate or not appropriate and policy compliant? Is it an 
algorithm that does it, or is there a team of a gazillion 
people that sit there and look at each and every add that make 
that determination?
    Mr. Zuckerberg. Congressman, it is a combination of both. 
So, at the end of the day, we have community standards that are 
written out and try to be very clear about what is acceptable. 
And we have a large team of people. As I said, by the end of 
this year, we are going to have more than 20,000 people working 
on security and content review across the company.
    But in order to flag some content quickly, we also build 
technical systems in order to take things down. So, if we see 
terrorist content, for example, we will flag that, and we can 
take that down.
    Mr. Johnson. What do you do when you find someone or 
something that has made a mistake? I mean, I have heard you say 
several times today that you know a mistake has been made. What 
kind of accountability is there when mistakes are made?
    Because every time a mistake like that is made, it is a 
little bit of a chip away from the trust and the responsibility 
factors. How do you hold people accountable in Facebook when 
they make those kind of mistakes of taking stuff down that 
shouldn't be taken down or leaving stuff up that should not be 
left up?
    Mr. Zuckerberg. Congressman, for content reviewers 
specifically, their performance is going to be measured by 
whether they do their job accurately.
    Mr. Johnson. Do you ever fire anybody when you do stuff 
like that?
    Mr. Zuckerberg. I am sure we do. As part of the normal 
course of running a company, you are hiring and firing people 
all the time to grow your capacity and manage performance.
    Mr. Johnson. What happened to the person that took down the 
Franciscan University ad and didn't put it back up until the 
media started getting involved?
    Mr. Zuckerberg. Congressman, I am not specifically aware of 
that case.
    Mr. Johnson. Can you take that question for me--my time has 
expired. Can you take that question for me and get me that 
answer back, please?
    Mr. Zuckerberg. We will.
    Mr. Johnson. OK. Thank you very much.
    Mr. Walden. The gentleman's time has expired.
    The Chair recognizes the gentleman from Iowa, Mr. Loebsack.
    Mr. Loebsack. Thank you, Mr. Chairman. I want to thank you 
and the ranking member for holding this hearing today.
    And I want to thank Mr. Zuckerberg for being here today as 
well. Add my name to the rural broadband list as well. I have 
one-fourth of Iowa, southeast part of Iowa. We definitely need 
more help on that front. Thank you.
    You may recall last year, Mr. Zuckerberg, that you set out 
to visit every State in the country to meet different people. 
And one of those places you visited was, in fact, Iowa, my home 
State of Iowa, and you did visit the district that I probably 
represent, and you met some of my constituents.
    As you began your tour, you said that you believed in 
connecting the world and giving everyone a voice and that, 
quote, you wanted, quote, to personally hear more of those 
voices. I am going to do the same thing in just a second that a 
number of my colleagues did and just ask you some questions 
that were submitted to my Facebook page by some of my 
constituents.
    I do want to say at the outset though--and I do ask for 
unanimous consent to enter all those questions in the record, 
Mr. Chair.
    Mr. Walden. Without objection.

    [The information appears at the conclusion of the hearing.]
    Mr. Loebsack. I think trust has been the issue today. There 
is no question about it. I think that is what I am hearing from 
my constituents. That is what we are hearing from our 
colleagues.
    That is really the question: How can we be guaranteed that, 
for example, when you agree to some things today, that you are 
going to follow through and that we are going to be able to 
hold you accountable, and without perhaps constructing too many 
rules and regulations? We would like to keep that to a minimum 
if we possibly can.
    But I do understand that you have agreed that we are going 
to have to have some rules and regulations so that we can 
protect people's privacy, so that we can protect that use of 
the consumer data.
    So, going forward from there, I have just got a few 
questions I will probably have an opportunity to get to. The 
first one goes to the business model issue because you are 
publicly traded. Is that correct?
    Mr. Zuckerberg. Yes.
    Mr. Loebsack. And you are the CEO?
    Mr. Zuckerberg. Yes.
    Mr. Loebsack. Right. And so I have got Lauren from Solon 
who asks, is it possible for Facebook to exist without 
collecting and selling our data? Is it possible to exist?
    Mr. Zuckerberg. Congressman, we don't sell people's data. 
So I think that that is an important thing to clarify upfront. 
And then, in terms of collecting data, I mean, the whole 
purpose of the service is so that you can share the things that 
you want with the people around you and your friends. So----
    Mr. Loebsack. Is it possible for you to be in business 
without sharing the data? Because that is what you have done, 
whether it was selling or not, sharing the data, providing it 
to Cambridge Analytica and other folks along the way. Is it 
possible for your business to exist without doing that?
    Mr. Zuckerberg. Well, Congressman, it would be possible for 
our business to exist without having a developer platform. It 
would not be possible for our business or our products or our 
services or anything that we do to exist without having the 
opportunity for people to go to Facebook, put in the content 
that they want to share, and who they want to share it with, 
and then go do that. That is the core thing that----
    Mr. Loebsack. Thank you. I appreciate that.
    And then Brenda from Muscatine, she has a question, 
obviously, related to trust as well. And that is, how will 
changes promised this time be proven to be completed? She would 
like to know how is that going to happen.
    If there are changes, and you said there have been some 
changes, how can she and those folks in our districts and 
throughout America, not just Members of Congress, but how can 
folks in our districts hold you accountable? How do they know 
that those changes are, in fact, going to happen? That is what 
that question is about.
    Mr. Zuckerberg. Congressman, for the developer platform 
changes that we announced, they are implemented. We are putting 
those into place. We announced a bunch of specific things. It 
is on our blog, and I wrote it in my written testimony, and 
that stuff is happening.
    We are also going back and investigating every single app 
that had access to a large amount of data before we locked down 
the platform in the past. We will tell people if we find 
anything that misused their data, and we will tell people when 
the investigation is complete.
    Mr. Loebsack. Thank you. And, finally, Chad from Scott 
County wants to know, who has my data other than Cambridge 
Analytica?
    Mr. Zuckerberg. Congressman, part of what I just said is we 
are going to do an investigation of every single app that had 
access to a large amount of people's data. If you signed into 
another app, then that app probably has access to some of your 
data.
    And part of the investigation that we are going to do is to 
determine whether those app developers did anything improper, 
shared that data further beyond that. And if we find anything 
like that, we will tell people that their data was misused.
    Mr. Walden. The gentleman's time has expired.
    Mr. Loebsack. Thank you, Mr. Chair.
    Mr. Walden. The Chair recognizes the gentleman from 
Missouri, Mr. Long, for 4 minutes.
    Mr. Long. Thank you, Mr. Chairman.
    And thank you, Mr. Zuckerberg, for being here today on a 
voluntarily basis. I want to put that out here. You were not 
subpoenaed to be here, as Mr. Barton offered up a little bit 
ago.
    You are the only witness at the table today. We have had 10 
people at that table, to give you an idea of what kind of 
hearings we have had in here. Not too long ago, we had 10. And 
I would say that if we invited everyone that had read your 
terms of agreement, terms of service, we could probably fit 
them at that table.
    I also would say that I represent 751,000 people, and out 
of that 751,000 people, the people in my area that are really 
worked up about this Facebook and about this hearing today 
would also fit with you there at the table. So I am not getting 
the outcry from my constituents about what is going on with 
Cambridge Analytica and this user agreement and everything 
else. But there are some things that I think you need to be 
concerned about.
    One question I would like to ask before I go into my 
questioning is, what was FaceMash, and is it still up and 
running?
    Mr. Zuckerberg. No, Congressman. FaceMash was a prank 
website that I launched in college, in my dorm room, before I 
started Facebook. There was a movie about this, or it said it 
was about this. It was of unclear truth. And the claim that 
FaceMash was somehow connected to the development of Facebook, 
it isn't, it wasn't, and FaceMash----
    Mr. Long. The timing was the same, right? Just 
coincidental?
    Mr. Zuckerberg. It was in 2003.
    Mr. Long. OK.
    Mr. Zuckerberg. And I took it down in----
    Mr. Long. And that is a site where you rate women?
    Mr. Zuckerberg. And it actually has nothing to do with----
    Mr. Long. You would put up pictures of two women and decide 
which one was the better, more attractive of the two. Is that 
right?
    Mr. Zuckerberg. Congressman, that is an accurate 
description of the prank website that I made when I was a 
sophomore in college.
    Mr. Long. OK. But from that beginning, whether it was 
actually the beginning of Facebook or not, you have come a long 
way.
    Jan Schakowsky, Congresswoman Schakowsky, this morning 
said, ``Self-regulation simply does not work.'' Mr. 
Butterfield, Representative Butterfield, said that you need 
more African-American inclusion on your board of directors.
    If I was you--a little bit of advice. Congress is good at 
two things: doing nothing and overreacting. So far, we have 
done nothing on Facebook. Since your inception in that Harvard 
dorm room those many years ago, we have done nothing on 
Facebook. We are getting ready to overreact. So just take that 
as a shot-across-the-bow warning to you.
    You have a good outfit there on your front row behind you, 
very bright folks. You are Harvard-educated. I have a Yale hat 
that cost me $160,000. That is as close as I ever got to an Ivy 
League school.
    But I would like to show you right now a little picture 
here. Do you recognize these folks?
    Mr. Zuckerberg. I do.
    Mr. Long. Who are they?
    Mr. Zuckerberg. I believe--is that Diamond and Silk?
    Mr. Long. That is Diamond and Silk, two biological sisters 
from North Carolina. I might point out they are African 
American. And their content was deemed by your folks to be 
unsafe. So, you know, I don't know what type of a picture this 
is, if it was taken in a police station or what, in a lineup, 
but apparently they have been deemed unsafe.
    Diamond and Silk have a question for you, and that question 
is: What is unsafe about two black women supporting President 
Donald J. Trump?
    Mr. Zuckerberg. Well, Congressman, nothing is unsafe about 
that. The specifics of this situation I am not as up to speed 
on as I probably would be if I didn't----
    Mr. Long. Well, you have 20,000 employees, as you said, to 
check content. And I would suggest, as good as you are with 
analytics, that those 20,000 people use some analytical 
research and see how many conservative websites have been 
pulled down and how many liberal websites.
    One of our talk show hosts at home, Nick Reed, this morning 
on the radio said that if Diamond and Silk were liberal they 
would be on the late-night talk show circuit, back and forth. 
They are humorous. They have their opinion, not that you have 
to agree or that I have to agree. Do agree, don't agree with 
them, but the fact that they are conservative--and I would just 
remember--if you don't remember anything else from this hearing 
here today, remember: We do nothing, and we overreact. And----
    Mr. Walden. The gentleman's time----
    Mr. Long [continuing]. We are getting ready to overreact.
    So I would suggest you go home and review all these other 
things people have accused you of today, get with your good 
team there behind you----
    Mr. Walden. The gentleman's time has expired.
    Mr. Long. You are the guy to fix this. We are not. You need 
to save your ship.
    Thank you.
    Mr. Walden. The gentleman's time has expired.
    Ms. Schakowsky. Mr. Chairman, since my name was mentioned, 
can I just respond?
    Mr. Walden. Well, I tell you, if we could move on, just 
because we are going to run out of time for Members down-dais 
to be able to ask their questions.
    Ms. Schakowsky. OK. I consider Billy Long a good friend. 
Let me just say that I don't think it was a breach of decorum, 
and I just take issue with his saying that a very modest bill 
that I have introduced is an overreach. That is all.
    Mr. Walden. All right.
    Mr. Long. I didn't say it was an overreach. All I said 
was--I was just letting----
    Mr. Walden. I now recognize the gentleman from Oregon, Mr. 
Schrader, for questions for 4 minutes.
    Mr. Schrader. Ah, thank you, Mr. Chairman. Appreciate that.
    Mr. Zuckerberg, again, thank you for being here. Appreciate 
your good auspices in voluntarily coming before us.
    You have testified that you voluntarily took Cambridge 
Analytica's word that they had deleted information. You found 
out subsequently that they did not delete that information, 
have sent in your own forensics team, which I applaud. I just 
want to make sure and get some questions answered here.
    Can you tell us that they were not told--they were told not 
to destroy any data, misappropriated data, they may find?
    Mr. Zuckerberg. Congressman, so you are right that in 2015, 
when we found out that the app developer Aleksandr Kogan had 
sold data to Cambridge Analytica, we reached out to him at that 
point, and we demanded that they delete all the data that they 
had.
    They told us at that point that they had done that. And 
then a month ago we heard a new report that said that they 
actually hadn't done that.
    Mr. Schrader. But I am talking about the direction you have 
given your forensic team. If they find stuff, they are not to 
delete it at this point in time? Or are they going to go ahead 
and delete it?
    Mr. Zuckerberg. The audit team that we are sending in?
    Mr. Schrader. Right.
    Mr. Zuckerberg. The first order of business is to 
understand exactly what happened. And----
    Mr. Schrader. I am worried about the information being 
deleted without law enforcement having the opportunity to 
actually review that.
    Will you commit to this committee that neither Facebook nor 
its agents have removed any information or evidence from 
Cambridge Analytica's offices?
    Mr. Zuckerberg. Congressman, I do not believe that we have. 
And----
    Mr. Schrader. And how about Mr. Kogan's office, if I may 
ask?
    Mr. Zuckerberg. One specific point on this is that our 
audit of Cambridge Analytica, we have paused that in order to 
cede to the U.K. Government, which is conducting its own 
government audit, which, of course--an investigation, which, of 
course, takes precedence.
    Mr. Schrader. With all due respect, what I am getting at 
is, I would like to have the information available for the U.K. 
or U.S. law enforcement officials, and I did not hear you 
commit to that.
    Will you commit to the committee that Facebook has not 
destroyed any data records that may be relevant to any Federal, 
State, or international law enforcement investigation?
    Mr. Zuckerberg. Congressman, yes. What I am saying is that 
the U.K. Government is going to complete its investigation 
before we go in and do our audit. So they will have full access 
to all the information.
    Mr. Schrader. So you suspended your audit pending the 
U.K.'s investigation.
    Mr. Zuckerberg. Yes. We have paused it pending theirs.
    Mr. Schrader. OK.
    So it is my understanding that you and other Facebook 
executives have the ability to rescind or delete messages that 
are on people's websites.
    To be clear, I just want to make sure that, if that is 
indeed the case, that after you have deleted that information, 
that somehow law enforcement, particularly relevant to this 
case, would still have access to those messages.
    Mr. Zuckerberg. Congressman, yes. We have a document 
retention policy at the company where, for some people, we 
delete emails after a period of time, but we of course preserve 
anything that there is a legal hold on.
    Mr. Schrader. Great. Well, I appreciate that.
    While you have testified very clearly that you do not sell 
information--that is not Facebook's model. You do the 
advertising and, obviously, have other means of revenue. But it 
is pretty clear others do sell that information. Doesn't that 
make you somewhat complicit in what they are doing? You are 
allowing them to sell the information that they glean from your 
website?
    Mr. Zuckerberg. Well, Congressman, I would disagree that we 
allow it. We actually expressly prohibit any developer that----
    Mr. Schrader. How do you enforce that? That is my concern. 
How do you enforce that? Complaint only is what I have heard so 
far tonight.
    Mr. Zuckerberg. Yes, Congressman, some of it is in response 
to reports that we get. And some of it is we do spot checks to 
make sure that the apps are actually doing what they say they 
are doing. And, going forward, we are going to increase the 
number of audits that we do as well.
    Mr. Schrader. So last question is, it is my understanding 
based on the testimony here today that, even after I am off of 
Facebook, that you guys still have the ability to follow my web 
interactions. Is that correct?
    Mr. Zuckerberg. Congressman----
    Mr. Schrader. I have logged out of Facebook. Do you still 
have the ability to follow my interactions on the web?
    Mr. Zuckerberg. Congressman, you have control over what we 
do for ads and the information collection around that. On 
security, there may be specific things about how you use 
Facebook even if you are not logged in that we keep track of to 
make sure that people aren't abusing the system.
    Mr. Walden. The gentleman's time has expired.
    Mr. Schrader. I yield back.
    Mr. Walden. And just for our Members who haven't had a 
chance to ask questions, we will pause at--well, we will have 
votes at 1:40. We will continue the hearing after a brief 
pause. And we will coordinate that.
    We will go now to Dr. Bucshon.
    Mr. Bucshon. Thank you, Mr. Chairman.
    Thank you, Mr. Zuckerberg, for being here.
    There are plenty of anecdotal examples, including from 
family members of mine, where people will be verbally 
discussing items, never having actually been on the internet at 
the time, and then the next time they get on Facebook or other 
online apps ads for things that they were verbally discussing 
with each other will show up.
    And I know you said in the Senate that Facebook doesn't 
listen, specifically listen, to what people are saying through 
their phone, whether that is a Google phone or whether it is 
Apple or another one.
    However, the other day, my mother-in-law and I were 
discussing her brother, who had been deceased for about 10 
years. And later on that evening, on her Facebook site, she had 
set to music kind of an in-memoriam picture collage that came 
up on Facebook specifically to her brother. And that happened 
the other night.
    So, if you are not listening to us on the phone, who is? 
And do you have specific contracts with these companies that 
will provide data that is being acquired verbally through our 
phones or now through things like Alexa or other products?
    Mr. Zuckerberg. Congressman, we are not collecting any 
information verbally on the microphone, and we don't have 
contracts with anyone else who is.
    The only time that we might use the microphone is when you 
are recording a video or doing something where you 
intentionally are trying to record audio. But we don't have 
anything that is trying to listen to what is going on in the 
background.
    Mr. Bucshon. OK. Because, I mean, like I said, I mean, you 
have talked to people that this has happened to. My son, who 
lives in Chicago, him and his colleagues were talking about a 
certain type of suit, because they are business guys, and the 
next day he had a bunch of ads for different suits when he went 
onto the internet.
    So it is pretty obvious to me that someone is listening to 
the audio on our phones. And I see that as a pretty big issue, 
and the reason is because--and you may not be, but I see it as 
a pretty big issue because, for example, if you are in your 
doctor's office, if you are in your corporate boardroom, your 
office, or even personal areas of your home, that is 
potentially an issue.
    And I am glad to hear that Facebook isn't listening, but I 
am skeptical that someone isn't. And I see this as an industry-
wide issue that you could potentially help address.
    And the final thing I will just ask is, when you have, say, 
an executive session or whatever of your corporate board and 
you have decisions to be made, do you allow the people in the 
room to have their phones on them?
    Mr. Zuckerberg. Congressman, we do. I don't think we have a 
policy that says that your phone can't be on.
    And, again, I am not familiar with--Facebook doesn't do 
this, and I am not familiar with other companies that do 
either.
    My understanding is that a lot of these cases that you are 
talking about are a coincidence, or someone might be talking 
about something but then they also go to a website or interact 
with it on Facebook because they were talking about it, and 
then maybe they will see the ad because of that, which is a 
much clearer statement of the intent.
    Mr. Bucshon. OK. Because, if that is the case, then--I 
mean, I know, for convenience, companies have developed things 
like Alexa, and I don't want to just--and other companies are 
developing things like that. But it just seems to me that part 
of the whole point of those products is not just for your own 
convenience, but when you are verbally talking about things and 
you are not on the internet, they are able to collect 
information on the type of activities that you are engaging in.
    So I would implore the industry to look into that and make 
sure that, in addition to physical exploring the internet and 
collecting data, that data being taken verbally not be allowed.
    Thank you.
    Mr. Walden. The gentleman's time has expired.
    The Chair recognizes the gentleman from Massachusetts, Mr. 
Kennedy, for 4 minutes.
    Mr. Kennedy. Thank you, Mr. Chairman.
    Mr. Zuckerberg, thank you for being here. Thank you for 
your patience over both days of testimony.
    You spoke about the framing of your testimony about 
privacy, security, and democracy. I want to ask you about 
privacy and democracy, because I think, obviously, those are 
linked.
    You have said over the course of questioning yesterday and 
today that users own all of their data. So I want to make sure 
that we drill down on that a little bit, and I think our 
colleagues have tried.
    That includes, I believe, the information that Facebook 
requires users to make public. So that would be a profile 
picture, gender, age range, all of which is public-facing 
information. Is that right?
    Mr. Zuckerberg. Yes.
    Mr. Kennedy. OK.
    So can advertisers, then, understanding that you, Facebook, 
maintain the data--you are not settling that to anybody else. 
But advertisers clearly end up having access to that through 
agreements with you about how they then target ads to me, to 
you, to any other user.
    Can advertisers in any way use nonpublic data, so data that 
individuals would not think is necessarily public, so that they 
can target their ads?
    Mr. Zuckerberg. Congressman, the way this works is, let's 
say you have a business that is selling skis, OK? And you have 
on your profile that you are interested in skiing, but let's 
say you haven't made that public, but you share it with your 
friends, so broadly.
    We don't tell the advertiser that ``hereis a list of people 
who like skis.'' They just say, ``OK, we are trying to sell 
skis. Can you reach people who like skis?'' And then we match 
that up on our side without sharing any of that information 
with the advertisers.
    Mr. Kennedy. Understood, you don't share that. But they get 
access to that information so that if they know--they want to 
market skis to me because I like skis.
    In the realm of data that is accessible to them, does 
Facebook include deleted data?
    Mr. Zuckerberg. Congressman, no.
    And I also would push back on the idea that we are giving 
them access to the data. We allow them to reach people who said 
that on Facebook, but we are not giving them access to the 
data.
    Mr. Kennedy. OK. Fair. Fair.
    So can advertisers, either directly or indirectly, get 
access to or use the metadata that Facebook collects in order 
to more specifically target ads? So that would include--I know 
you have talked a lot about how Facebook would use access to 
information for folks that--well, I might be able to opt in or 
out about your ability to track me to other websites. Is that 
used by those advertisers, as well?
    Mr. Zuckerberg. Congressman, I am not sure I understand the 
question. Can you give me an example of what you mean?
    Mr. Kennedy. So, essentially, the advertisers that are 
using your platform, do they get access to information that the 
user doesn't actually think is either, one, being generated or, 
two, is public?
    Understanding that, yes, if you dive into the details of 
your platform, users might be able to shut that off. But I 
think one of the challenges with the trust here is that there 
is an awful lot of information that is generated that people 
don't think they are generating and that advertisers are being 
able to target because Facebook collects it.
    Mr. Zuckerberg. Yes. So, Congressman, my understanding is 
that the targeting options that are available for advertisers 
are generally things that are based on what people share.
    Now, once an advertiser chooses how they want to target 
something, Facebook also does its own work to help rank and 
determine which ads are going to be interesting to which 
people. So we may use metadata or other behaviors of what you 
have shown that you are interested in and news feed or other 
places in order to make our systems more relevant to you. But 
that is a little bit different from giving that as an option to 
an advertiser, if that makes sense.
    Mr. Kennedy. Right. But then I guess the question, back 
to--and I only have 20 seconds. I think one of the rubs that 
you are hearing is I don't understand how users then own that 
data. I think that is part of the rub.
    Second, you focus a lot of your testimony and the questions 
on the individual privacy aspects of this, but we haven't 
talked about the societal implication of it. And I think, while 
I applaud some of the reforms that you are putting forward, the 
underlying issue here is that your platform has become a mix 
of----
    Mr. Walden. The gentleman's time----
    Mr. Kennedy [continuing]. Two seconds--news, entertainment, 
social media that is up for manipulation. We have seen that 
with a foreign actor.
    If the changes to individual privacy don't seem to be 
sufficient to address that underlying issue----
    Mr. Walden. The gentleman's time has expired.
    Mr. Kennedy. I would love your comments on that at the 
appropriate time. Thank you.
    Mr. Walden. The Chair recognizes the gentleman from Texas, 
Mr. Flores, for 4 minutes.
    Mr. Flores. Thank you, Mr. Chairman.
    Mr. Zuckerberg, thank you for being here today. I am up 
here, top row. I am certain that there are other things you 
would rather be doing.
    The activities of Facebook and other technology companies 
should not surprise us. I mean, we have seen it before. And, 
again, don't take this critically, but we saw a large oil 
company become a monopoly back in the late 1800s, early 1900s. 
We saw a large telecommunications company become a near-
monopoly in the sixties, seventies, and eighties.
    And just as Facebook, these companies were founded by 
bright entrepreneurs. Their companies grew. And, eventually, 
they sometimes became detached from everyday Americans. And 
what happened is policymakers then had to step in and 
reestablish the balance between those folks and everyday 
Americans.
    You didn't intend for this to happen. It did happen. And I 
appreciate that you have apologized for it. And one of the 
things I appreciate about Facebook, it appears you are 
proactively trying to address the situation.
    Just as we addressed those monopolies in the past, we are 
faced with that situation today. And this goes beyond Facebook. 
This has to do with the edge providers. It has to do with 
social media organizations and also with ISPs.
    Back to Facebook in particular, though, we heard examples 
yesterday during the Senate hearing and also today during this 
hearing so far about ideological bias among the users of 
Facebook. In my Texas district, I had a retired schoolteacher 
whose conservative postings were banned or stopped. The good 
news is I was able to work with Facebook's personnel and get 
her reinstated. That said, the Facebook censors still seem to 
be trying to stop her postings, and anything you can do in that 
regard to fix that bias will go a long way.
    I want to move a different direction, and that is to talk 
about the future. Congress needs to consider policy responses, 
as I said earlier. And I want to call this policy response 
Privacy 2.0 and Fairness 2.0. With respect to fairness, I think 
the technology companies should be ideologically agnostic 
regarding their users' public-facing activities. The only 
exception would be for potentially violent behavior.
    My question is on this: Do you agree that Facebook and 
other technology platforms should be idealogically neutral?
    Mr. Zuckerberg. Congressman, I agree that we should be a 
platform for all ideas and that we should focus on that.
    Mr. Flores. Good.
    Mr. Zuckerberg. I----
    Mr. Flores. I have to--I have limited time.
    With respect to privacy, I think that we need to set a 
baseline. When we talk about a virtual person that each 
technology user establishes online--their name, address, their 
online purchases, geolocation data, websites visited, pictures, 
et cetera--I think that the individual owns the virtual person 
that they have set up online.
    My second question is this: You have said earlier that each 
user owns their virtual presence. Do you think that this 
concept should apply to all technology providers, including 
social media platforms, edge providers, and ISPs?
    Mr. Zuckerberg. Congressman, yes, in general. I mean, I 
think that people own their----
    Mr. Flores. Thank you. I am not trying to cut you off. You 
can provide more information supplementally afterward, if you 
don't mind.
    In this regard, I believe that if Congress enacts privacy 
standards for technology providers, just as we have for 
financial institutions, healthcare, employee benefits, et 
cetera, the policy should state that the data of technology 
users should be held privately unless they specifically consent 
to the use of the data by others.
    This release should be based upon the absolute transparency 
as to what data will be used, how it will be processed, where 
it will be stored, what algorithms will be applied to it, who 
will have access to it, if it will be sold, and to whom it 
might be sold.
    The disclosure of this information and the associated opt-
in actions should be easy to understand and easier for 
nontechnical users to execute. The days of the long, scrolling, 
fine-print disclosures with a single checkmark at the bottom 
should end. In this regard, based on my use of Facebook----
    Mr. Walden. The gentleman's----
    Mr. Flores [continuing]. I think you have come a long way 
toward meeting that objective. I think we must move further.
    I will have two other questions to submit later. And thank 
you. You can expand on your responses to my earlier questions 
later. Thank you.
    Mr. Walden. The gentleman's time has expired.
    The Chair recognizes the gentleman from California for 4 
minutes, Mr. Cardenas.
    Mr. Cardenas. Thank you very much. It seems like we have 
been here forever, don't you think? Well, thank you, Mr. 
Chairman and Ranking Member, for holding this important 
hearing.
    I am of the opinion that basically we are hearing from one 
of the leaders, the CEO, of one of the biggest corporations in 
the world but yet almost entirely in an environment that is 
unregulated or, for basic terms, that the lanes in which you 
are supposed to operate in are very wide and broad, unlike 
other industries.
    Yet, at the same time--I have a chart here of the growth of 
Facebook. Congratulations to you and your shareholders. It 
shows that in 2009 your net value of the company was less 
than--or revenue was less than a billion dollars. And then you 
look all the way over to 2016; it was in excess of $26 billion. 
And then in 2017 apparently you were about close to $40 
billion.
    Are those numbers relatively accurate about the growth and 
the phenomenon of Facebook?
    Mr. Zuckerberg. Congressman, they sound relatively 
accurate.
    Mr. Cardenas. OK.
    Just so you know, it was just brought to my attention--my 
staff texted me a little while ago--that the CEO of Cambridge 
Analytica apparently stepped down sometime today. I don't know 
if anybody of your team there whispered that to you, but my 
staff just reported that. That is interesting.
    The fact that the CEO of Cambridge Analytica stepped down, 
does that, in and of itself, solve the issue and the 
controversy around what they did?
    Mr. Zuckerberg. Congressman, I don't think so.
    There are a couple of big issues here. One is what happened 
specifically with Cambridge Analytica. How were they able to 
buy data from a developer that people chose to share it with, 
and how do we make sure that can't happen again?
    Mr. Cardenas. But some of that information did originate 
with Facebook, correct?
    Mr. Zuckerberg. People had it on Facebook and then chose to 
share theirs and some of their friends' information with this 
developer, yes.
    Mr. Cardenas. Uh-huh.
    Something was brought to my attention most recently, that 
apparently Facebook does, in fact, actually buy information to 
add or augment the information that you have on some of your 
users to build around them, their profile?
    Mr. Zuckerberg. Congressman, we just recently announced 
that we were stopping working with data brokers as part of the 
ad system. It is----
    Mr. Cardenas. But you did do that to build your company in 
the past?
    Mr. Zuckerberg. It is an industry standard ad practice. 
And, recently, upon examining all of our systems, we decided 
that is not a thing that we want to be part of even if everyone 
else is doing that.
    Mr. Cardenas. But you did engage in that as well. And not 
just everybody else, but Facebook, yourselves, you did engage 
in that?
    Mr. Zuckerberg. Yes, until we announced that we were 
shutting it down. Yes.
    Mr. Cardenas. OK.
    It is my understanding that when the Guardian decided to 
report on the Cambridge Analytica consumer data issue, Facebook 
threatened to sue them if they went forward with their story. 
Did it happen something like that? Facebook kind of warned 
them, like, hey, maybe you don't want to do that?
    Mr. Zuckerberg. Congressman, I don't believe that--I think 
that there may have been a specific factual inaccuracy that 
we----
    Mr. Cardenas. So, in other words, you checking the Guardian 
and saying, ``You are not going to want to go out with that 
story because it is not 100 percent factual,'' that----
    Mr. Zuckerberg. On that specific point, yes.
    Mr. Cardenas. OK.
    But, however, they did go through with their story, 
regardless of the warnings or the threats of Facebook saying 
that you are not going to want to do that. When they did do 
that, and only then, did Facebook actually apologize for that 
incident, for that 89 million users' information unfortunately 
ending up in their hands. Isn't that the case?
    Mr. Zuckerberg. Congressman, you are right that we 
apologized after they posted the story. They had most of the 
details of what was right there, and I don't think we objected 
to that.
    Mr. Cardenas. Thank you.
    Mr. Zuckerberg. There was a specific thing----
    Mr. Cardenas. OK, but I only have a few more seconds.
    My main point is this: I think it is time you, Facebook, if 
you truly want to be a leader in all the senses of the word and 
recognize that you can, in fact, do right by American users of 
Facebook, and when it comes to information unfortunately 
getting in the wrong hands, you can be a leader.
    Are you committed to actually being a leader in that sense?
    Mr. Walden. The gentleman's time----
    Mr. Cardenas. Can he give a 2-second answer?
    Mr. Walden. Sure.
    Mr. Zuckerberg. Congressman, I am definitely committed to 
taking a broader view of our responsibility. That is what my 
testimony is about, making sure that we just don't give people 
tools but make sure that they are used for good.
    Mr. Cardenas. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Walden. And, with that, we will recess for about 5 
minutes--10 minutes. We will recess for 10 minutes and then 
resume the hearing.
    [Recess.]
    Mr. Walden. All right. We are going to reconvene the Energy 
and Commerce Committee.
    And we will go next to the gentlelady from Indiana, Mrs. 
Brooks, for 4 minutes to resume questioning.
    Mrs. Brooks. Thank you, Mr. Chairman.
    And thank you, Mr. Zuckerberg, for being here today. It is 
so critically important that we hear from you and your company, 
because we do believe that it is critically important for you 
to be a leader in these solutions.
    One thing that has been talked about just very little but I 
think is very important and I want to make sure there is 
appropriate attention on is how the platform of Facebook but 
even other platforms--and you have mentioned it a little bit--
how you help us in this country keep our country safe from 
terrorists.
    I have talked with lots of people who actually continue to 
remain very concerned about recruitment of their younger family 
members, and now we are seeing around the globe an enhanced 
recruitment of women, as well, to join terrorist organizations.
    And so I am very, very concerned. I am a former U.S. 
Attorney. And so, when 9/11 happened, you didn't exist; 
Facebook didn't exist. But since the evolution after 9/11, we 
know that Al Shabaab, al-Qaida, ISIS has used social media like 
we could not even imagine. So could you please talk about that?
    And then you talked about the fact that if there is content 
that is objectionable or is a danger, that people report it to 
you. But what if they don't? What if everybody assumes that 
someone is reporting something to you?
    So I need you to help assure us, as well as the American 
people, what is Facebook's role, leadership role, in helping us 
fight terrorism and help us stop the recruitment? Because it is 
still a grave danger around the world.
    Mr. Zuckerberg. Congresswoman, thanks for the question.
    Terrorist content and propaganda has no place in our 
network, and we have developed a number of tools that have now 
made it so that 99 percent of the ISIS and al-Qaida content 
that we take down is identified by these systems and taken down 
before anyone in our system even flags it for us.
    So that is an example of removing harmful content that we 
are proud of and that I think is a model for other types of 
harmful content as well.
    Mrs. Brooks. Can I ask, though--and I appreciate that. And 
I have heard you say 99 percent, and yet I didn't go out and, 
you know, look for this, but yet, as recently as March 29, ISIS 
content was discovered on Facebook, which included an execution 
video--March 29. On April 9, there were five pages, located on 
April 9, of Hezbollah content and so forth.
    And so what is the mechanism that you are using? Is it 
artificial intelligence? Is it the 20,000 people? What are you 
using to--because it is not--I appreciate that no system is 
perfect, but yet this is just within a week.
    Mr. Zuckerberg. Congresswoman, it is a good question. And 
it is a combination of technology and people.
    We have a counterterrorism team at Facebook which is----
    Mrs. Brooks. How large is it?
    Mr. Zuckerberg. Two hundred people--just focused on 
counterterrorism. And there are other content reviewers who are 
reviewing content that gets flagged to them as well.
    So those are folks who are working specifically on that. I 
think we have capacity in 30 languages that we are working on. 
And, in addition to that, we have a number of AI tools that we 
are developing, like the ones that I had mentioned, that can 
proactively go flag the content.
    Mrs. Brooks. And so you might have those people looking for 
the content. How are they helping block the recruiting?
    Mr. Zuckerberg. Yes, so they----
    Mrs. Brooks. Your platform, as well as Twitter and then 
WhatsApp, is how they begin to communicate, which I understand 
you own. Is that correct?
    Mr. Zuckerberg. Yes.
    Mrs. Brooks. So how are we stopping the recruiting and the 
communications?
    Mr. Zuckerberg. So we identify what might be the patterns 
of communication or messaging that they might put out and then 
design systems that can proactively identify that and flag 
those for our teams. That way, we can go and take those down.
    Mrs. Brooks. Thank you. My time is up. I thank you, and 
please continue to work with us and all the governments who are 
trying to fight terrorism around the world.
    Thank you.
    Mr. Zuckerberg. Thank you. We will.
    And, Mr. Chairman, if you don't mind, before we go to the 
next question, there was something that I wanted to correct in 
my testimony from earlier----
    Mr. Walden. Sure.
    Mr. Zuckerberg [continuing]. When I went back and talked to 
my team afterwards.
    I had said that if--this was in response to a question 
about whether web logs that we had about a person would be in 
``download your information.'' I had said that they were. And I 
clarified with my team that, in fact, the web logs are not in 
``download your information.'' We only store them temporarily. 
And we convert the web logs into a set of ad interests that you 
might be interested in those ads, and we put that in the 
``download your information'' instead, and you have complete 
information over that.
    So I just wanted to clarify that for the record.
    Mr. Walden. I appreciate that. Thank you.
    We will go now to the gentleman from California, Mr. Ruiz.
    Mr. Ruiz. Thank you, Mr. Chairman.
    And thank you, Mr. Zuckerberg, for appearing before the 
committee today.
    The fact is, Mr. Zuckerberg, Facebook failed its customers. 
You have said as much yourself. You have apologized, and we 
appreciate that. We, as Congress, have a responsibility to 
figure out what went wrong here and what could be done 
differently to better protect consumers' private digital data 
in the future.
    So my first question for you, Mr. Zuckerberg, is, why did 
Facebook not notify the FTC in 2015 when you first discovered 
this had happened? And was it the legal opinion of your company 
that you were under no obligation to notify the FTC, even with 
the 2011 consent order in place?
    Mr. Zuckerberg. Congressman, in retrospect, it was a 
mistake, and we should have and I wish we had notified and told 
people about it then.
    Mr. Ruiz. Did you think that----
    Mr. Zuckerberg. The reason why we didn't----
    Mr. Ruiz [continuing]. The rules were kind of lax, that you 
were sort of debating whether you needed to or something?
    Mr. Zuckerberg. Yes, Congressman, I don't believe that we 
necessarily had a legal obligation to do so. I just think that 
it was probably----
    Mr. Ruiz. OK.
    Mr. Zuckerberg. I think that it was the right thing to have 
done. The reason we didn't do it at that time----
    Mr. Ruiz. No, no. You answered my question.
    Would you agree that for Facebook to continue to be 
successful it needs to continue to have the trust of its users?
    Mr. Zuckerberg. Absolutely.
    Mr. Ruiz. Great.
    So does this not, perhaps, strike you as a weakness with 
the current system, that you are not required to notify the FTC 
of a potential violation of your own consent decree with them 
and that you did not have clear guidelines for what you as a 
company needed to do in this situation to maintain the public's 
trust and act in their best interests?
    Mr. Zuckerberg. Congressman, regardless of what the laws or 
regulations are that are in place, we take a broader view of 
our responsibilities around privacy. And I think that we should 
have notified people because it would have been the right thing 
to do. And we are committed----
    Mr. Ruiz. I am just trying to think of the other CEO who 
might not have such a broad view and might interpret the 
different legal requirements maybe differently. So that is why 
I am asking these questions. I am also taking a broad view, as 
a Congressman here, to try to fix this problem.
    So, from what we have learned over the past 2 days of 
hearings, it just doesn't seem like the FTC has the necessary 
tools to do what needs to be done to protect consumer data and 
consumer privacy, and we can't exclusively rely on companies to 
self-regulate in the best interest of consumers.
    So, Mr. Zuckerberg, would it be helpful if there was an 
entity clearly tasked with overseeing how consumer data is 
being collected, shared, and used and which could offer 
guidelines, at least guidelines, for companies like yours to 
ensure your business practices are not in violation of the law, 
something like a digital consumer protection agency?
    Mr. Zuckerberg. Congressman, I think it is an idea that 
deserves a lot of consideration. I am not the type of person 
who thinks that there should be no regulation, especially 
because the internet is getting to be so important in people's 
lives around the world, but I think the details on this really 
matter. And whether it is an agency or a law that is passed or 
the FTC has certain abilities, I think that that is all 
something that we should----
    Mr. Ruiz. Well, one of the things that we are realizing is 
that there are a lot of holes in the system, that, you know, 
you don't have the toolbox to monitor 9 million apps and tens 
of thousands of data collectors, and there is no specific 
mechanism for you to collaborate with those that can help you 
prevent these things from happening.
    And so I think that, perhaps, if we started having these 
discussions about what would have been helpful for you to build 
your toolbox and for us to build our toolbox so that we can 
prevent things like Cambridge Analytica, things like identity 
theft, things like, you know, what we are seeing, what we have 
heard about today--so, you know, I just want to thank you for 
your thoughts and testimony.
    So it is clear to me that this is the beginning of many, 
many conversations on the topic, and I look forward to working 
with you and the committee to better protect consumer privacy.
    Mr. Zuckerberg. Congressman, we look forward to following 
up too.
    Mr. Walden. We will now go to the gentleman from Oklahoma, 
Mr. Mullin, for 4 minutes.
    Mr. Mullin. Thank you, Mr. Chairman.
    And, sir, thank you for being here. I appreciate you using 
the term ``Congressman'' and ``Congresswoman.'' My name is 
Markwayne Mullin, and feel free to use that name.
    Sir, I just want to tell you--first of all, I want to 
commend you on your ability to not just invent something but to 
see it through its growth. We see a lot of inventors had the 
ability to do that, but to manage it and to see it through its 
tremendous growth period takes a lot of talent. And by your 
showing here today, you handle yourself well, so thank you on 
that. And you also do that by hiring the right people, so I 
commend you on doing that also. You hire people, obviously, 
based on their ability to get the job done.
    Real quick, a couple questions I have. And I will give you 
time to answer it.
    Isn't it the consumers' responsibility, to some degree, to 
control the content to which they release?
    Mr. Zuckerberg. Congressman, I believe that people should 
have the ability to choose to share their data how they want, 
and they need to understand how that is working. But I agree 
with what you are saying, that people want to have the ability 
to move their data to another app, and we want to give them the 
tools to do that.
    Mr. Mullin. Right.
    And does the device settings, does it really help you 
protect what information is released? For instance, there has 
been a lot of talk about them searching for something, maybe on 
Google, and then the advertisement pops up on Facebook. Isn't 
there a setting on most devices to where you can close out the 
browser without Facebook interacting with that?
    Mr. Zuckerberg. Yes, Congressman. On most devices, the way 
the operating system is architected would prevent something 
that you do in another app, like Google, from being visible to 
the Facebook app.
    Mr. Mullin. See, I come from the background of believing 
that everything I do I assume is opened for anybody to take 
when I am on the internet. I understand that there are privacy 
concerns, but you are still releasing it to something farther 
than a pen and pad. So, once I am on the web or I am on an app, 
then that information is subject to going really anyplace. All 
I can do is protect it the best I can by my settings.
    And so what I am trying to get to is, as an individual, as 
a user of Facebook, how can someone control keeping the content 
within the realm that they want to keep it without it being 
collected?
    You say that, you know, you don't sell it. However, you do 
sell advertisements. As a business owner, I have a demographic 
that I go after, and I search advertisers that market to that 
demographic. So you collect information for that purpose, 
right?
    Mr. Zuckerberg. Congressman, yes, we collect information to 
make sure that the ad experience on Facebook can be relevant 
and valuable to the small businesses and----
    Mr. Mullin. Sure.
    Mr. Zuckerberg [continuing]. Others who want to reach 
people.
    Mr. Mullin. Value-based. But if I am a customer or a user 
of Facebook and I don't want that information to be shared, how 
do I keep that from happening? Are there settings within the 
app that I need to go to to block all that?
    Mr. Zuckerberg. Congressman, yes there is. There is a 
setting--so if you don't want any data to be collected around 
advertising, you can turn that off, and then we won't do it.
    In general, we offer a lot of settings over every type of 
information that you might want to share on Facebook and every 
way that you might interact with the system, from hereis the 
content that you put on your page, to here is who can see your 
interests, to hereis how you might show up in search results if 
people look for you, to hereis how you might be able to sign 
into developer apps and log in with Facebook, and advertising.
    And we try to make the controls as easy to understand as 
possible. You know, it is a broad service. People use it for a 
lot of things, so there are a number of controls, but we try to 
make it as easy as possible and to put those controls in front 
of people so that they can configure the experience in the way 
that they want.
    Mr. Mullin. Would that have kept apps from seeking our 
information?
    Mr. Walden. The gentleman's time----
    Mr. Mullin. Thank you. I appreciate it.
    Thank you, Chairman. I yield back.
    Mr. Walden. Thank you.
    We will recognize now the gentleman from California for 4 
minutes.
    Mr. Peters. Thank you, Mr. Chairman.
    Thank you, Mr. Zuckerberg, for being with us today. And I 
know it has been a long day.
    I think we can all agree that technology has outpaced the 
law with respect to the protection of private information. I 
wonder if you think it would be reasonable for Congress to 
define the legal duty of privacy that is owed by private 
companies to their customers with respect to their personal 
information.
    Mr. Zuckerberg. Congressman, I think that that makes sense 
to discuss.
    And I agree with the broader point that I think you are 
making, which is that the internet and technology overall is 
just becoming a much more important part of all of our lives. 
The companies and the technology industry are growing----
    Mr. Peters. Right. That is what I mean by it is outpaced.
    And I wonder--I also want to take you at your word. I 
believe you are sincere that you personally place a high value 
on consumer privacy and that that personal commitment is 
significant at Facebook today, coming from you, given your 
position. But I also observe, and you would agree, that the 
performance on privacy has been inconsistent.
    I wonder, you know, myself, whether that is because it is 
not a bottom-line issue. It appears that the shareholders are 
interested in maximizing profits. Privacy certainly doesn't 
drive profits, I don't think, but also may interfere with 
profits if you have to sacrifice your ad revenues because of 
privacy concerns.
    Would it not be appropriate for us, once we define this 
duty, to assess financial penalties in a way that would 
sufficiently send a signal to the shareholders and to your 
employees, who you must be frustrated with too, that the 
privacy you are so concerned about is a bottom-line issue at 
Facebook?
    Mr. Zuckerberg. Congressman, it is certainly something that 
we can consider.
    Although, one thing that I would push back on is I think it 
is often characterized as maybe these mistakes happened because 
there is some conflict between what people want and business 
interests. I actually don't think that is the case. I think a 
lot of these hard decisions come down to a lot of different 
interests between different people.
    So, for example, on the one hand, people want the ability 
to sign into apps and bring some of their information and bring 
some of their friends' information in order to have a social 
experience, and, on the other hand, everyone wants their 
information locked down and completely private. And the 
question is not a business question as much as which of those 
equities do you weigh more.
    Mr. Peters. I think part of it is that, but part of it is 
also what happened with Cambridge Analytica. Some of this data 
got away from us.
    And I would suggest to you that if there were financial 
consequences to that that made a difference to the business, 
not people dropping their Facebook accounts, that it would get 
more attention. And it is not so much a business model choice. 
I congratulate you on your business model. But it is that these 
issues aren't getting the bottom-line attention that I think 
would have made them a priority with respect to Facebook.
    Let me just follow up, in my final time, on an exchange you 
had with Senator Graham yesterday about regulation. And I think 
the Senator said, do you as a company welcome regulation? You 
said, if it is the right regulation, then yes. Question: Do you 
think that the Europeans have it right? And you said, I think 
they get some things right.
    I wanted you to elaborate on what the Europeans got right 
and what do you think they got wrong.
    Mr. Zuckerberg. Congressman, well, there are a lot of 
things that the Europeans do, and I think that--I think GDPR, 
in general, is going to be a very positive step for the 
internet. And it codifies--a lot of the things in there are 
things that we have done for a long time. Some of them are 
things that I think would be good steps for us to take.
    So, for example, the controls that this requires are 
generally controls, privacy controls, that we have offered 
around the world for years. Putting the tools in front of 
people repeatedly, not just having them in settings but putting 
them in front of people and making sure that people understand 
what the controls are and that they get affirmative consent, I 
think is a good thing to do that we have done periodically in 
the past, but I think it makes sense to do more.
    Mr. Peters. Great. Anything you think they----
    Mr. Zuckerberg. And I think that is something that the GDPR 
will require us to do and will be positive.
    Mr. Peters. Anything you think they got wrong?
    Mr. Zuckerberg. I need to think about that more.
    Mr. Peters. Well, I would appreciate it if you could 
respond in writing.
    I, again, really appreciate you being here.
    Thank you, Mr. Chairman.
    Mr. Walden. Thank you.
    We will go now to the gentleman from North Carolina, Mr. 
Hudson, for 4 minutes.
    Mr. Hudson. Thank you.
    Thank you, Mr. Zuckerberg, for being here. This is a long 
day. You are here voluntarily, and we sure appreciate you being 
here.
    I can say from my own experience, I have hosted two events 
with Facebook in my district in North Carolina, working with 
small business and finding ways they can increase their 
customer base on Facebook, and it has been very beneficial to 
us. So I thank you for that.
    I do want to pivot slightly and frame the discussion in 
another light for my question. One of the greatest honors I 
have is I represent the men and women at Fort Bragg, the 
epicenter of the universe, home of the Airborne, Special 
Operations. You visited last year.
    Mr. Zuckerberg. I did.
    Mr. Hudson. Very well-received. So you understand that, due 
to the sensitive nature of some of the operations these 
soldiers conduct, that many are discouraged or even prohibited 
from having a social media presence.
    However, there are others who still have profiles. There 
are some who may have deleted their profiles upon entering 
military service. Many have family members who have Facebook 
profiles. And, as we have learned, each one of these users' 
information may be shared without their consent.
    There is no way that Facebook can guarantee the safety of 
this information on another company's server if they sell this 
information. If private information can be gathered by apps 
without explicit consent of the user, they are almost asking to 
be hacked.
    Are you aware of the national security concerns that would 
come from allowing those who seek to harm our Nation access to 
information, such as the geographical location of members of 
our armed services? Is this something that you are looking at?
    Mr. Zuckerberg. Congressman, I am not specifically aware of 
that threat, but, in general, there are a number of national 
security and election-integrity-type issues that we focus on. 
And we try to take a very broad view of that. And the more 
input that we can get from the intelligence community, as well, 
encouraging us to look into specific things, the more 
effectively we could do that work.
    Mr. Hudson. Great. Well, I would love to follow up with you 
on that.
    It has been said many times here that you refer to Facebook 
as a platform for all ideas. I know you have heard from many, 
yesterday and today, about concerns regarding Facebook 
censorship of content, particularly content that may promote 
Christian beliefs or conservative political beliefs. I have to 
bring up Diamond and Silk again, because they are actually from 
my district, but I think you have addressed these concerns.
    But I think it has also become very apparent, and I hope 
that it has become very apparent to you, that this is a very 
serious concern. I actually asked on my Facebook page for my 
constituents to give me ideas of things they would like me to 
ask you today, and the most common question was about personal 
privacy.
    So this is something that I think there is an issue--there 
is an issue that your company, in terms of trust with 
consumers, that I think you need to deal with. I think you 
recognize that, based on your testimony today.
    But my question to you is, what is the standard that 
Facebook uses to determine what is offensive or controversial? 
And how has that standard been applied across Facebook's 
platform?
    Mr. Zuckerberg. Congressman, this is an important question. 
So there are a couple of standards. The strongest one is things 
that will cause physical harm or threats of physical harm. But 
then there is a broader standard of hate speech and speech that 
might make people feel just broadly uncomfortable or unsafe in 
the community.
    Mr. Hudson. That is probably the most difficult to define, 
so I guess my question is----
    Mr. Zuckerberg. It is very----
    Mr. Hudson [continuing]. What standards do you apply to try 
to determine what is hate speech versus what is just speech you 
may disagree with?
    Mr. Zuckerberg. Congressman, that is a very important 
question and, I think, is one that we struggle with 
continuously. And the question of what is hate speech versus 
what is legitimate political speech is, I think, something that 
we get criticized both from the left and the right on, on what 
the definitions are that we have.
    It is nuanced, and we try to lay this out in our community 
standards, which are public documents that we can make sure 
that you and your office get to look through the definitions on 
this. But this is an area where I think society's sensibilities 
are also shifting quickly. And it is also very different in 
different----
    Mr. Hudson. I am just about out of time here. I hate to cut 
you off, but let me just say that, you know, based on the 
statistics Mr. Scalise shared and the anecdotes we can provide 
you, it seems like there is still a challenge when it comes to 
conservative----
    Mr. Walden. The gentleman's----
    Mr. Hudson [continuing]. And I hope you will address that.
    Mr. Zuckerberg. I agree.
    Mr. Hudson. With that, Mr. Chairman, I will stop talking.
    Mr. Walden. The gentleman's time has expired.
    We now go to the gentleman from New York, Mr. Collins, for 
4 minutes.
    Mr. Collins. Thank you, Mr. Chairman.
    And I wasn't sure where I would be going with this, but 
when you are number 48 out of 54 Members, you know, you can do 
a lot of listening, and I have tried to do that today. And to 
frame where I am now, I think--first of all, thank you for 
coming.
    And there is a saying, you don't know what you know until 
you know it. And I really think you have done a great benefit 
to Facebook, and yourself in particular, as we now have heard, 
without a doubt, Facebook doesn't sell data. I think the 
narrative would be: Of course you sell data. And now we know 
all, across America, you don't sell data. I think that is good 
for you, a very good clarification.
    The other one is that the whole situation we are here is 
because a third-party app developer, Aleksandr Kogan, didn't 
follow through on the rules. He was told he can't sell the 
data, he gathered the data, and then he did what he was not 
supposed to, and he sold that data. And it is very hard to 
anticipate a bad actor doing what they are doing until after 
they have done it. And, clearly, you took actions after 2014.
    So one real quick question is, What did change--in, you 
know, 10 or 20 or 30 seconds, what data was being collected 
before you locked down the platform, and how did that change to 
today?
    Mr. Zuckerberg. Congressman, thank you.
    So, before 2014 when we announced the change, someone could 
sign into an app and share some of their data but also could 
share some basic information about their friends. And, in 2014, 
the major change was we said, now you are not going to be able 
to share any information about your friends.
    So, if you and your friend both happen to be playing a game 
together or on an app listening to music together, then that 
app could have some information from both of you, because you 
each had signed in and authorized that app, but, other than 
that, people wouldn't be able to share information from their 
friends.
    So the basic issue here, where 300,000 people used this 
poll and the app and then ultimately sold it to Cambridge 
Analytica and Cambridge Analytica had access to as many as 87 
million people's information, wouldn't be possible today. 
Today, if 300,000 people used an app, the app might have 
information about 300,000 people.
    Mr. Collins. Yes. And I think that is a very good 
clarification as well, because people are wondering, how does 
300,000 become 87 million? So that is also something that is 
good to know.
    And in, you know, I guess my last minute, as I have heard 
the tone here, I have to give you all the credit in the world. 
I could tell from the tone--we would say ``the other side,'' 
sometimes, when we point to our left. But when the 
Representative from Illinois, to quote her, said, ``Who is 
going to protect us from Facebook,'' I mean, that threw me back 
in my chair. I mean, that was certainly an aggressive--we will 
use the polite word, ``aggressive,''--but, I think, out-of-
bounds kind of comment. Just my opinion.
    And I have said--I was interviewed by a couple of folks in 
the break, and I said, you know, as I am listening to you 
today, I am quite confident that you truly are doing good. You 
believe in what you are doing. Two-point-two billion people are 
using your platform. And I sincerely know in my heart that you 
do believe in keeping all ideas equal, and you may vote a 
certain way or not, but that doesn't matter. You have 27,000 
employees. And I think the fact is that you are operating under 
a Federal Trade Commission consent decree from 2011. That is a 
real thing, and it goes for 20 years.
    So, when someone said, do we need more regulations, do we 
need more legislation, I said no. Right now, what we have is 
Facebook with a CEO whose mind is in the right place, doing the 
best you can with 27,000 people. But the consent decree does 
what it does. I mean, there would be significant financial 
penalties were Facebook to ignore that consent decree.
    So I think, as I am hearing this meeting going back and 
forth, I, for one, think it was beneficial. It is good. I don't 
think we need more regulations and legislation now. And I want 
to congratulate you, I think, on doing a good job here today 
and presenting your case, and we now know things we didn't know 
beforehand. So thank you again.
    Mr. Zuckerberg. Thank you.
    Mr. Walden. OK. Now I think we go next in order to Mr. 
Walberg, actually, who was here when the gavel dropped. So we 
will go to Mr. Walberg for 4 minutes.
    Mr. Walberg. Well, thank you, Mr. Chairman. I appreciate 
that.
    And, Mr. Zuckerberg, I appreciate you being here as well. 
It has been interesting to listen to all of the comments, from 
both sides of the aisle, to get an idea of the breadth, length, 
depth, the vastness of our world wide web, social media, and, 
more specifically, Facebook.
    I want to ask three starter questions. I don't think they 
will take a long answer, but I will let you answer.
    Earlier, you indicated that there were bad actors that 
triggered your platform policy changes in 2014, but you didn't 
identify who those bad actors were. Who were they?
    Mr. Zuckerberg. Congressman, I don't, sitting here today, 
remember a lot of the specifics of early on. But we saw, 
generally, a bunch of app developers who were asking for 
permissions to access people's data in ways that weren't 
connected to the functioning of an app. So they would just say, 
OK, if you want to log into my app, you would have to share all 
this content even though the app doesn't actually use that in 
any reasonable way.
    So we looked at that and said, hey, this isn't right, or we 
should review these apps and make sure that if an app developer 
is going to ask someone to access certain data that they 
actually have a reason why they want to get access to it. And, 
over time, we have made a series of changes that culminated in 
the major change in 2014 that I referenced before, where 
ultimately we made it so now a person can sign in but not bring 
their friends' information with them anymore.
    Mr. Walberg. OK.
    Secondly, is there any way--any way--that Facebook can, 
with any level of certainty, assure Facebook users that every 
single app on its platform is not misusing their data?
    Mr. Zuckerberg. Congressman, it would be difficult to ever 
guarantee that any single--that there are no bad actors.
    Mr. Walberg. OK.
    Mr. Zuckerberg. Every problem around security is sort of an 
arms race, right? You have people who are trying to abuse 
systems, and our responsibility is to make that as hard as 
possible and to take the necessary precautions for a company of 
our scale. And I think that the responsibility that we have is 
growing with our scale, and we need to make sure that we----
    Mr. Walberg. And I think that is an adequate answer. It is 
a truthful answer.
    Can you assure me that ads and content are not being denied 
based on particular views?
    Mr. Zuckerberg. Congressman, yes, politically. Although, I 
think what you--when I hear that, what I hear is, kind of, 
normal political speech. We certainly are not going to allow 
ads for terrorist content, for example, so we would be banning 
those views. But I think that that is something that we would 
all expect.
    Mr. Walberg. Let me push it here, and I wanted to bring up 
a screen grab that we had. Again, going back to Representative 
Upton earlier on, it was his constituent, but was my 
legislative director for a time. It was his campaign ad that he 
was going to boost his post, and he was rejected. He was 
rejected as being--it said here, ad wasn't approved because it 
doesn't follow advertising policies. ``We don't allow ads that 
contain shocking, disrespectful, or sensational content, 
including ads that depict violence or threats of violence.''
    Now, as I read that--and I also know that you have since, 
or Facebook has since declared, no, that was a mistake, an 
algorithm problem that went on there. But that is our concern 
that we have, that it wouldn't be because he had his picture 
with a veteran, it wouldn't be because he wanted to reduce 
spending, but pro-life, Second Amendment, those things, and 
conservative. That causes us some concerns.
    So I guess what I am saying here, I believe that we have to 
have a light touch in regulation. And when I hear some of my 
friends on the other side of the aisle decry the fact of what 
is going on now and they were high-fiving what took place in 
2012 with President Obama and what he was capable of doing in 
bringing in and grabbing for use in a political way, I would 
say the best thing we can do is have these light-of-day 
hearings, let you self-regulate as much as possible, with a 
light touch coming from us, but recognizing that, in the end, 
your Facebook subscribers are----
    Mr. Walden. The gentleman's time----
    Mr. Walberg [continuing]. Going to tell you what you need 
to do.
    And so thank you for your time.
    And thank you for the time you have given me.
    Mr. Walden. Yep.
    I now recognize the gentlelady from California, Mrs. 
Walters, for 4 minutes.
    Mrs. Walters. Thank you. Thank you, Mr. Chairman.
    And thank you, Mr. Zuckerberg, for being here.
    One of my biggest concerns is the misuse of consumer data 
and what controls users have over their information. You have 
indicated that Facebook users have granular control over their 
own content and who can see it.
    As you can see on the screen, on the left is a screen shot 
of the on/off choice for apps, which must be on for users to 
use apps that require a Facebook login and which allows apps to 
collect your information.
    On the right is a screen shot of what a user sees when they 
want to change the privacy settings on a post, photo, or other 
content. Same account, same user. But which control governs, 
the app platform access or the user's decision as to who they 
want to see a particular post?
    Mr. Zuckerberg. Sorry. Could you repeat the----
    Mrs. Walters. So which app governs, OK, or which control 
governs, the app platform access or the user's decision as to 
who they want to see a particular post? So if you look up there 
on the screen.
    Mr. Zuckerberg. Yes. Congresswoman, so, when you are using 
the service, if you share a photo, for example, and you say, 
``I only want my friends to see it,'' then in News Feed and 
Facebook, only your friends are going to see it. If you then go 
to a website and then you want to sign into that website, that 
website can ask you and say, ``Hey, here are the things that I 
want to get access to in order for you to use the website.'' If 
you sign in after seeing that screen where the website is 
asking for certain information, then you are also authorizing 
that website to have access to that information.
    If you have turned off the platform completely, which is 
what the control is that you have on the left, then you 
wouldn't be able to sign into another website. You would have 
to go reactivate this before that would even work.
    Mrs. Walters. OK. Do you think that the average Facebook 
user understands that is how it works, and how would they find 
this out?
    Mr. Zuckerberg. Congresswoman, I think that these--that the 
settings when you are signing into an app are quite clear in 
terms of every time you go to sign into an app, you have to go 
through a whole screen that says: Here is the app; here are 
your friends who use it; here are the pieces of information 
that it would like to have access to. You make a decision 
whether you sign in, yes or no, and until you say, ``I want to 
sign in,'' nothing gets shared.
    Similarly, in terms of sharing content, every single time 
that you would upload a photo, you have to make a decision. It 
is right there at the top. It says, ``Are you sharing this with 
your friends or publicly or with some group,'' and every single 
time that is quite clear.
    So, in those cases, yes, I think that this is quite clear.
    Mrs. Walters. OK. So these user control options are in 
different locations. And it seems to me that putting all 
privacy control options in a single location would be more 
user-friendly. Why aren't they in the same location?
    Mr. Zuckerberg. Well, Congresswoman, we typically do two 
things. We have a settings page that has all of your settings 
in one place in case you want to go and play around or 
configure your settings. But the more important thing is 
putting the settings in line when you are trying to make a 
decision.
    So, if you are going to share a photo now, we think that 
your setting about who you want to share that photo with should 
be in line right there. If you are going to sign into an app, 
we think that the--it should be very clear right in line when 
you are signing into the app what permissions that app is 
asking for. So we do both. It is both in one place in settings 
if you want to go to it, and it is in line in the relevant 
place.
    Mrs. Walters. OK. California has been heralded by many on 
this committee for its privacy initiatives. Given that you and 
other major tech companies are in California and we are still 
experiencing privacy issues, how do you square the two?
    Mr. Zuckerberg. Sorry. Can you repeat that?
    Mrs. Walters. So, given that you and other major tech 
companies are in California and we are still experiencing 
privacy issues, how do you square the two?
    Mr. Zuckerberg. What was the other piece?
    Mrs. Walters. California has been heralded by many on this 
committee for its privacy initiatives.
    Mr. Zuckerberg. Well, Congresswoman, I think that privacy 
is not something that you can ever--our understanding of the 
issues between people and how they interact online only grows 
over time.
    So I think we will figure out what the social norms are and 
the rules that we want to put in place, and then, 5 years from 
now, we will come back and we will have learned more things, 
and either that will just be that social norms have evolved and 
the company's practices have evolved or we will put rules in 
place.
    But I think that our understanding of this is going to 
evolve over quite a long time. So I would expect that even if, 
you know, a State like California is forward leaning, that is 
not necessarily going to mean that we fully understand 
everything or have solved all the issues.
    Mr. Walden. The gentlelady's time has expired.
    I recognize the gentlelady from Michigan, Mrs. Dingell, for 
4 minutes.
    Mrs. Dingell. Thank you, Mr. Chairman.
    Mr. Zuckerberg, thank you for your patience.
    I am a daily Facebook user, much to my staff's distress. I 
do it myself. And because we need a little humor, I am even 
married to a 91-year-old man that is the king of Twitter. But I 
know Facebook's value. I have used it for a long time. But with 
that value also comes obligation.
    We have all been sitting here for more than 4 hours. Some 
things are striking during this conversation. As CEO, you 
didn't know some key facts. You didn't know about major court 
cases regarding your privacy policies against your company. You 
didn't know that the FTC doesn't have fining authority and that 
Facebook could not have received fines for the 2011 consent 
order.
    You didn't know what a shadow profile was. You didn't know 
how many apps you need to audit. You did not know how many 
other firms have been sold data by Dr. Kogan other than 
Cambridge Analytica and Eunoia Technologies, even though you 
were asked that question yesterday. And, yes, we were all 
paying attention yesterday. You don't even know all the kinds 
of information Facebook is collecting from its own users.
    Here is what I do know: You have trackers all over the web. 
On practically every website you go to, we all see the Facebook 
like or Facebook share buttons. And with the Facebook pixel, 
people browsing the internet may not even see that Facebook 
logo. It doesn't matter whether you have a Facebook account. 
Through those tools, Facebook is able to collect information 
from all of us.
    So I want to ask you, how many Facebook like buttons are 
there on non-Facebook web pages?
    Mr. Zuckerberg. Congresswoman, I don't know the answer to 
that off the top of my head, but we will get back to you.
    Mrs. Dingell. Is the number over 100 million?
    Mr. Zuckerberg. I believe we have served the like button on 
pages more than that, but I don't know the number of pages that 
have the like button on actively.
    Mrs. Dingell. How many Facebook share buttons are there on 
non-Facebook web pages?
    Mr. Zuckerberg. I don't know the answer to that exactly off 
the top of my head either, but that is something that we can 
follow up with you on.
    Mrs. Dingell. And we think that is over 100 million likely.
    How many chunks of Facebook pixel code are there on non-
Facebook web pages?
    Mr. Zuckerberg. Congresswoman, you are asking some specific 
stats that I don't know off the top of my head, but we can 
follow up with you and get back to you on all of these.
    Mrs. Dingell. Can you commit to get back to the committee? 
The European Union is asking for 72 hours on transparency. Do 
you think we could get that back in committee in 72 hours?
    Mr. Zuckerberg. Congresswoman, I will talk to my team, and 
we will follow up.
    Mrs. Dingell. I know you are still reviewing, but do you 
know now whether there are other fourth parties that had access 
to the data from someone other than Dr. Kogan, or is this 
something we are going to find out in a press release down the 
road?
    I think what worries all of us--and you have heard it 
today--is it has taken almost 3 years to hear about that. And I 
am convinced that there are other people out there.
    Mr. Zuckerberg. Congresswoman, as I have said a number of 
times, we are now going to investigate every single app that 
had access to a large amount of people's information in the 
past before we locked down the platform.
    I do imagine that we will find some apps that were either 
doing something suspicious or misused people's data. If we find 
them, then we will ban them from the platform, take action to 
make sure that they delete the data, and make sure that 
everyone involved is informed.
    Mrs. Dingell. And you make it public quickly, not 3 years?
    Mr. Zuckerberg. As soon as we find them.
    Mrs. Dingell. So I am going to conclude because my time is 
almost up, that I worry that when I hear companies value our 
privacy, that it is meant in monetary terms not in the moral 
obligation to protect it. Data protection and privacy are like 
clean air and clean water. There need to be clear rules of the 
road.
    Mr. Walden. The gentlelady's time has expired.
    The Chair recognizes the gentleman from Pennsylvania, Mr. 
Costello, for 4 minutes.
    Mr. Costello. Thank you, Mr. Chairman.
    I would echo Congressman Collins' comments as well.
    Mr. Zuckerberg, I think that we, as Americans, have a 
concept of digital privacy rights in privacy that aren't 
necessarily codified, and we are trying to sift through how do 
we actually make privacy rights in a way that are intelligible 
for tech and understandable to the community at large. And so 
my questions are oriented in that fashion.
    First, if you look at GDPR, the EU privacy--the law that is 
about to take effect, what pieces of that do you feel would be 
properly placed in American jurisprudence, in other words, 
right to erasure, right to get our data back, right to rectify? 
Could you share with us how you see that playing out, not just 
for you but for the smaller companies, because I do believe you 
have a sincere interest in seeing small tech companies prosper?
    Mr. Zuckerberg. Yes, Congressman.
    So there are a few parts of GDPR that I think are important 
and good. One is making sure that people have control over how 
each piece of information that they share is used. So people 
should have the ability to know what a company knows about 
them, to control and have a setting about who can see it, and 
to be able to delete it whenever they want.
    The second set of things is making sure that people 
actually understand what the tools are that are available, so 
not just having it in some settings page somewhere but put the 
tools in front of people so that they can make a decision.
    And that both builds trust and makes it so that people's 
experiences are configured in the way that they want. That is 
something that we have done a number of times over the years at 
Facebook, but with GDPR, we will now be doing more and around 
the whole world.
    The third piece is there are some very sensitive 
technologies that I think are important to enable innovation 
around, like face recognition, but that you want to make sure 
that you get special consent for, right.
    If we make it too hard for American companies to innovate 
in areas like facial recognition, then we will lose to Chinese 
companies and other companies around the world where--that are 
able to innovate on that. But----
    Mr. Costello. Do you feel you should be able to deploy AI 
for facial recognition for a non-FB user?
    Mr. Zuckerberg. Congressman, I think that that is a good 
question, and I think that this is something that probably--
that we should--that people should have control over how it is 
used and that we are going to be rolling out and asking people 
whether they want us to use it for them around the world as 
part of this push that is upcoming.
    But I think, in general, for sensitive technologies like 
that, I do think you want a special consent. I think that would 
be a valuable thing to consider.
    Mr. Costello. Right. Two quick ones. Is Facebook, in 
utilizing that platform, ever a publisher, in your mind?
    Mr. Zuckerberg. Congressman----
    Mr. Costello. You would say you are responsible for 
content, right?
    Mr. Zuckerberg. Yes.
    Mr. Costello. You said that yesterday. Are you ever a 
publisher, as the term is legally used?
    Mr. Zuckerberg. Congressman, I am not familiar with how the 
term is legally used.
    Mr. Costello. Would you ever be legally responsible for the 
content that is put onto your platform?
    Mr. Zuckerberg. Well, Congressman, let me put it this way: 
There is content that we find, specifically in video today----
    Mr. Costello. Right.
    Mr. Zuckerberg. And when we are commissioning a video to be 
created, I certainly think we have full responsibility----
    Mr. Costello. Agree.
    Mr. Zuckerberg [continuing]. Of owning that content.
    Mr. Costello. Which is what, I think, Chairman Walden's 
question was upfront. Right.
    Mr. Zuckerberg. But the vast majority of the content on 
Facebook is not something that we commissioned. For that, I 
think our responsibility is to make sure that the content on 
Facebook is not harmful, that people are seeing things that are 
relevant to them and that encourage interaction and building 
relationships with the people around them. And that, I think, 
is the primary responsibility that we have.
    Mr. Costello. My big concern--I am running out of time--is 
someone limits their data to not being used for something that 
it might potentially be used for that they have no idea what--
how it might actually socially benefit.
    And I am out of time, but I would like for you to share at 
a later point in time how the data that you get might be 
limited by a user and your inability to use that data may 
actually prevent the kind of innovation that would bring about 
positive social change in this country? Because I do believe 
that was the intention and objective of your company, and I do 
believe you perform it very, very well in a lot of ways.
    Thank you. I yield back.
    Mr. Zuckerberg. Thank you.
    Mr. Walden. The gentleman yields back.
    I go now to the gentleman from Georgia, Mr. Carter, for 4 
minutes.
    Mr. Carter. Thank you, Mr. Chairman.
    Thank you, Mr. Zuckerberg, for being here. You are almost 
done. When you get to me, that means you are getting close to 
the end, so congratulations. Thank you for being here. We do 
appreciate it.
    You know, you wouldn't be here if it wasn't for the 
privacy, people's information and the privacy and the fact that 
we had--you had this lapse. You know all about fake news. You 
know all about foreign intervention. I know you are concerned 
about that. I want to talk about just a few different subjects, 
if you will.
    And I would like to ask you just some yes-or-no questions. 
Please excuse my redundancy. I know that some Members have 
already asked you about some of these subjects, but I would 
like to ask you, Mr. Zuckerberg, did you know that 91 people 
die every day because of opioid addiction? Yes or no. Did you 
know that? 91 people every day?
    Mr. Zuckerberg. I did not know that specifically, but I 
know it is a terrible----
    Mr. Carter. Did you know that it is estimated to be between 
2.5 million to 11.5 million people in this country right now 
who are addicted to opioids?
    Mr. Zuckerberg. Yes.
    Mr. Carter. OK. Did you know that the average age of 
Americans has decreased for the first time in decades as a 
result of what people are saying is a result of the opioid 
epidemic?
    Mr. Zuckerberg. Yes, especially among certain demographics.
    Mr. Carter. Absolutely.
    I ask you this because some of the other Members have 
mentioned that about the ads for fentanyl and other illicit 
drugs that are on the internet and where you can buy them and 
about your responsibility to monitor that and make sure that is 
not happening.
    I had the opportunity this past week to speak at the 
Prescription Drug Abuse and Heroin Summit in Atlanta that 
Representative Hal Rogers started some years ago. Also, we had 
the FDA Commissioner there, and he mentioned the fact that he 
is going to be meeting with CEOs of internet companies to 
discuss this problem. I hope that you will be willing to at 
least have someone there to meet with him so that we can get 
your help in this. This is extremely important.
    Mr. Zuckerberg. Congressman, I will make sure that someone 
is there. This is an important issue.
    Mr. Carter. OK. Let me ask you another question, Mr. 
Zuckerberg. Did you know that there are conservation groups 
that have provided evidence to the Securities and Exchange 
Commission that endangered wildlife goods, in preliminary 
ivory, is extensively traded on closed groups on Facebook?
    Mr. Zuckerberg. Congressman, I was not specifically aware 
of that, but I think we know that there are issues with content 
like this that we need to do more proactive monitoring for.
    Mr. Carter. All right. Well, let me ask you, did you know 
that there are some conservation groups that assert that there 
is so much ivory being sold on Facebook that it is literally 
contributing to the extinction of the elephant species?
    Mr. Zuckerberg. Congressman, I had not heard that.
    Mr. Carter. OK. And did you know that the American--or 
excuse me, the Motion Picture Association of America is having 
problems with piracy of movies and of their products and that 
not only is this challenging their profits but their very 
existence. Did you know that that was a problem?
    Mr. Zuckerberg. Congressman, I believe that has been an 
issue for a long time.
    Mr. Carter. It has been. It has been. So you did know that?
    Well, the reason I ask you this is that I just want to make 
sure that I understand you have an understanding of a 
commitment. Look, you said earlier--it may have been 
yesterday--that hate speech is difficult to discern. And I get 
that. And I understand that, and you are absolutely right. But 
these things are not, and we need your help with this.
    Now, I will tell you, there are Members of this body who 
would like to see the internet monitored as a utility. I am not 
one of those. I believe that that would be the worst thing we 
could do. I believe it would stifle innovation.
    I don't think you can legislate morality, and I don't want 
to try to do that. But we need a commitment from you that these 
things that can be controlled like this, that you will help us 
and that you will work with law enforcement to help us with 
this.
    Look, you love America. I know that. We all know that. We 
need your help here. I don't want Congress to have to act. You 
want to see a mess, you let the Federal Government get into 
this. You will see a mess, I assure you. Please, we need your 
help with this, and I just need that commitment. Can I get that 
commitment?
    Mr. Zuckerberg. Congressman, yes, we take this very 
seriously. That is a big part of the reason overall, these 
content issues, why, by the end of this year, we are going to 
have more than 20,000 people working on security and content 
review, and we need to build more tools too. I agree.
    Mr. Carter. Thank you very much.
    Mr. Walden. The gentleman's time has expired.
    The Chair recognizes Mr. Duncan for 4 minutes.
    Mr. Duncan. Thank you, Mr. Chairman.
    Usually I am last, but today I think we have one behind me 
that came in late. Mr. Zuckerberg----
    Mr. Walden. Only by 2 minutes did he come in late.
    Mr. Duncan [continuing]. I want to thank you for all the 
work you have done, and I want to let you know that I have been 
on Facebook since 2007 and started as a State legislator, used 
Facebook to communicate with my constituents, and it has been 
an invaluable tool for me in communicating. We can actually do 
in real time multiple issues as we deal with them here in 
Congress, answer questions. It is almost like a townhall in 
real time.
    I also want to tell you that your staff here at the 
Governmental Affairs Office, Chris Herndon and others, do a 
fabulous job in keeping us informed. So I want to thank you for 
that.
    Before this hearing, when we heard about it, we asked our 
constituents and our friends on Facebook what would they want 
me to ask you. And the main response was addressing the 
perceived and, in many instances, confirmed bias and viewpoint 
discrimination against Christians and conservatives on your 
platform.
    Today, listening to this, I think the two main issues are 
user privacy and censorship. The Constitution of the United 
States and the First Amendment says Congress shall make no law 
respecting an establishment of religion or prohibiting the free 
exercise thereof, nor will it abridge the freedom of speech, of 
the press, the right of people to assemble or address the 
Congress for redress of grievances--petition Congress for 
redress of grievances.
    I have got a copy of the Constitution I want to give you at 
the end of this hearing. The reason I say all that, this is 
maybe a rhetorical question, but why not have a community 
standard for free speech and free exercise of religion that is 
simply a mirror of the First Amendment with algorithms that are 
viewed--that have a viewpoint that is neutral? Why not do that?
    Mr. Zuckerberg. Well, Congressman, I think that we can all 
agree that certain content like terrorist propaganda should 
have no place on our network. And the First Amendment, my 
understanding of it, is that that kind of speech is allowed in 
the world. I just don't think that it is the kind of thing that 
we want to allow to spread on the internet.
    So, once you get into that, you are already--you are 
deciding that you take this value that you care about safety 
and that we don't want people to be able to spread information 
that could cause harm. And I think that that--our general 
responsibility is to allow the broadest spectrum of free 
expression as we can, and that is why----
    Mr. Duncan. And I appreciate that answer. You are right 
about propaganda and other issues there.
    And I believe the Constitution generally applies to 
Government and says that Congress shall make no law 
respecting--talks about religion, and then it won't abridge the 
freedom of speech or the press.
    But the standard has been applied to private businesses, 
whether those are newspapers or other media platform. And I 
would argue that social media has now become a media platform 
to be considered in a lot of ways the same as other press 
media. So I think the First Amendment probably does apply and 
will apply.
    Let me ask you this: What will you do to restore the First 
Amendment rights of Facebook users and ensure that all users 
are treated equally, regardless of whether they are 
conservative, moderate, liberal, or whatnot?
    Mr. Zuckerberg. Well, Congressman, I think that we make a 
number of mistakes in content review today that I don't think 
only focus on one political persuasion. And I think it is 
unfortunate that, when those happen, people think that we are 
focused on them. And it happens in different political groups. 
I mean, we have----
    Mr. Duncan. But in the essence of time, conservatives are 
the ones that raise the awareness that their content has been 
pulled. I don't see the same awareness being raised by liberal 
organizations, liberal candidates, or liberal policy 
statements.
    And I think you have been made aware of this over the last 
2 days. You probably need to go back and make sure that those 
things are treated equal, and I would appreciate you do that. 
Again, I appreciate the platform. I appreciate the work you do, 
and we stand willing and able to help you here in Congress 
because Facebook is an invaluable part of what we do and how we 
communicate. So thanks for being here.
    Mr. Zuckerberg. Thank you.
    Mr. Duncan. I yield back.
    Mr. Walden. And for our final 4 minutes of questioning 
comes from Mr. Cramer of North Dakota, former head of the 
public utility commission there. We welcome your comments. Go 
ahead.
    Mr. Cramer. Thank you.
    And thanks for being here, Mr. Zuckerberg.
    You know, ``don't eat the fruit of this tree'' is the only 
regulation that was ever initiated before people started 
abusing freedom. Since then, millions of regulations, laws, and 
rules have been created in response to an abuse of freedom. 
Oftentimes that response is more extreme than the abuse, and 
that is what I fear could happen based on some of the things I 
have heard today in response to this.
    So this national discussion is very important, first of 
all, not only for these last 2 days but that it continues, lest 
we over respond, OK. Now, that said, I think that the consumer 
and industry, whatever industry it is, your company or others 
like yours, share that responsibility. So I appreciate both 
your patience and your preparation coming in today.
    But in response to the questions from a few of my 
colleagues related to the illegal drug ads, I have to admit 
that there were times when I was thinking, ``His answers aren't 
very reassuring to me,'' and I am wondering what your answer 
would be as to how quickly you could take down an illegal drug 
site if there was a $1 million per-post per-day regulation fine 
tied to it.
    In other words, give it your best. I mean, don't wait for 
somebody to flag it. Look for it. Make it a priority. It is 
certainly far more dangerous than a couple of conservative 
Christian women on TV. So, please, be better than this.
    Mr. Zuckerberg. Congressman, I agree that this is very 
important, and I miscommunicated if I left the impression that 
we weren't proactively going to work on tools to take down this 
content and we are only going to rely on people to flag it for 
us.
    Right now, I think underway we have efforts to focus not 
only on ads, which has been most of the majority of the 
questions, but a lot of people share this stuff in groups too 
and the free part of the product that aren't paid, and we need 
to get that content down too.
    I understand how big of an issue this is. Unfortunately, 
the enforcement isn't perfect. We do need to make it more 
proactive, and I am committed to doing that.
    Mr. Cramer. And I don't expect it to be perfect, but I do 
expect it to be a higher priority than conservative thought.
    Speaking of that, I think in some of your responses to 
Senator Cruz yesterday and some responses today related to 
liberal bias, you have sort of implied the fact that while you 
have these 20,000 enforcement folks, you have implied that 
Silicon Valley--perhaps this was more yesterday--that Silicon 
Valley is a very liberal place and so the talent pool perhaps 
leans left in its bias.
    Let me suggest that you look someplace perhaps in the 
middle of the North American content for some people. Maybe 
even your next big investment of capital could be in the--
someplace like, say, Bismarck, North Dakota, or Williston, 
where you have visited, where people tend to be pretty 
commonsense and probably perhaps even more diverse than 
Facebook in some respects. If the talent pool is a problem, 
then let's look for a different talent pool, and maybe we can 
even have a nice big center someplace.
    I want to then close with this, because you testified 
yesterday--and the opening statement by the ranking member of 
the committee bothered me in that suddenly there is this great 
concern that the providers, particularly Facebook, other large 
edge providers and content providers, should be hyperregulated, 
when all along we, as Republicans, have been talking about net 
neutrality. We talked about, earlier this year or last year, 
when we rolled back the internet service provider privacy stuff 
that seemed tilted heavily in your favor and against them.
    Don't you think that ubiquitous platforms like Google and 
Facebook and many others should have the same responsibility to 
privacy as an internet service provider?
    Mr. Zuckerberg. Congressman, let me answer that in a 
second. And before I get to that, on your last point, the 
content reviewers who we have are not primarily located in 
Silicon Valley. So I think that was an important point.
    Mr. Cramer. It is.
    Mr. Zuckerberg. I do worry about the general bias of people 
in Silicon Valley, but the majority of the folks doing content 
review are around the world in different places.
    To your question about net neutrality, I think that there 
is a big difference between internet service providers and 
platforms on top of them. And the big reason is that--well, I 
just think about my own experience.
    When I was starting Facebook I had one choice of an 
internet service provider. And if I had to potentially pay 
extra in order to make it so that people could have Facebook as 
an option for something that they used, then I am not sure that 
we would be here today.
    Platforms, there are just many more. So it may be true that 
a lot of people choose to use Facebook. The average American, I 
think, uses about eight different communication and social 
network apps to stay connected to people.
    It just is clearly correct or true that there are more 
choices on platforms. So even though they can reach large 
scale, I think the pressure of just having one or two in a 
place does require us to think a little bit differently about 
that.
    Mr. Cramer. I will submit to you that I have fewer choices 
on the platform--in your type of a platform than I do internet 
service providers even in rural North Dakota.
    With that, thank you, Mr. Chairman.
    Mr. Walden. I suppose you don't want to hang around for 
another round of questions. Just kidding.
    Mr. Zuckerberg, your staff, several of them just passed out 
behind you.
    You know, on a serious note, as we close, I would welcome 
your suggestions of other technology CEOs we might benefit from 
hearing from in the future for a hearing on these issues as we 
look at net neutrality, as we look at privacy issues. These are 
all important. They are very controversial. We are fully 
cognizant of that. We want to get it right. And so we 
appreciate your comments and testimony today.
    There are no other Members that haven't asked you 
questions, and we are not doing a second round. So, seeing 
that, I just want to thank you for being here. I know we agreed 
to be respectful of your time. You have been respectful of our 
questions, and we appreciate your answers and your candor.
    As you know, some of our Members weren't able to ask all 
the questions they had, so they will probably submit those in 
writing, and we would like getting answers to those back in a 
timely manner.
    I would also like to include the following documents be 
submitted into the record by unanimous consent: a letter from 
American Civil Liberties Union; a letter from NetChoice; a 
letter from the Vietnam Veterans of America, which I referenced 
in my opening remarks; a letter from Public Knowledge; a letter 
and an FTC complaint from the Electronic Privacy Information 
Center; a letter from the Motion Picture Association of 
America; a letter from ACT, the App Association; a letter from 
the Committee for Justice; a letter from the Trans Atlantic 
Consumer Dialogue; and a letter from the civil society groups; 
and a letter from the National Council of Negro Women.
    [The information appears at the conclusion of the hearing.]
    Mr. Walden. Pursuant to committee rules, I remind Members 
they have 10 business days to submit additional questions for 
the record. And I ask that the witness submit their responses 
within 10 business days upon receipt of those questions.
    Without objections, our committee is now adjourned.
    [Whereupon, at 2:59 p.m., the committee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    [Questions submitted for the record and responses from 
Facebook, Inc., are saved in committee records and are 
available at  https://docs.house.gov/Committee/Calendar/
ByEvent.aspx?EventID=108090.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
